OFFICE    OF INSPECTOR       GENERAL
SEMIANNUAL REPORT TO CONGRESS
APRIL 1, 2003 - SEPTEMBER 30, 2003
                  This page intentionally left blank in printed copy.




Note: Hyperlinked items in this document appear in green. This differs from the
original document in which there is no green print.
                                                    FOREWORD




I am pleased to submit the semiannual report on the activities of the Department of Veterans
Affairs (VA), Office of Inspector General (OIG) for the period ended September 30, 2003. This
report is issued in accordance with the provisions of the Inspector General Act of 1978, as
amended. The OIG is dedicated to helping ensure that veterans and their families receive the
care, support, and recognition they have earned through service to our country.

A total of 104 reports on VA programs and operations resulted in systemic improvements and
increased efficiencies in areas of medical care, benefits administration, procurement, financial
management, information technology, and facilities management. Audits, investigations, and
other reviews identified $65.6 million in monetary benefits.

Our criminal investigators closed 439 investigations involving a wide variety of criminal activity
directed at VA personnel, veterans, programs, or operations. During the semiannual period, we
conducted investigations that led to 586 arrests, indictments, convictions, and pretrial
diversions. In addition, criminal and administrative investigators, along with Hotline staff,
accomplished 246 administrative sanctions. We provided investigative leads to other law
enforcement agencies that directly resulted in 70 fugitive felon arrests nationwide. We
produced $33.6 million in monetary benefits to VA (recoveries and savings). In one of our
cases, a VA pharmacist was sentenced to 8 years’ confinement and ordered to pay $500,000
for her role in stealing over 235,000 dosage units of schedule II and III controlled substances.

During this reporting period, two VA OIG special agents earned extraordinary honors by virtue
of their work on three significant criminal investigations highlighted in our previous semiannual
reports. In an unprecedented action, the Tampa chapter of the Military Order of the Purple
Heart, an organization chartered by the U.S. Congress exclusively for combat-wounded
veterans, presented the agents with National Commander Citation awards. Both agents
distinguished themselves in the performance of their investigative duties. These cases
involved the murder of a VA police officer, the death of a veteran due to an unauthorized drug
injection, and a false claim made by a Korean war veteran that he was a prisoner of war and
witnessed U.S. soldiers gunning down innocent civilians at No Gun Ri, Korea.

Our audit oversight of VA focused on determining how to improve service to veterans and their
families. Audits, contract reviews, and other reviews saved or identified improved uses for
$30.6 million. In addition, our audit of part-time physician time and attendance clearly showed
that part-time physicians were not working the hours established in their VA appointments; thus,
part-time physicians were not meeting their employment obligations to VA.

Our healthcare inspectors focused on quality of care issues in VA. An inspection of Veterans
Health Administration facility Quality Management (QM) programs found that managers did not
consistently analyze data collected for all quality improvement monitors. Significant QM actions
failed because existing tracking systems did not sufficiently ensure successful implementation
of recommended QM actions. In a joint interagency report by the Offices of Inspectors General
of the Departments of Agriculture, Defense, Energy, Health and Human Services, and VA, the
OIGs found that, while senior officials from each agency had taken actions to improve security
over biological agents, more needs to be done.

Our Hotline provides an opportunity for employees, veterans, and other concerned citizens to
report criminal activity, waste, abuse, and mismanagement. The reporting of such issues is
integral to the goal of improving the efficiency and effectiveness of the Government. During the
reporting period, the Hotline received 7,194 contacts and opened 570 cases. Analysts closed
650 cases, of which 219 (33 percent) contained substantiated allegations. The monetary
impact resulting from these cases totaled almost $1.4 million.

The OIG’s ongoing Combined Assessment Program (CAP) evaluates the quality, efficiency, and
effectiveness of VA facilities. Through this program, auditors, investigators, and healthcare
inspectors collaborate to assess key operations and programs at VA medical centers and VA
regional offices on a cyclical basis. The 30 CAP reviews and 2 CAP summary reviews
completed during this reporting period highlighted numerous opportunities for improvement in
quality of care, management controls, and fraud prevention. I am committed to extending this
program to enable more frequent oversight of VA activities.

I look forward to continued partnership with the Secretary and the Congress in pursuit of world-
class service for our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
On October 12, 1978, President Jimmy Carter created independent audit and investigative
offices in 12 Federal agencies when he signed into law the Inspector General Act of 1978
(5 U.S.C. App.). One of these 12 agencies was in the Veterans Administration, which
became the Department of Veterans Affairs in 1989.

The basic tenets of the Act have remained constant and strong over the past quarter
century. Although amended several times to add new Inspectors General and clarify
reporting requirements, the Act has given all Inspectors General the authority and
responsibility to be independent voices for economy, efficiency, and effectiveness within
the Federal Government. Today there are 29 presidentially appointed, Senate confirmed
Inspectors General, who are members of the President’s Council on Integrity and
Efficiency. They protect the integrity of government, improve program efficiency and
effectiveness, and prevent and detect fraud, waste, and abuse in Federal agencies. In
keeping with the Act, Inspectors General keep their agency heads and the Congress fully
and currently informed of the results of their work.

In remarks to VA Office of Inspector General employees on September 30, 2003, VA
Secretary Anthony J. Principi recognized the contributions of the OIG with the following
words:

       The IG is my independent ally and VA’s trusted partner, helping us achieve
       excellence in everything we do; your work is crucial to our process of
       continuous improvement. In every case, the results of the OIG’s
       independent reviews of our daily operations yield valuable savings both in
       human and financial resources. At a time when our resources are
       constrained, every dollar we spend must be spent wisely. Every wasted
       dollar the OIG helps us identify and save is a dollar we can use in our
       mission of caring for America’s veterans. I commend the OIG for your
       stewardship of both the public’s trust and the public’s dollar – you do our
       nation’s veterans proud by holding yourselves, and your office, to the
       highest standards of government service.
This page intentionally left blank in printed copy.
                                                   TABLE OF CONTENTS


                                                                                                                                                    Page

HIGHLIGHTS OF OIG OPERATIONS ..................................................................................................                        i

VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ............................................................                                           1

COMBINED ASSESSMENT PROGRAM ..............................................................................................                             7

OFFICE OF INVESTIGATIONS

     Mission Statement ......................................................................................................................         15

     Resources ..................................................................................................................................     15

     Criminal Investigations Division ..................................................................................................              15

             Veterans Health Administration ......................................................................................                    16

             Veterans Benefits Administration ...................................................................................                     19

             Fugitive Felon Program .................................................................................................                 22

             OIG Forensic Document Laboratory ..............................................................................                          23

     Administrative Investigations Division ........................................................................................                  24

             Veterans Health Administration ......................................................................................                    25

             Veterans Benefits Administration ...................................................................................                     25

OFFICE OF AUDIT

     Mission Statement ......................................................................................................................         27

     Resources ..................................................................................................................................     27

     Overall Performance ..................................................................................................................           27

             Veterans Health Administration ......................................................................................                    28

             Veterans Benefits Administration ...................................................................................                     31

             Office of Management ...................................................................................................                 32

OFFICE OF HEALTHCARE INSPECTIONS

     Mission Statement ......................................................................................................................         35

     Resources ..................................................................................................................................     35

     Overall Performance ..................................................................................................................           35

             Veterans Health Administration .....................................................................................                     36

OFFICE OF MANAGEMENT AND ADMINISTRATION

     Mission Statement ......................................................................................................................         43

     Resources ..................................................................................................................................     43

     Hotline Division ..........................................................................................................................      44

             Veterans Health Administration ......................................................................................                    44

             Veterans Benefits Administration ...................................................................................                     48

     Operational Support Division ......................................................................................................              49

     Information Technology and Data Analysis Division ....................................................................                           51

     Financial and Administrative Support Division ............................................................................                       54

     Human Resources Management Division ...................................................................................                          55

OTHER SIGNIFICANT OIG ACTIVITIES

     President’s Council on Integrity and Efficiency ............................................................................                     57

     OIG Management Presentations ................................................................................................                    57

     Awards and Special Thanks........................................................................................................                58

     OIG Congressional Testimony ....................................................................................................                 59


APPENDIX A - REVIEWS BY OIG STAFF ............................................................................................                        61

APPENDIX B - STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR ...................                                                                  71

             Veterans Health Administration ......................................................................................                    72

             Joint (Veterans Health Administration and Office of Security and Law Enforcement) ......                                                 74

             Veterans Benefits Administration ...................................................................................                     76

APPENDIX C - INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ................................                                                            79

APPENDIX D - OIG OPERATIONS PHONE LIST ..............................................................................                                 83

APPENDIX E - GLOSSARY ................................................................................................................                85

This page intentionally left blank in printed copy.
                HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the VA OIG for the 6-month period
ended September 30, 2003. The following statistical data highlights OIG activities and accomplishments
during the reporting period and for the entire fiscal year (FY).
                                                                                                  Current 6 Months FY 2003
                                                                                                   4/1/03 - 9/30/03 10/1/02 - 9/30/03
    DOLLAR IMPACT                                                                                            Dollars in Millions
         Funds Put to Better Use ............................................................... $49.4                  $100.9
         Dollar Recoveries ......................................................................... $10.5               $30.0
         Fines, Penalties, Restitutions, and Civil Judgments ..................... $5.7                                  $25.7

    RETURN ON INVESTMENT
         Dollar Impact ($65.6) / Cost of OIG Operations ($27.2) ............... 2 : 1
         Dollar Impact ($156.6) / Cost of OIG Operations ($60.5) ...............                                          3:1

    OTHER IMPACT
         Arrests ........................................................................................... 262          624
         Indictments .................................................................................... 189             349
         Convictions .................................................................................... 129             417
         Pretrial Diversions ......................................................................... 6                   20
         Fugitive Felon Lead Arrests .......................................................... 70                         79
         Administrative Sanctions ............................................................... 246                     484

    ACTIVITIES

    Reports Issued
       Combined Assessment Program (CAP) Reviews ............................ 30                                           42
       CAP Summary Reviews .................................................................. 2                             5
       Joint Review .................................................................................... 0                  1
       Audits ............................................................................................. 16             24
       Contract Reviews ............................................................................ 35                    65
       Healthcare Inspections .................................................................... 9                       24
       Administrative Investigations .......................................................... 12                         21

    Investigative Cases
        Opened ........................................................................................... 480            960
        Closed ........................................................................................... 439            890

    Healthcare Inspections Activities
       Clinical Consultations ..................................................................... 13                     28

    Hotline Activities
        Contacts ...................................................................................... 7,194          14,728
        Cases Opened ................................................................................ 570               1,175
        Cases Closed ................................................................................. 650              1,307


                                                                             i
OFFICE OF INVESTIGATIONS

Overall Focus

The Criminal Investigations Division focuses its resources on investigations that have the highest
impact on the programs and operations of the Department. While continuing to target traditional
“white collar” criminal activity associated with the operation of VA, personnel of the Criminal
Investigations Division more frequently find themselves involved in the investigation of criminal
activity such as fraud, drug diversion, theft, and murder - all of which can occur on VA property
and/or directed at VA personnel, veterans, programs, or operations. The Administrative
Investigations Division concentrates its resources on investigating allegations against high-ranking
VA officials relating to misconduct and other matters of interest to Congress and the Department.

During this semiannual period, the Criminal Investigations Division closed 439 investigations
resulting in 324 judicial actions (indictments, convictions, and pretrial diversions) and $33.6 million
recovered or saved. Investigative activities resulted in the arrest of 262 individuals who had
committed crimes directed at VA programs and operations or committed crimes on VA property. In
addition, VA OIG provided investigative information to other law enforcement agencies leading to
the arrest of 70 fugitive felons nationwide. Criminal investigations also resulted in 146
administrative sanctions. The Administrative Investigations Division closed 25 cases, issuing 12
reports and 5 advisory memoranda. These investigations resulted in management agreeing to
take 25 administrative sanctions, including personnel actions against 15 officials, and corrective
actions in 10 situations that will improve VA operations.

Veterans Health Administration (VHA)

A VA medical center (VAMC) supervisory pharmacist and her uncle were sentenced for their roles
in a drug theft ring. The pharmacist was sentenced to 8 years’ imprisonment, to be followed by 3
years’ probation. She was also ordered to surrender $500,000 as part of her plea agreement.
Her uncle was sentenced to 5 years, 10 months’ imprisonment, to be followed by 3 years’
probation. The investigation disclosed that the pharmacist stole over 235,000 dosage units of
schedule II and III controlled substances from a VAMC. She then transferred those drugs to her
uncle and others for street distribution. VA’s loss was $194,000, and will be repaid to VA from the
funds surrendered by the pharmacist. This was a joint investigation by the VA OIG and U.S. Drug
Enforcement Administration (DEA).

Six individuals were charged with felony theft in a scheme in which several veterans’ personal
information was stolen from documents at a VAMC and fraudulently used to obtain credit cards,
cable television services, and telephone services. The charges were the culmination of a 2½-year
investigation. In mid-2001, seven other individuals were indicted, including the scheme’s
ringleaders, who obtained the personal data and used it to open lines of credit, and cable
television and telephone service in numerous veterans’ names. These seven ringleaders
previously pled guilty and were each sentenced to 4 years’ imprisonment. The six defendants
recently charged were all recipients of the fraudulently obtained credit and other services. They




                                                   ii
are pending further judicial action. The fraudulent credit purchases totaled nearly $80,000. VA
police and the U.S. Postal Inspection Service assisted in this investigation.

Veterans Benefits Administration (VBA)

An individual pled guilty to wire fraud and aiding and abetting after a joint VA OIG and Department
of Housing and Urban Development (HUD) OIG investigation disclosed that 2 individuals
perpetrated a multi-state scheme to take advantage of more than 1,000 homeowners whose
mortgages were in default and facing foreclosure. Of this number, 178 properties were subject to
mortgages guaranteed by the Government. The subjects contacted the distressed homeowners
assuring them that they could “buy them some time” before foreclosure. The subjects then
collected rent and fees from the homeowners but failed to make any payments on existing
mortgages. As part of the scheme, they used fictitious names and Social Security numbers and
filed more than 200 fraudulent bankruptcies to delay
the foreclosure process. The subjects wrongfully                     Anchorage Daily News

collected $51,000 in rent and fees. The total loss to                    Anchorage, AK

the Government was $390,000.                                     Wednesday,    August 13, 2003



A veteran and co-conspirator pled guilty to charges of
wire fraud, mail fraud, and conspiracy relating to a
scheme to defraud VA’s Vocational Rehabilitation and
Employment program. The veteran, as a part of his
rehabilitation, requested VA to pay for the
refurbishment of two buses he would use in a newly
established guided tour business. Accordingly, VA
paid the veteran almost $450,000 for refurbishing
buses, marketing, and other business expenses.
However, contrary to the approved plan, the veteran
unlawfully used the funds to purchase 28 buses. He
submitted fraudulent invoices and work orders to VA
to facilitate the scheme.

Seven active duty sailors with the U.S. Navy
conspired to defraud VA’s Tuition Assistance Top Up
program of almost $400,000. The program is
designed to allow participating active duty service
personnel to use Montgomery GI Bill benefits to pay
the difference between the cost of tuition and the
amount paid by the military’s active duty tuition
assistance program. The scheme developed when the primary subject filed claims and received
payments from VA for classes he never attended. This subject was in the unique position of
having access to naval personnel records and knowledge of the program. The subject exploited
weaknesses he discovered in the program’s administration to commit the fraud. He also
convinced other sailors to participate in the scheme. A grand jury charged the subject and six co­
conspirators with conspiracy, theft of Government funds, and aiding and abetting.




                                                 iii
OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $30.6 Million

Audits and evaluations were focused on operations and performance results to improve service to
veterans. Contract preaward and postaward reviews were conducted to assist contracting officers
in price negotiations and to ensure reasonableness of contract prices. During this reporting
period, 83 audits, evaluations, CAP reviews, CAP summary reviews, and contract preaward and
postaward reviews were conducted that identified opportunities to save or make better use of
$30.6 million.

Veterans Health Administration

Our audit of part-time physician time and attendance showed that part-time physicians were not
working the hours established in their VA appointments, and as a result, part-time physicians were
not meeting their employment obligations to VA. Also, an audit of VHA reported medical care
waiting lists showed that the waiting lists were not accurate.

Office of Management

We issued eight management letters addressing financial reporting and control issues as part of
the annual consolidated financial statements audit. The management letters provided
Department management additional automated data processing security observations and advice
that will enable the Department to improve accounting operations and internal controls. None of
the conditions noted had a material effect on the FY 2002 consolidated financial statements, but
correction of the conditions was considered necessary for ensuring effective operations.

OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and
Investigations on 23 CAP reviews and reported on specific clinical issues warranting the attention
of VA managers. We reviewed health care issues and made 58 recommendations and 49
suggestions to improve operations, activities, and the care and services provided to patients.

Our inspection of VHA facility QM programs found that facility managers did not consistently
analyze data collected for all quality improvement monitors or benchmark their results. Some
significant QM actions failed because existing tracking systems did not sufficiently ensure
successful implementation of recommended QM actions. Clinical managers did not always
consider QM results in their biennial reprivileging decisions, and many facilities had not
established acceptable methods for analyzing mortality data.

To address security controls over biological agents subsequent to the anthrax mailings, the
Offices of the Inspectors General of the Departments of Agriculture, Defense, Energy, Health and
Human Services, and VA formed an interagency committee to ensure close coordination of audits,
evaluations, and inspections. The OIGs issued an interagency summary report on security




                                                iv
controls over biological agents that summarized issues identified in 26 reports published by the 5
committee-member agencies and 1 report published by the Army Inspector General from
February 2, 2001 through April 16, 2003. The VA OIG published one of these reports. The
summary report concluded that senior officials at each agency had taken actions to improve
security controls over biological agents in response to the published reports, but more needs to be
done.

In responding to congressional and other special requests and reviewing patient allegations
pertaining to quality of care issues received by the OIG Hotline, we completed 17 Hotline cases,
reviewed 55 issues, and made 21 recommendations. These recommendations resulted in
managers issuing new and revised procedures, improving services, improving quality of patient
care, and making environmental and safety improvements. OHI assisted the Office of
Investigations on 13 criminal cases that required reviews of medical evidence, and monitored the
work of VHA’s Office of the Medical Inspector.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

Our Hotline provides an opportunity for employees, veterans, and other concerned citizens to
report criminal activity, waste, abuse, and mismanagement. During the reporting period, the
Hotline received 7,194 contacts and opened 570 cases. Analysts closed 650 cases, of which 219
(33 percent) contained substantiated allegations. The monetary impact resulting from these
cases totaled almost $1.4 million. The Hotline staff wrote 127 responses to inquiries received
from Members of the Senate and House of Representatives. The closed cases led to 75
administrative sanctions against employees and 128 corrective actions taken by management to
improve VA operations and activities. Examples of some of the cases addressed by the Hotline
include: (i) identity issues, (ii) privacy/Health Insurance Portability and Accountability Act issues,
(iii) time and attendance issues, (iv) patient care issues, and (v) benefits issues.

Follow Up on OIG Reports

The Operational Support Division continually tracks VA staff actions to implement
recommendations made in OIG audits, inspections, and reviews. As of September 30, 2003,
there were 71 open OIG reports containing 255 unimplemented recommendations with over $903
million of actual or potential monetary benefits. During this reporting period, we closed 78 reports
and 502 recommendations, with a monetary benefit of $241 million, after obtaining information
that VA officials had fully implemented corrective actions.

Status of OIG Reports Unimplemented for Over 1 Year

The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management
decisions and implementation of OIG recommendations. It states a Federal agency shall
complete final action on each recommendation in an OIG report within 12 months after the report
is finalized. If the agency fails to complete final action within this period, the OIG will identify the
matter in their semiannual report to Congress. There are eight OIG reports issued over 1 year




                                                    v
ago (September 30, 2002, and earlier) with unimplemented recommendations. Four of these are
VHA reports; one is a joint report with recommendations for VHA and Office of Security and Law
Enforcement, Office of Policy, Planning, and Preparedness; and three are VBA reports. The OIG
is particularly concerned with two reports on VHA operations (issued in 1997 and 1999) and two
reports on VBA operations (both issued in 2000) with recommendations that still remain open.
Details about these reports can be found in Appendix B.




                                              vi
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs
Background
In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans. The Veterans
Administration was founded in 1930, when Public
Law 71-536 consolidated the Veterans’ Bureau, the
Bureau of Pensions, and the National Home for                             VA Central Office

Disabled Volunteer Soldiers. The Department of                810 Vermont Avenue, NW, Washington, DC

Veterans Affairs was established on March 15,
1989, by Public Law 100-527, which elevated the            Organization
Veterans Administration, an independent agency, to
Cabinet-level status.                                      VA has three administrations that serve veterans:

                                                           z Veterans Health Administration (VHA)

Mission                                                    provides health care,

                                                           z Veterans Benefits Administration (VBA)

VA’s motto comes from Abraham Lincoln’s second             provides income and readjustment benefits, and

inaugural address, given March 4, 1865, “to care           z National Cemetery Administration (NCA)

for him who shall have borne the battle and for his        provides interment and memorial services.

widow and his orphan.” These words are inscribed
on large plaques on the front of the VA Central            To support these services and benefits, there are

Office building on Vermont Avenue in Washington,           six Assistant Secretaries:

DC.                                                        z Management (Budget; Finance; and Acquisition

                                                           and Materiel Management [A&MM]);

The Department’s mission is to serve America’s             z Information and Technology (I&T);

veterans and their families with dignity and               z Policy, Planning, and Preparedness (Policy;

compassion and to be their principal advocate in           Planning; and Security and Law Enforcement

ensuring that they receive the care, support, and          [S&LE]);

recognition earned in service to our Nation.               z Human Resources and Administration

                                                           (Diversity Management and Equal Employment

                                                           Opportunity; Human Resources Management;

                                                           Administration; and Resolution Management);





                                                      1

VA and OIG Mission, Organization, and Resources

z   Public and Intergovernmental Affairs; and               force, with a face value of over $747.3 billion.
z   Congressional and Legislative Affairs.                  Approximately 500,000 home loans were
                                                            guaranteed in FY 2003, with a value of almost $64
In addition to VA’s OIG, other staff offices                billion.
providing support to the Secretary include the
Board of Contract Appeals, the Board of Veterans’           The NCA operated and maintained 120 cemeteries
Appeals, the Office of General Counsel, the Office          and employed over 1,400 staff in FY 2003.
of Small and Disadvantaged Business Utilization,            Operations of NCA and all of VA’s burial benefits
the Center for Minority Veterans, the Center for            account for approximately $410 million of VA’s
Women Veterans, the Office of Employment                    budget. Interments in VA cemeteries continue to
Discrimination Complaint Adjudication, and the              increase each year, with 89,755 for FY 2003.
Office of Regulation Policy and Management.                 Approximately 344,800 headstones and markers
                                                            were provided for veterans and their eligible
Resources                                                   dependents in VA and other Federal cemeteries,
                                                            state veterans’ cemeteries, and private cemeteries.
While most Americans recognize VA as a
Government agency, few realize that it is the               VA Office of Inspector
second largest Federal employer. For FY 2003, VA
had approximately 212,000 employees and a $60.4             General (OIG)
billion budget. There are an estimated 25.6 million
living veterans. To serve our Nation’s veterans,            Background
VA maintains facilities in every state, the District
of Columbia, the Commonwealth of Puerto Rico,               VA’s OIG was administratively established on
Guam, and the Philippines.                                  January 1, 1978, to consolidate audits and
                                                            investigations into a cohesive, independent
Approximately 193,000 of VA’s employees work in             organization. In October 1978, the Inspector
VHA. Health care was funded at over $26.2                   General Act (Public Law 95-452) was enacted,
billion in FY 2003, approximately 43 percent of             establishing a statutory Inspector General (IG) in
VA’s budget. VHA provided care to an average of             VA.
59,000 inpatients daily. During FY 2003, there
were almost 51 million episodes of care for
                                                            Role and Authority
outpatients. There were 160 hospitals, 133 nursing
home units, 206 veterans centers, 43 domiciliaries,
                                                            The Inspector General Act of 1978 states that the
and 847 outpatient clinics (including hospital
                                                            IG is responsible for: (i) conducting and
clinics).
                                                            supervising audits and investigations; (ii)
                                                            recommending policies designed to promote
Veterans benefits were funded at $33.6 billion in
                                                            economy and efficiency in the administration of,
FY 2003, about 55 percent of VA’s budget.
                                                            and to prevent and detect criminal activity, waste,
Approximately 13,000 VBA employees at 57 VA
                                                            abuse, and mismanagement in VA programs and
regional offices (VAROs) provided benefits to
                                                            operations; and (iii) keeping the Secretary and the
veterans and their families. Almost 2.8 million
                                                            Congress fully informed about problems and
veterans and their beneficiaries received
                                                            deficiencies in VA programs and operations, and
compensation benefits valued at $25.5 billion.
                                                            the need for corrective action.
Also, $3.3 billion in pension benefits were
provided to veterans and survivors. VA life
insurance programs had 7.4 million policies in




                                                       2

                                                  VA and OIG Mission, Organization, and Resources

The Inspector General Act Amendments of 1988                remaining 20 percent for all other operating
provided the IG with a separate appropriation               expenses such as contractual services, rent,
account and revised and expanded procedures for             supplies, and equipment.
reporting semiannual workload to Congress. The
IG has authority to inquire into all VA programs            OIG resource allocation, by VA organizational
and activities as well as the related activities of         element, during this reporting period, is shown as
persons or parties performing under grants,                 follows.
contracts, or other agreements. The inquiries may
be in the form of audits, investigations,
inspections, or other special reviews.
                                                                                                 Information
                                                                                                 Technology
Organization                                                                                          3%
                                                                       VHA
Allocated full-time equivalent (FTE) employees                         55%
from appropriations for the FY 2003 staffing plan
are shown below.                                                                                     VBA
                                                                                                     29%

                                ALLOC ATED
           OFFIC E                                                     Managem ent
                                   FTE                                                 A&MM
                                                                           5%
  Inspector General                        4                                            8%

  C ounselor                               4
                                                            OIG resource allocation applied to mandated,
  Investi gati ons                     136
                                                            reactive, and proactive work is shown below.
  Audi t                               176
  Management and
                                         57
  Admi ni strati on                                                      Mandated
                                                                           8%
  Healthcare Inspecti ons                46

           TOTAL                       423
                                                                                                   Reactive
                                                                                                    41%
In addition, 25 FTE are reimbursed for a                        Proactive
Department contract review function.                              51%

The FY 2003 funding for OIG operations was
enacted as a 2-year appropriation that provides the
funds to remain available until September 30,
2004. The FY 2003 funding for OIG operations
was $60.5 million, with $57.6 million from                  Mandated work is required by statute or
appropriations and $2.9 million through a                   regulation. Examples include our audits of VA’s
reimbursable agreement. Approximately                       consolidated financial statements, oversight of
76 percent of the total funding was for salaries and        VHA’s quality management programs and Office of
benefits, 4 percent for official travel, and the            the Medical Inspector, follow up activities on OIG
                                                            reports, and releases of Freedom of Information
                                                            Act (FOIA) information.


                                                       3

VA and OIG Mission, Organization, and Resources

Reactive work is generated in response to requests
for assistance received from external sources
concerning allegations of criminal activity, waste,
abuse, and mismanagement. Most of the Office of
Investigations’ work is reactive.

Proactive work is self-initiated, focusing on areas
where the OIG staff determines there are
significant issues.

OIG Mission Statement
The OIG is dedicated to helping VA ensure that
veterans and their families receive the care,
support, and recognition they have earned
through service to their country. The OIG
strives to help VA achieve its vision of becoming
the best managed service delivery organization in
Government. The OIG continues to be
responsive to the needs of its customers by
working with the VA management team to
identify and address issues that are important to
them and the veterans served.
                                                           TechWorld, home to the VA Office of
                                                                   Inspector General
In performing its mandated oversight function,
the OIG conducts investigations, audits, and
healthcare inspections to promote economy,
efficiency, and effectiveness in VA activities, and
to detect and deter criminal activity, waste,
abuse, and mismanagement. Inherent in every
OIG effort are the principles of quality
management and a desire to improve the way VA
operates by helping it become more customer
driven and results oriented.

The OIG will keep the Secretary and the
Congress fully and currently informed about
issues affecting VA programs and the
opportunities for improvement. In doing so, the
staff of the OIG will strive to be leaders and
innovators, and to perform their duties fairly,
honestly, and with the highest professional
integrity.




                                                      4

                                                            Department of Veterans Affairs
                                                             Office of Inspector General


                                                                      Inspector General
                              Executive Assistant                   ---------------------------                    Counselor to the
                                                                                                                  Inspector General
                                                                             Deputy


      Assistant Inspector General           Assistant Inspector General                 Assistant Inspector General              Assistant Inspector General
     Management and Administration                 Investigations                                   Audit                          Healthcare Inspections
            --------------------                  ---------------------                       --------------------                     --------------------
                 Deputy                                 Deputy                                     Deputy                                   Deputy


                                                                                       Contract                               Medical Advisor       Program
       Hotline         Operational       Administrative            Criminal            Review                     Audit             to            Administration
                        Support          Investigations         Investigations           and                    Planning        Inspector          and Special
                                                                                      Evaluation                                 General            Projects

       Human            Financial




5

      Resources            and           Analysis and                                Operational                Financial               Regional Offices
     Management       Administrative      Oversight                 Benefits          Support                     Audit                     Atlanta
                        Support                                      Fraud                                                                  Bedford
                                                                                                                                            Chicago
     Information                        Field Offices                                                           Veterans                     Dallas
     Technology                            Chicago                 Computer               IT                     Health                   Los Angeles
      and Data                              Dallas                  Crimes               Audit                    and                     Washington
       Analysis                          Los Angeles                  and                                       Benefits
                                          New York                 Forensics
     Field Office
                                        St. Petersburg
                                                                                           Operations Divisions
        Austin
                                      Resident Agencies                                   Atlanta     Bedford
                               Atlanta          Bedford
                                                                   Healthcare
                                                                                          Chicago     Dallas
                               Cleveland        Columbia             Fraud
                                                                                          Kansas City Los Angeles
                               Denver           Houston                                   Seattle     Washington
                               Kansas City      Nashville
                               New Orleans      Newark              Fugitive
                               Phoenix          Pittsburgh                                         Sub-Office
                                                                     Felon                           Austin
                               San Diego        San Francisco
                               Seattle          Washington          Program
                               West Palm Beach

                                                                    Forensic
                                                                   Document
                                                                   Laboratory
VA and OIG Mission, Organization, and Resources




                    This page intentionally left blank in printed copy.




                                            6

COMBINED ASSESSMENT PROGRAM

Reports Issued                                                covered include procurement practices, financial
                                                              management, accountability for controlled
During the period April 1, 2003 through September             substances, and information security.
30, 2003, we issued 30 CAP reports. Of the 30
CAP reports, 23 were for VA health care systems               Special agents conduct fraud and integrity
and VAMCs; 7 were for VAROs. We also issued 2                 awareness briefings. The purpose of these
CAP summary reports during this period.                       briefings is to provide VAMC employees with
                                                              insight into the types of fraudulent and other
                                                              criminal activities that can occur in VA programs
Combined Assessment Program
                                                              and operations. The briefings include an overview
Overview - Medical                                            and case-specific examples of fraud and other
                                                              criminal activities. Special agents may also
CAP reviews are part of the OIG’s efforts to                  investigate certain matters referred to the OIG by
ensure that quality health care services are                  VA employees, Members of Congress, veterans,
provided to our Nation’s veterans. CAP reviews                and others.
provide cyclical oversight of VAMC operations,
focusing on the quality, efficiency, and                      During this period, we issued 23 health care
effectiveness of services provided to veterans by             facility CAP reports. See Appendix A for the full
combining the skills and abilities of representatives         title and date of the CAP reports issued this period.
from the OIG Offices of Healthcare Inspections,               These 23 reports relate to the following VA medical
Audit, and Investigations to provide collaborative            facilities:
assessments of VA health care systems.
                                                              • VAMC Fayetteville, Arkansas
Healthcare inspectors conduct proactive reviews to            • VAMC San Francisco, California
evaluate care provided in VA health care facilities           • VAMC Washington, District of Columbia
and assess the procedures for ensuring the                    • VAMC Bay Pines, Florida
appropriateness of patient care and the safety of             • James A. Haley VAMC, Tampa, Florida
patients and staff. The facilities are evaluated to           • VAMC Augusta, Georgia
determine the extent to which they are contributing           • VA Illiana Healthcare System, Danville,
to VHA’s ability to accomplish its mission of                 Illinois
providing high quality health care, improved                  • VAMC Marion, Illinois
patient access to care, and high patient satisfaction.        • VAMC North Chicago, Illinois
Their effort includes the use of standardized survey          • VA Iowa City Healthcare System, Iowa
instruments.                                                  • VAMC New Orleans, Louisiana
                                                              • Overton Brooks VAMC, Shreveport, Louisiana
Auditors conduct reviews to ensure management                 • Edith Nourse Rogers Memorial Veterans
controls are in place and operating effectively.              Hospital, Bedford, Massachusetts
Auditors assess key areas of management concern,              • VAMC Iron Mountain, Michigan
which are derived from a concentrated and                     • VA Sierra Nevada Healthcare System, Reno,
continuing analysis of VHA, Veterans Integrated               Nevada
Service Network (VISN), and VAMC databases                    • VA Hudson Valley Healthcare System,
and management information. Areas generally                   Montrose, New York




                                                         7

Combined Assessment Program

• VAMC Asheville, North Carolina                         • Government purchase card controls were
• VA Roseburg Healthcare System, Oregon                  deficient at 17 of 21 facilities where we tested
• VAMC Butler, Pennsylvania                              these controls. Policy and procedures governing
• VAMC Houston, Texas                                    the use of purchase cards, setting purchasing
• Jonathan W. Wainwright Memorial VAMC,                  limits, and accounting for purchases were not
Walla Walla, Washington                                  followed.
• VAMC Huntington, West Virginia
• Clement J. Zablocki VAMC, Milwaukee,                   • Service contract controls were deficient at 7 of
Wisconsin                                                13 facilities where we tested these issues. Controls
                                                         needed to be strengthened to ensure that:
                                                         (i) acquisition and materiel management staff
“We appreciated the opportunity for the OIG to           determine price reasonableness in noncompetitive
evaluate the programs of the VAMC through the            contracts, (ii) contract provisions include
CAP. The survey team provided helpful                    procedures to help ensure contract compliance, and
guidance to our staff in an educational and              (iii) contracting officials monitor contract
productive manner. As we are a continuously              performance.
improving organization, we welcome their
recommendations and suggestions that will only           • Medical supply inventory management was
help us to become a better organization. Thank           deficient at 9 of the 11 facilities where we tested
you.”                                                    these issues, and nonmedical inventory
                                                         management was deficient at 3 of 7 facilities where
              Director, VAMC Walla Walla, WA             we tested these issues. We found that inventory
                                                         levels exceeded current requirements resulting in
                                                         funds being tied up in excess inventories. Also, we
Summary of Findings                                      found that nonmedical inventories were either not
                                                         performed or inaccurate.
Deficiencies identified during prior CAP reviews
relating to management of veterans health care           Information Technology
programs were discussed in two recently issued
OIG summary reports. During this reporting               A wide range of automated information system
period, we identified similar problems at the 23         vulnerabilities were identified that could lead to
facilities.                                              misuse or destruction of critical sensitive
                                                         information. VA had established comprehensive
Procurement                                              information security policies, procedures, and
                                                         guidelines; however, CAP reviews found that
We reported the need to improve VA procurement           facility policy development, implementation, and
practices as one of the Department’s most serious        compliance were inconsistent. In addition, there
management challenges. We continue to identify           was a need to improve access controls,
control weaknesses in this area during CAP               contingency planning, incident reporting, and
reviews. Controls need to be strengthened to:            security training.
(i) effectively administer the Government
purchase card program, (ii) improve service              We found inadequate management oversight
contract controls, (iii) improve contract                contributed to inefficient practices, and to
administration, and (iv) strengthen inventory
management.




                                                    8

                                                                        Combined Assessment Program

inadequate information security and physical                Facility management needs to strengthen billing
security of assets. CAP findings complement the             procedures to avoid missed billing opportunities.
results of our FY 2002 Government Information
Security Reform Act audit, which identified                 Pharmacy Security
information security vulnerabilities that place the
Department at risk of: (i) denial of service                • VA needs to improve physical security in
attacks on mission critical systems, (ii) disruption        pharmacy areas. We found physical security
of mission critical systems, (iii) unauthorized             deficiencies in pharmacy areas at 5 of 12 facilities
access to and improper disclosure of data subject           where we tested these issues.
to Privacy Act protection and sensitive financial
data, and (iv) fraudulent payment of benefits.

• Information technology (IT) security
deficiencies were found at 21 of the 23 VHA sites
visited. We found that: (i) security plans were not
prepared or not kept current and lacked key
elements, (ii) access to VHA’s Veterans Health
Information Systems and Technology Architecture
was not effectively monitored, and/or (iii)
background investigations were not conducted on
contract personnel working in sensitive areas.

Controlled Substances                                                        VA Medical Center
                                                                               Augusta, GA
• VA has established policies, procedures, and
guidelines for accountability of controlled                 Part-Time Physician Time and Attendance
substances and other drugs. However, controlled
substance inspection procedures were inadequate             • VAMC managers did not have effective
to ensure compliance with VHA policy and U.S.               controls in place to ensure that part-time
Drug Enforcement Administration (DEA)                       physicians were on duty when required by
regulations at 17 of 23 facilities visited.                 employment agreements at three of six facilities
Unannounced inspections and inventories were not            where we tested these controls. Physicians did not
properly conducted, unusable drugs were not                 complete appropriate time and attendance records,
disposed of timely or properly, and discrepancies           and timecards were not posted based on the
between inventory results and recorded balances             timekeepers’ actual knowledge of physicians’
were not reconciled in a timely manner. The lack            attendance. Additionally, timekeepers did not
of management oversight at facility and VISN                receive annual refresher training, and desk audits
levels contributed to inefficient practices and to          were not conducted, as required by VA policy.
weaknesses in drug accountability.
                                                            Health Care Management
Medical Care Collections Fund
                                                            • We reviewed VHA’s policies and practices for
• VA has increased Medical Care Collection                  managing violent patients at 13 medical facilities.
Fund collections. However, we found deficiencies            We found that while each facility had a policy that
at 4 of 12 facilities where we tested these issues.         described emergency response procedures to
                                                            violent patient episodes, only seven of the policies
                                                            identified interdisciplinary response teams, while


                                                       9

Combined Assessment Program

the remaining six identified either police officers or         significantly higher levels of satisfaction were
nursing employees as responders. Facilities used               those involving receiving medication and treatment
two separate systems to report incidents of patient            to reduce pain, receiving instructions on how to use
violence resulting in inconsistent or incomplete               medical equipment, and being satisfied with their
data collection. Additionally, the two systems did             medical care plans. In contrast, ensuring patient
not interface, and access to the databases was                 privacy during conversations with their clinicians
restricted to a small cadre of employees. While 12             was identified as significantly lower, suggesting an
facilities had policies indicating that they had               area of concern for future reviews. Ninety-four
committees to review violent incidents, make                   percent of patients would recommend VA medical
decisions regarding dispositions of the patient                care to eligible family members or friends, and 95
perpetrators, and regularly follow-up on their                 percent rated the quality of care to be good, very
decisions, we found only 5 facilities had                      good, or excellent. Results of these findings were
committees that actually fulfilled these functions.            discussed with facility managers during site visits.

Survey Results

Inpatient Surveys                                              Outpatient Surveys

We completed 344 inpatient interviews in 23 VHA                We surveyed 325 VA outpatients at 23 facilities to
facilities during this semiannual period. We                   ascertain their satisfaction with the care that they
surveyed patients in the areas of medicine,                    received. We interviewed patients in the primary
surgery, intensive care, mental health, nursing                care, mental health, and specialty care clinics.
home, domiciliary, and special emphasis                        We also surveyed outpatients who were in waiting
programs.                                                      areas of the various supportive services such at
                                                               pharmacy, radiology, and laboratory.

                                                               • In comparing responses for the current period
“I am pleased with the outcome of the review                   to the prior semiannual report, we observed higher
and the affirmation that the VAMC provides                     levels of patient satisfaction in 8 of the 18 areas
high quality health care to our Nation’s                       surveyed that included timeliness, access to care,
veterans. Also significant are the high levels of              and education about care. Areas with significantly
patient and employee satisfaction that were noted              higher levels of satisfaction were patients who
by the audit team. Please express my                           indicated receiving refills before running out of
appreciation to the auditors and support staff                 medicine, obtaining an appointment with a
who conducted the review for their                             specialist within 30 days of referral, receiving
professionalism and efforts to assist in improving             education from primary care providers about new
the medical center’s operations and controls.”                 medications, and the adequacy of signage in
                                                               medical facilities. In contrast, two satisfaction
                    Director, VAMC Houston, TX                 indices concerning VA personnel addressing their
                                                               treatment needs to their satisfaction, and their
                                                               being seen within 30 minutes of arrival to
• In comparing patient responses for the current               appointments were identified as significantly lower
period to the prior semiannual report, we observed             than the previous time period. Not receiving an
higher levels of satisfaction in 10 of the 18 areas            explanation regarding delays when arriving at
surveyed that included timeliness, education,                  appointments obtained the lowest score. Ninety-
involvement, and continuity of care. Areas with                six percent rated the quality of care to be good,




                                                         10

                                                                          Combined Assessment Program

very good, or excellent; an equal number would
recommend VA medical care to eligible family
members or friends. Results of these findings were
discussed with facility managers during site visits.

Physical Plant Environment

We inspected 166 areas at 17 facilities including
primary care and specialty outpatient clinics,
inpatient wards, emergency rooms, intensive care/
coronary care units, nursing home units,
psychiatry units, and rehabilitation areas.
                                                                      Overton Brooks VA Medical Center
• Overall, we found that all facilities were                                   Shreveport, LA
generally clean and well maintained. While minor
cleanliness and sanitation problems were identified           questionnaire. We discussed the results of these
at all facilities, managers took immediate actions to         surveys with managers during each site visit.
correct identified deficiencies. However, we found
that some managers needed to improve processes to             • Seventy-eight percent of the respondents
ensure unobstructed hallways, secure chemical                 believed that high quality care was the first priority
storage areas and medications, ensure patient                 at their facilities. Seventy-eight percent also
privacy and security, and keep patient nourishment            believed that the quality of care at their facilities
areas clean. At some facilities, emergency                    was good or excellent.
evacuation plans were not posted in all high-
visibility areas and inpatient units.                         • Eighty-five percent of responding employees
                                                              asserted that they received proper orientation and
• At 15 facilities we inspected nutrition and food            training to do their jobs, and 62 percent believed
service areas and retail stores for environment of            they were provided with opportunities to fulfill
care concerns. We inspected 19 facility kitchens              their continuing education needs. However, 46
and 13 canteen kitchens. We found that                        percent of respondents indicated they had not been
improvements in cleanliness and maintenance were              offered opportunities for career advancement.
needed in the main hospital kitchens and the
canteen kitchens. Some managers needed to                     • Fifty-six percent of respondents believed that
improve overall cleanliness of the kitchens;                  adverse events were thoroughly investigated.
specifically, actions needed to be taken to replace
broken or soiled ceiling tiles, ensure trash                  • Thirty-four percent of respondents indicated
containers are properly covered, and confirm that             that housekeeping support was inadequate to
refrigerated cases and freezers are kept clean and            maintain patient safety and general cleanliness, and
maintained at proper temperatures. In addition,               37 percent reported that work orders for needed
some facilities did not have emergency eye wash               repairs were not addressed promptly.
stations in the kitchen areas, and refrigerators not
in use were not secured with locking systems.

Employee Surveys

We surveyed employees at 19 facilities during this
semiannual period using a web-based



                                                        11

Combined Assessment Program

Combined Assessment Program
Overview - Benefits
During this period, we issued seven CAP reports
on the delivery of benefits. See Appendix A for the
full title and date of the CAP reports issued this
period. These seven reports relate to operations at
the following VAROs:

•   VARO Los Angeles, California
•   VARO St. Petersburg, Florida
•   VARO Atlanta, Georgia                                                   VA Regional Office
•   VARO Chicago, Illinois                                                     Atlanta, GA
•   VARO St. Paul, Minnesota
•   VARO St. Louis, Missouri
                                                            that VAROs use to process benefit claims. BDN
•   VARO Muskogee, Oklahoma
                                                            security controls are intended to protect the privacy
                                                            of personal data and prevent fraudulent use of the
Summary of Findings                                         system. At one VARO, the information security
                                                            officer did not manage BDN access in accordance
The following areas required the attention of VBA           to VBA requirements.
management.
                                                            Compensation and Pension Claims
Information Technology                                      Processing
The increased CAP review coverage of VBA                    • Timeliness of compensation and pension
facilities in FY 2003 identified a wide range of            (C&P) claims processing needed improvement at
vulnerabilities in VBA systems similar to those we          all five offices where we tested C&P processing.
identified during VHA CAP reviews. The                      C&P claims had avoidable processing delays and/
deficiencies could lead to misuse or loss of                or procedural errors that affected workload and
sensitive automated information and data. The               timeliness measures. Managers need to monitor
CAP review findings show a need to improve                  the effectiveness of recent initiatives to improve
access controls, contingency planning, risk                 claims processing timeliness and provide refresher
assessments, and security training. Inadequate              claims processing training for veteran service
management oversight contributed to inadequate              center staff.
information security and physical security of
assets.                                                     • Deficiencies were noted at two of the seven
                                                            offices visited involving the third-signature
• IT security was deficient at six of seven offices         authorization control on C&P one-time payment
reviewed. Risk assessments needed to be                     awards.
conducted, and some contingency plans required
revision and testing.                                       • Other C&P deficiencies found during our visits
                                                            included inaccurate actions on system error
• VARO management needed to strengthen                      messages, inaccurate entry of data, and improper
security over the Beneficiary Delivery Network              reduction by veteran service center personnel of
(BDN) at one of six offices where we tested                 pension benefits of veterans hospitalized for
security controls. BDN is the computerized system           extended periods at Government expense.



                                                      12

                                                             Combined Assessment Program

Other VBA Programs

• Government purchase card program
deficiencies existed at all five facilities where we
tested the program controls. Supervisory
approvals and certifications were not performed,
single purchase limits were exceeded, and purchase
card duties were not separated.

• We found that improvements were needed in
fiduciary accounting and field examination controls
and procedures at six of the seven offices where we
tested these issues. Management needed to
improve the oversight of incompetent beneficiaries’            VA Regional Office
funds by ensuring field examinations were                       Los Angeles, CA
conducted and appropriate corrective action was
taken. Also, fiduciary accountings were not
always submitted timely or accurately.

• VBA’s processing and timeliness over
vocational rehabilitation and employment claims
needed improvement. Data entry, claims
processing, and case monitoring errors were noted
at five of the six offices where we tested these
issues. Management needs to process claims for
vocational rehabilitation benefits in a timely
manner, enter accurate data, and monitor claims
status.

• Loan administration activities were reviewed at
two regional loan centers. At one regional loan
center, we found lender files that did not contain
records of lender performance or documentation of
servicing deficiencies.

• Educational assistance program deficiencies
were noted at three offices. At two offices, the
regional processing office did not schedule and
complete all compliance surveys as required. At
another office, incorrect dates of receipt were
recorded for some education claims and some
undocumented claims were recorded as completed.




                                                       13

Combined Assessment Program




                  This page intentionally left blank in printed copy.




                                         14

OFFICE OF INVESTIGATIONS


Mission Statement                                              Resources
    Conduct investigations of criminal activities              The Office of Investigations has 136 FTE
    and administrative matters affecting the                   allocated to the following areas.
    programs and operations of VA in an
    independent and objective manner, and
    assist the Department in detecting and
    preventing fraud and other violations.

The Office of Investigations consists of three                      Criminal
                                                                                                Administrative
divisions.                                                                                      Investigations
                                                                 Investigations
                                                                                                     4%
                                                                     92%
                                                                                                 Analysis
I. Criminal Investigations – The Division is
                                                                                                   4%
primarily responsible for conducting investigations
into allegations of criminal activities related to the
programs and operations of VA. Criminal
violations are referred to the Department of
Justice for prosecution. The Division is also
responsible for operation of the forensic document
laboratory and the computer crimes and forensic                I. CRIMINAL
laboratory.
                                                               INVESTIGATIONS
II. Administrative Investigations – The Division is
responsible for investigating allegations, generally
                                                               DIVISION
against high-ranking VA officials, concerning
misconduct and other matters of interest to the                Mission Statement
Congress and the Department.
                                                                  Conduct investigations of criminal activities
III. Analysis and Oversight – The Division is
                                                                  affecting the programs and operations of
responsible for the oversight responsibilities of all
                                                                  VA in an independent and objective
Office of Investigations operations through a
                                                                  manner, and assist the Department in
detailed, recurring inspection program. The
                                                                  detecting and preventing fraud and other
Division is the primary point of contact for law
                                                                  criminal violations.
enforcement communications through the National
Crime Information Center, the National Law
Enforcement Telecommunications System, and the                 Resources
Financial Crimes Criminal Enforcement Network.
                                                               The Criminal Investigations Division has 121 FTE
                                                               allocated for its headquarters and 22 field
                                                               locations. These individuals are deployed in the
                                                               following VA program areas.




                                                         15

Office of Investigations

                                                               employees and contractors, false billings, and
                                                               inferior products.
               A&MM
                6%                                             The Criminal Investigations Division
                                                               investigates those instances of criminal activity
                                      VBA                      against VHA that have the greatest impact and
        VHA                           62%
        32%
                                                               deterrent value. Working closely with VA
                                                               police, the Division has placed an increased
                                                               emphasis on crimes occurring at VA facilities
                                                               throughout the nation to help ensure safety and
                                                               security for those working in or visiting
                                                               VAMCs. During this semiannual period, OIG
Overall Performance                                            special agents have participated in/or provided
                                                               support to VA police in the arrest of 43
                                                               individuals who committed crimes on VHA
Output

                                                               properties.
z 439 investigations were concluded during the

reporting period.

                                                               Electronic Crimes
Outcome
• Arrests - 262                                                • A former VA employee pled guilty to
• Indictments -189                                             possession of child pornography and was
• Convictions - 129                                            sentenced to 27 months’ imprisonment, to be
• Pretrial Diversion - 6                                       followed by 3 years’ probation. In addition, the
• Fugitive Felon Lead Arrests - 70 (arrests of                 subject was ordered to submit a DNA sample,
fugitive felons effected by other law enforcement              required of all convicted sex offenders. A joint
agencies as a direct result of investigative leads             investigation with VA police disclosed the
provided by the VA OIG)                                        employee, during duty hours, downloaded child
• Administrative Sanctions - 146                               pornography from the Internet onto a VA
• Monetary benefits - $33.6 million ($5.7 million              computer.
- fines, penalties, restitutions, and civil judgments;
$26 million - efficiencies/funds put to better use;            Theft/Diversion of Pharmaceuticals
and $1.9 million - recoveries)
                                                               • A group of veterans was found to be involved
Customer Satisfaction                                          in a scheme in which each fraudulently obtained
• Customer satisfaction was 4.9 on a 5 point                   narcotics from various VAMCs. These veterans
scale.                                                         then sold the tablets for $1 each to the primary
                                                               suspects in this case, two other veterans, who re-
                                                               sold the tablets for $4 each “on the street.”
Veterans Health                                                Investigation revealed the two primary suspects,
Administration                                                 an uncle and his nephew, were involved in a multi-
                                                               state distribution ring of oxycodone tablets. Both
Fraud and other criminal activities committed                  were arrested while enroute to another state with
against VHA include actions such as patient                    4,300 tablets under the hood of their car. The
abuse, theft of Government property, drug                      estimated street value of the seized narcotics was
diversion, bribery/kickback activities by                      $43,000. Their vehicle was seized and forfeited
                                                               pursuant to Federal drug forfeiture laws. The




                                                         16

                                                                                     Office of Investigations

nephew previously pled guilty to distribution of             of $37,677. Sentencing is pending for the second
narcotics and was sentenced to 21 months’                    employee. An independent audit of the credit
imprisonment. The uncle recently pled guilty to              union’s records determined that $68,900 had been
distribution of narcotics and is pending sentencing.         withdrawn fraudulently. Electronic password
This was a joint investigation by VA OIG, DEA,               histories indicated passwords issued to the two
and two county sheriffs’ departments.                        employees were used to gain access to the missing
                                                             funds. The withdrawals, taken sporadically by the
• A VAMC supervisory pharmacist and her                      employees, totaled $31,223 and $37,677,
uncle were sentenced for their roles in a drug theft         respectively. Both employees admitted to logging
ring. The pharmacist was sentenced to 8 years’               fabricated transactions in order to conceal the
confinement, to be followed by 3 years’ probation.           theft of funds. The employees resigned their
She was also ordered to surrender $500,000 as                positions immediately prior to the audit.
part of her plea agreement. Her uncle was
sentenced to 5 years, 10 months’ imprisonment, to            Theft of Benefits
be followed by 3 years’ probation. The
investigation disclosed that the pharmacist stole            • A former VAMC licensed practical nurse was
over 235,000 dosage units of schedule II and III             sentenced to 5 years’ probation and ordered to pay
controlled substances from a VAMC. She then                  $12,371 restitution and to refrain from filing or re-
transferred those drugs to her uncle and others for          filing a Federal workers’ compensation claim
street distribution. VA’s loss was $194,000 and              regarding latex allergies. The nurse had previously
will be repaid to VA from the funds surrendered by           pled guilty to theft of Government monies.
the pharmacist. This was a joint investigation by            Investigation revealed the nurse filed a
the VA OIG and DEA. Additional arrests are                   compensation claim alleging that she had a latex
expected.                                                    allergy so severe that she feared “anaphylaxis and
                                                             possible death.” In order to accommodate her
Possession of Illegal Drugs                                  alleged latex allergy, the VAMC created a position
                                                             that allowed her to work out of her home and
• A task force comprised of law enforcement                  continue to receive her full salary. The VAMC
personnel from the VA OIG, DEA, and local police             subsequently learned the nurse had obtained
arrested 14 individuals, based on a VA OIG                   another job as a nurse at a private nursing home
investigation that identified numerous illegal drug          with a tremendous amount of latex exposure. The
transactions that occurred at a VAMC and other               nurse never notified VA or the U.S. Department of
locations. The individuals face charges of                   Labor, Office of Workers’ Compensation Program
distribution of controlled substances within 1,000           (where she had a pending claim for her latex
feet of a public school. Four additional arrest              allergy) of her new employment. The investigation
warrants remain outstanding. In addition to drugs,           also determined that both VA and the private
the three search warrants executed in this case              nursing home were paying the nurse for some of
yielded drug paraphernalia and firearms.                     the same hours. The nurse resigned her VA
                                                             position. The loss to VA was $12,371 for the time
Embezzlement                                                 card fraud and $60,170 for the salary that the
                                                             nurse was paid to work out of her home.
• Two former employees of a credit union
located at a VAMC pled guilty to bank fraud and              • A former VAMC registered nurse was
credit union larceny. One of the employees was               sentenced to 18 months’ imprisonment, 3 years’
sentenced to 6 months’ incarceration and 3 years’            probation, and ordered to pay $202,929 in
supervised release and ordered to pay restitution            restitution to VA in connection with her theft of VA




                                                       17

Office of Investigations

Dependency and Indemnity Compensation (DIC)                    Threats
benefits. The individual previously pled guilty to
theft of Government funds and false statements.                • A veteran was indicted for making threats via
She fraudulently received benefits totaling over               interstate communications. The veteran had
$200,000 from 1972 to 2002.                                    telephonically notified a state attorney general’s
                                                               office and a VARO veterans service
• A former VAMC agent cashier was sentenced                    representative of his intention to blow up that
to 5 years’ probation and ordered to make                      VARO. Both the VA OIG and FBI interviewed
restitution of $12,473 to VA. The sentencing                   the veteran at his residence and confirmed that he
stemmed from a joint investigation conducted by                was upset due to the denial of his service-
VA OIG and the Federal Bureau of Investigation                 connected benefits. The veteran was cautioned
(FBI), which disclosed the former VA employee,                 not to make any additional threats against VA or its
between 1999 and 2000, unlawfully received                     employees. Approximately 1 hour after the
monies after submitting 462 false claims relating to           interview, the veteran made a third bomb threat to
beneficiary travel reimbursement.                              a VA physician. Consequently, the VA OIG, FBI,
                                                               and state police apprehended the veteran without
Identity Fraud                                                 incident.

• An individual was sentenced to 24 months’                    Theft of Government Property
incarceration, 5 years’ supervised release, and
ordered to pay $50,000 in restitution after pleading           • A former VA employee entered into a pretrial
guilty to charges relating to identity theft. The              diversion agreement wherein he agreed to make
defendant admitted to using an actual veteran’s                restitution to VA of $11,734 and to release his
name, Social Security number, and military service             claim of ownership of photographic equipment
record to apply for medical benefits. Investigation            valued at $2,752 and surrender it to VA. Federal
revealed the defendant used the veteran’s identity             prosecution was deferred for a period of 24
over the past decade in various fraudulent                     months. This agreement followed a joint
schemes. The defendant actually used the false                 investigation with VA police and disclosed that the
identity to enlist in the U.S. Marine Corps, enroll in         former employee stole used VA-owned camera
and receive care at a VA in-patient substance                  equipment originally valued at $58,500. The
abuse program, and apply for public assistance                 former employee traded the equipment for cash
benefits. The defendant also used false identity               and/or new equipment at camera shops and at a
documents numerous times in the past while being               trade show.
processed for unrelated arrests.

• An individual was sentenced to 36 months’
                                                               Procurement Fraud
imprisonment, 3 years’ probation, and ordered to
pay restitution of $89,359 after he pled guilty to             • A contractor/vendor was indicted for
using a fake identity in the commission of a crime.            conspiracy to make false claims and false
An investigation substantiated that the individual,            statements involving 21 overt acts. These charges
the half-brother of a veteran, used the veteran’s              stem from the installation of automobile adaptive
identity to obtain credit and receive health care              equipment into veterans’ vehicles. Although used
from two VAMCs.                                                equipment had been installed in the vehicles, the
                                                               investigation found that VA had been billed for
                                                               new equipment. The investigation also disclosed
                                                               the individual billed VA for equipment never




                                                         18

                                                                                          Office of Investigations

provided and unlawfully billed a 25 percent                        the purchases, the individuals submitted fraudulent
surcharge for certain vehicles. The VA loss is                     purchase orders to VA in an effort to obscure the
$92,380.                                                           crime. The total loss to VA exceeds $45,000.

Credit Card Fraud                                                  Veterans Benefits
• Four individuals were arrested pursuant to                       Administration
state arrest warrants charging them with
numerous counts of uttering1 forged credit cards                   VBA provides wide-reaching benefits to
and organized fraud. In addition to the arrests,                   veterans and their dependents, including
approximately 4,000 gallons of stolen fuel, three                  compensation and pension payments, home
vehicles, and several stolen credit cards were                     loan guaranty services, and educational
confiscated. A joint investigation involving the VA                opportunities. Each of these benefits programs
OIG, General Services Administration (GSA) OIG,                    is subject to fraud by those who wish to take
state police, and city police was initiated after the              advantage of the system. For example,
GSA OIG suspected that two GSA fuel credit                         individuals submit false claims for service
cards assigned to vehicles leased to a VAMC                        connected disability, third parties steal pension
were being used to fraudulently purchase large                     payments issued after the unreported death of
amounts of diesel fuel. The investigation revealed                 the veteran, individuals provide false
the suspects used electronic devices to                            information so that veterans qualify for VA
surreptitiously copy the GSA credit cards as well                  guaranteed property loans, equity skimmers
as other credit cards. The suspects used the                       dupe veterans out their homes, and educational
illegally copied credit cards to purchase diesel fuel              benefits are obtained under false
from gas stations. They transported the fuel in                    representations. The Office of Investigations
trucks rigged with large liquid storage containers to              spends considerable resources in investigating
remote dumpsites, where it was sold to dumpsite                    and arresting those who defraud operations of
managers for well below market value. The                          VBA.
dumpsite manager then sold the fuel, mainly to
trucking companies for below-market value. The                     Death Match Project
approximate value of the fraudulent charges was
$12,500. Investigation is continuing, and additional               • The Office of Investigations is conducting an
arrests are anticipated.                                           ongoing proactive project in coordination with VA
                                                                   OIG Information Technology and Data Analysis
• Five former VA employees were indicted after                     Division. The match is being conducted to identify
a grand jury returned a 125-count indictment                       individuals who may be defrauding VA by
charging each individual with false statements for                 receiving VA benefits intended for veterans who
their alleged role in a conspiracy to defraud VA.                  have died. When indicators of fraud are
An investigation determined that each of the                       discovered, the matching results are transmitted to
individuals used a Government-issued credit card                   VA OIG investigative field offices for appropriate
to purchase items for their own personal use                       action. To date, the match has identified in excess
during a 3-year period from 2000 through 2002.                     of 8,700 possible investigative leads. Over 5,000
The illegal purchases included a diamond ring,                     leads have been reviewed, resulting the
televisions, video and audio players, karaoke                      development of 663 criminal and administrative
machines, clothing, and power tools. After making                  cases. Investigations have resulted in the actual
                                                                   recovery of $9.2 million, with an additional $7.3
1 uttering - a legal term meaning to put into circulation.         million in anticipated recoveries. The 5-year




                                                             19

Office of Investigations

projected cost avoidance to VA is estimated at              Construction Fraud
$22.7 million. To date, there have been 79 arrests
in these cases with several additional cases                • A former owner of a company was charged
awaiting judicial actions.                                  with offenses related to money laundering after
                                                            the individual completed four transactions that
Equity Skimming/Loan Guaranty                               transferred nearly $500,000 from the company’s
Fraud                                                       business account to his personal offshore account
                                                            in 1998. The individual transferred these funds in
• Two individuals pled guilty to a Federal                  order to conceal their existence in a scheme to
indictment charging that they engaged in an equity-         defraud the business’ bonding company. As a
skimming scheme between 1993 and 1999. The                  result of the charge, the individual faces possible
individuals, who owned and operated a real estate           forfeiture of his assets to the Government. This
business, admitted fraudulently representing to             superseding indictment, the second in this
homeowners in distress that they would take over            investigation, adds to the previous charges leveled
the outstanding mortgage or tax payments, locate            against the defendant, including false statements to
an outside investor to purchase the property, and           the Small Business Administration and a
contact the bank holding the mortgage. It is                commercial bank, and mail and wire fraud
estimated that from 1996 to 1999, they collected            involving the business’ bonding company and
over $980,000. Sentencing is pending. This                  customers, including VA.
scheme affected several homes with mortgages
insured by HUD or guaranteed by VA. HUD has                 Fiduciary Fraud
estimated a loss of $1.4 million. The total loss to
VA is at least $70,000.                                     • A man was arrested without incident pursuant
                                                            to a felony arrest warrant after he was previously
• An individual pled guilty to wire fraud and               indicted on 65 counts of misappropriating funds
aiding and abetting after a joint VA OIG and HUD            entrusted to a fiduciary. The investigation
OIG investigation disclosed that two individuals            determined the individual, a court-appointed
perpetrated a multi-state scheme to take                    fiduciary, committed fraud against his uncle, a VA
advantage of more than 1,000 homeowners whose               beneficiary. Investigation disclosed that from 1998
mortgages were in default and facing foreclosure.           to 2001, the individual misappropriated $54,621 in
Of this number, 178 properties were subject to              VA monetary benefits paid to him on behalf of his
mortgages guaranteed by the U.S. Government.                uncle.
The subjects contacted the distressed homeowners
assuring them that they could “buy them some                • A woman was sentenced to 4 months’
time” before foreclosure. The subjects then                 community service and 12 months’ probation after
collected rent and fees from the homeowners but             she pled guilty to misappropriating funds with
failed to make any payments on existing                     respect to her role as a fiduciary. The
mortgages. As part of the scheme, they used                 investigation disclosed the individual was the
fictitious names and Social Security numbers and            appointed financial guardian for a disabled veteran
filed more than 200 fraudulent bankruptcies to              from 1997 to 2001. She diverted in excess of
delay the foreclosure process. The subjects                 $60,000 of VA benefits for her own personal use,
wrongfully collected $51,000 in rent and fees. The          which included funding her own private business
total loss to the Government was $390,000.                  dealings.
Sentencing is pending.




                                                      20

                                                                                      Office of Investigations

Theft and Embezzlement                                      investigation disclosed the daughter concealed the
                                                            death of her mother and, for more than 13 years,
• A veteran and his wife pled guilty to charges             unlawfully cashed each of the benefit checks sent
of money laundering after an investigation                  to her address. The daughter forged her mother’s
determined that the veteran, who was receiving              signature and cashed 165 checks that amounted to
VA individual unemployability benefits, claimed             $73,328.
that $25,000 in cash, discovered during execution
of a search warrant, was earned performing                  • The grandson of a deceased VA DIC benefits
mechanical work on cars. The veteran admitted               recipient was sentenced to 24 months’ supervised
he had failed to report this income to the Internal         release and ordered to pay restitution. The
Revenue Service and VA. However, investigation              grandson previously pled guilty to an indictment
determined that the cash was actually from a                charging him with theft of Government money.
marijuana-growing operation run by the veteran,             He continued to cash the benefit checks of his
his wife, and his son. Investigation further                deceased grandmother until the award was
revealed that the veteran, in the name of his               terminated in 2002. In 1996, he completed a VA
unwitting nephew, fraudulently purchased the                marital status questionnaire and mailed it back to
property, from which the majority of the marijuana          VA to continue receiving the benefits. In 1997, he
plants were seized, so the veteran could avoid              contacted VA, purporting to be the grandmother,
being linked to this location by law enforcement.           and switched the payment method to direct deposit
This was a joint investigation between the VA OIG,          into a joint account with his deceased
Internal Revenue Service, and DEA.                          grandmother. The grandson confessed to
                                                            converting the VA funds during an interview
Disability and Workers’ Compensation                        conducted by VA OIG special agents. This was a
                                                            joint investigation with the U.S. Postal Inspection
Fraud                                                       Service. The total loss to VA from 1992 to 2002
                                                            was $96,890.
• An individual was arrested and charged with
insurance fraud, perjury, and grand theft after a           • A veteran pled guilty to wire fraud and was
investigation determined that from 1994 to 2000,            sentenced to 18 months’ imprisonment, 3 years’
the individual filed false statements with VA and           supervised release, and ordered to pay $146,570 in
the Department of Labor, Office of Workers’                 restitution. An investigation determined the
Compensation Program in order to obtain workers’            veteran, who was receiving VA pension benefits,
compensation benefits. The investigation revealed           falsely reported he received no income while he
the individual fraudulently received benefits while         was actually receiving monthly Social Security
owning and operating a counseling service that              benefits.
contracted with various state and local agencies.
The individual unlawfully received workers’                 • A veteran pled guilty to a criminal information2
compensation benefits amounting to $424,511.                charging him with fraudulent acceptance of
                                                            payments. He was sentenced to 5 months’
Theft of Benefits                                           imprisonment, 5 months’ home confinement, and
                                                            ordered to make restitution of $61,158 to VA. An
• The daughter of a deceased VA beneficiary                 investigation revealed the individual applied for
was sentenced to 5 months’ imprisonment, 5
months’ home confinement, and 2 years’
supervised release, following her guilty plea to            2 information - a legal term for a formal accusation of a
theft of Government funds. A joint VA OIG and               crime made by a public officer rather than by a grand
Social Security Administration (SSA) OIG                    jury indictment.




                                                      21

Office of Investigations

pension benefits and claimed to have no income or            $230,000 to the U.S. Treasury to settle the claim.
assets. However, he earned over $800 per month               An investigation initiated pursuant to the death
from interest and dividends from more than                   match project revealed that the widow failed to
$200,000 in stocks that he owned. The individual             report her husband’s death to VA and negotiated
claimed to be destitute and certified that he had no         his monthly compensation checks, which continued
stocks, bonds, or cash. He had earlier received              to be sent to his home address. Criminal charges
$280,000 from an insurance settlement.                       were not pursued due to the widow’s age. The
                                                             $230,000 represents 153 percent of the $150,644
• A veteran was arrested by VA OIG and SSA                   obtained by the widow after the veteran’s death.
OIG agents on charges of theft of public money,
false statements, and wire fraud. The veteran
collected compensation benefits since 1991,
                                                             Fugitive Felon
claiming he could not walk without the use of                Program
braces, crutches, or a wheelchair. Because of the
nature of the veteran’s disability, he also received         The Office of Investigations has established a
special monthly compensation, adaptive housing               Fugitive Felon Program to identify VA benefits
compensation, and assistance for the purchase of             recipients who are fugitives from justice. The
an automobile. Investigation disclosed that he               program evolved after Congress enacted Public
could walk without the aid of the assistance                 Law 107-103, Veterans Education and
devices. The veteran repeatedly performed                    Expansion Act of 2001, prohibiting veterans
physical acts that greatly exceeded claimed                  who are fugitive felons, or their dependents,
limitations. When seeking treatment at a VAMC,               from receiving specified benefits. The program
the veteran appeared to assume the role of a                 consists of conducting computerized matches
wheelchair-bound patient. Total loss to VA                   between fugitive felon files of law enforcement
exceeds $400,000.                                            organizations and VA benefit system files.
                                                             Once a veteran is identified as a fugitive,
• The daughter of a DIC beneficiary was                      information on the individual is provided to the
indicted for theft of Government funds after an              law enforcement organization responsible for
investigation determined from 1988 to 2001, the              serving the warrant to assist in the
individual used a bank card to withdraw her                  apprehension. Fugitive information is then
deceased mother’s VA benefits. The loss to VA is             provided to the Department so that benefits
$122,365.                                                    may be suspended and to initiate recovery
                                                             action for overpayments. To date, the Fugitive
• The girlfriend of a deceased veteran pled                  Felon program has identified more than 12,000
guilty to an information charging theft of                   matches leading to the arrest of 178 fugitive
Government funds after a VA OIG investigation                felons nationwide.
revealed she concealed the veteran’s death from
VA and stole VA pension benefits totaling                    • An individual was arrested pursuant to a
$100,349. The benefits included additional funds             parole violation warrant issued by a state
for aid and attendance that VA believed the                  department of criminal justice. During the course
girlfriend was providing. Sentencing is pending.             of investigating possible pension fraud by the
                                                             individual, VA OIG discovered he was on parole
• The widow of a deceased veteran entered into               for burglary. VA OIG agents interviewed the
a settlement agreement relative to a violation of            individual and subsequently obtained a sworn
the False Claims Act filed on behalf of VA. As               statement in which he admitted to making false
part of this agreement, the widow wire-transferred           statements to VA. The individual’s sworn




                                                       22

                                                                                      Office of Investigations

statement, in conjunction with a positive drug test           indicated the individual was currently receiving VA
from the state, resulted in the issuance of a parole          benefits. In January 2003, the FBI requested that
violation warrant. The individual realized his                VA not forward a due process letter to the
parole was going to be revoked and became a                   individual, as they needed more time to coordinate
fugitive. VA OIG coordinated with the state,                  the arrest with local authorities. The VA OIG was
including the sex offender’s task force, to arrest            able to assist with this request, and local police
the individual. The investigation of the individual’s         subsequently took the individual into custody. He
alleged pension fraud is ongoing.                             is currently awaiting extradition back to the United
                                                              States.
• A state bureau of investigation requested
assistance from the VA OIG in the capture of one
of the state’s 10 most wanted fugitives. The
                                                              OIG Forensic Document
individual was wanted for allegedly committing                Laboratory
murder. VA OIG agents determined the individual
had been seeking medical treatment at a VA                    The OIG operates a nationwide forensic
facility and immediately began checking records at            document laboratory service for fraud
the VAMC and the VARO. A VA file indicated                    detection that can be used by all elements of
the individual had several family members living              VA. The types of requests routinely submitted to
nearby. Other records checked indicated the                   the laboratory include handwriting analysis,
individual had been stopped by local police and had           analysis of photocopied documents, and
given his correct name; however, local police                 suspected alterations of official documents.
failed to run his name for outstanding warrants.
The VA OIG was able to locate the individual                  There were a total of 17 completed laboratory
within a week of receiving the request for                    cases during this semiannual period.
assistance and coordinated with local and Federal
counterparts to arrest the individual at the VAMC.
                                                                      Laboratory Cases for the Period
• VA OIG special agents and Deputy U.S.
Marshals apprehended a veteran with an                                                             C a se s
                                                                        Requester
outstanding arrest warrant for murder. The                                                        Completed
veteran had been recently charged with
                                                              OIG Office of Investigations             7
intentionally causing the death of another by
stabbing. The veteran was apprehended at a VA
                                                              VA Top Management                        4
outpatient clinic.
                                                              VA Regional Offices                      6
• An individual was arrested based on address
information provided by VA OIG to the FBI and a
                                                                          TOTAL                       17
county sheriff’s office. The county issued arrest
warrants for the individual in November 1993 and
April 1994 for dangerous drug offenses. In May
                                                              The following are examples of completed
1995, the FBI obtained a Federal warrant and
                                                              laboratory reports:
charged him with unlawful flight to avoid
prosecution. In December 2002, the VA OIG
                                                              • An investigation of a veteran/VARO employee
forwarded an out-of-country address for the
                                                              revealed that his compensation claim for the loss
individual to the FBI and sheriff’s office. It was
                                                              of the use of his left hand had been based on
obtained as a result of a match between the state
                                                              fraudulent statements and deceptive
wanted persons file and the VA C&P file that



                                                        23

Office of Investigations

demonstrations of his motor skills to VA doctors.           Resources
The left hand was his dominant hand. During the
criminal court trial, the forensic document analyst         The Administrative Investigations Division has six
prepared court exhibits to show the jury the basis          FTE allocated. The following chart shows the
of his laboratory results, which determined the             percentage of resources used in reviewing
veteran distorted his natural handwriting. The jury         allegations by program area.
found the veteran guilty of all criminal charges he
had faced during the trial.

• The VA OIG investigated an individual who
stole the name and Social Security number of                                                VBA
another individual, which he used to purchase a                                             5%
foreclosed residence sold by VA. Laboratory
handwriting examinations indicated the individual                      VHA                    NCA
under investigation fraudulently authored                              85%                    5%
signatures, entries on real estate documents, and
                                                                                           VACO
Social Security documents. The forensic
                                                                                            5%
document analyst prepared court exhibits and
planned to provide court testimony; however, the
individual subsequently pled guilty.

• The VA OIG investigated the estranged wife
                                                            Overall Performance
of a veteran who, after his death, continued to
cash the VA benefit checks issued to the veteran.           Output
The wife did not report the death of her husband            • The Division closed 25 cases and issued 12
and when confronted, denied she had cashed the              reports and 5 advisory memoranda.
checks. Laboratory examinations determined that
the wife had forged the signature of the veteran.           Outcome
The forensic document analyst prepared court                • VA managers agreed to take 25 administrative
exhibits and planned to provide court testimony;            sanctions, including personnel actions against 15
however, the individual subsequently pled guilty.           officials, and corrective actions in 10 instances to
                                                            improve operations and activities. The corrective
                                                            actions included charging physicians annual leave
II. ADMINISTRATIVE                                          for days they were absent from duty; issuing a
INVESTIGATIONS                                              chief of staff a bill of collection to recoup travel
                                                            funds inappropriately paid to him; collecting fees
DIVISION                                                    due the Government from a contractor; directing a
                                                            physician to repay the value of gifts he received
Mission Statement                                           from pharmaceutical companies; and revising
                                                            erroneous guidance.
    Independently review allegations and
                                                            Samples of the Administrative Investigations
    conduct administrative investigations
                                                            Division reports issued during this period are
    generally concerning high-ranking senior
                                                            provided below. These reports address serious
    officials and other high profile matters of
                                                            issues of misconduct against high-ranking officials
    interest to the Congress and the
                                                            and other high-profile matters of interest.
    Department.




                                                      24

                                                                                      Office of Investigations

Veterans Health                                               officials agreed to take appropriate administrative
                                                              action against the chief of staff, and issue him a
Administration                                                bill of collection for the funds inappropriately paid
                                                              to him.
Acceptance of Speaking Fees and
Gifts                                                         Physician Misuse of Official Time

                                                              • Administrative investigations substantiated that
• An administrative investigation substantiated
                                                              two full-time physicians misused their official time.
that a VAMC physician violated Federal ethics
                                                              In one case, a physician treated non-VA patients at
regulations when he accepted honoraria and a
                                                              the affiliated medical school, for compensation,
travel payment for speaking on matters related to
                                                              during her VA tour of duty. In the second case, a
his official duties, and accepted gifts of cash and
                                                              physician scheduled appointments with her private
travel payments from pharmaceutical companies,
                                                              practice patients during her VA tour of duty. Each
which were prohibited sources. VHA
                                                              physician was charged annual leave or issued a bill
management officials agreed to take appropriate
                                                              of collection for the days she was absent. VHA
administrative action against the physician and
                                                              officials took appropriate administrative action
require him to repay the dollar value of the gifts he
                                                              against one physician; the other physician
improperly received.
                                                              resigned.
Appearance of Not Acting Impartially
                                                              Veterans Benefits
• An administrative investigation substantiated
that a VAMC chief of staff violated Federal ethics
                                                              Administration
regulations by signing his spouse’s proficiency
report as the approving official. The spouse                  Misuse of a Government Vehicle
received a within-grade increase immediately after
the chief of staff signed the proficiency report,             • An administrative investigation substantiated
giving the appearance that he did not act                     that a VARO supervisor violated Federal law by
impartially towards her. The chief of staff had               willfully misusing a Government vehicle to
been advised more than once to avoid participating            transport him to work on a routine basis for 4
in the spouse’s supervisory chain, and knew he                years. The supervisor acted with reckless
should not have signed the appraisal. VHA                     disregard as to whether his use of the vehicle was
management agreed to take appropriate                         authorized, and personally benefited from his
administrative action against the chief of staff.             actions in that, for 4 years, he did not incur
                                                              expenses associated with normal home to work
Travel Voucher Irregularities                                 commuting. VBA officials agreed to take
                                                              appropriate administrative action against the
• An administrative investigation substantiated               supervisor.
that, over a 2-year period, a VAMC chief of staff
inappropriately claimed and was reimbursed for
travel expenses incurred when he returned to a
former duty station to provide weekend on-call
services. The chief of staff knowingly claimed
meals and incidental expenses for days he was not
scheduled to be on-call. VHA management




                                                        25

Office of Investigations




                       This page intentionally left blank in printed copy.




                                              26

OFFICE OF AUDIT

Mission Statement                                         In addition, the Office of Audit’s Contract Review
                                                          and Evaluation Division has 25 FTE authorized for
    Improve the management of VA programs                 reimbursement under an agreement with the VA
    and activities by providing our customers             Office of Acquisition and Materiel Management.
    with timely, balanced, credible, and                  This division conducts preaward and postaward
    independent financial and performance                 reviews of certain categories of VA contracts.
    audits and evaluations that address the
    economy, efficiency, and effectiveness of             Overall Performance
    VA operations; and that identify
    constructive solutions and opportunities for          Output
    improvement; and to conduct preaward                  • We issued 48 audits, evaluations, and reviews
    and postaward reviews to assist contracting           for an output efficiency of 1 report per 1.6
    officers in price negotiations and to ensure          assigned FTE during this 6-month period. We also
    reasonableness of contract prices.                    issued an additional 35 contract review reports, for
                                                          an efficiency of 2.8 reports per assigned FTE for
Resources                                                 this 6-month period.

                                                          Outcome
The Office of Audit has a ceiling of 176 FTE
                                                          • Recommendations to enhance operations and
allocated for its headquarters and 8 operating
                                                          correct operating deficiencies have associated
divisions located throughout the country. The
                                                          monetary benefits totaling approximately $4.4
following chart shows the allocation of resources
                                                          million. In addition, contract reviews identified
used in auditing each of VA’s major program
                                                          monetary benefits of $26.2 million associated with
areas.
                                                          the results of preaward and postaward contract
                                                          reviews.

                                                          Customer Satisfaction
                                                          • Customer satisfaction with independent
     Management                IT                         financial and performance audits and evaluations
        11%                   4%                          during this reporting period was 4.2 on a scale of
                                                          5.0. The average customer satisfaction rating
                                      VBA                 achieved for contract reviews was 4.7 out of a
                                      13%                 possible 5.0.

                                 A&MM                     The following summarizes some of the audits
          VHA                                             completed during the reporting period organized by
                                  13%
          59%                                             VA component: VHA, VBA, and Office of
                                                          Management.




                                                    27

Office of Audit

Veterans Health                                              VHA does not have effective procedures to align
                                                             physician-staffing levels with workload
Administration                                               requirements. VAMCs did not perform any
                                                             workload analysis to determine how many full-time
Quality of Care                                              employee equivalents were needed to accomplish
                                                             the VAMCs’ workload. In addition, VAMCs did
                                                             not evaluate their hiring alternatives (such as part-
Issue: Part-time physician time and
                                                             time, full-time, intermittent, or fee basis). VAMC
   attendance.
                                                             managers responsible for staffing decisions did not
Conclusion: VHA’s management controls
                                                             fully consider the physicians’ other responsibilities
   were not effective in ensuring that
                                                             - such as medical research, teaching, and
   part-time physicians met their
                                                             administration - when they determined how many
   employment obligations and that
                                                             physicians the VAMCs needed. VHA officials
   physician staffing was aligned properly
                                                             told us the determination of the number of part-
   with workload requirements.
                                                             time physician employee equivalents needed has
Impact: Strengthened controls over time
                                                             more to do with the financial needs of the affiliated
   and attendance.
                                                             university in meeting physician pay packages, than
                                                             the number of hours needed by VA to meet patient
At the request of the Secretary of Veterans
                                                             workload requirements. In addition, only one of
Affairs, we audited VHA’s management of part-
                                                             the managers at the five VAMCs we visited told
time physician time and attendance, physician
                                                             their part-time physicians what was expected of
productivity in meeting employment obligations,
                                                             them to meet their VA employment responsibilities.
and physician staffing requirements. The audit
                                                             We believe communication of expectations and
objectives were to determine if: (i) timekeeping
                                                             responsibilities would significantly improve
and other management controls were effective in
                                                             operations at the VAMCs.
ensuring that part-time physicians worked the
hours required by their VA appointments; and
                                                             We recommended that the Under Secretary for
(ii) VHA used effective procedures to align
                                                             Health take the following actions.
physician staffing with workload requirements.
                                                             • Require that VISN and VAMC directors
VAMC managers did not ensure that part-time
                                                             ensure part-time physicians meet their employment
physicians met employment obligations required by
                                                             obligations and hold field managers accountable
their VA appointments. Although VHA had
                                                             for compliance.
established time and attendance policy and
procedures to account for part-time physicians,
                                                             • Determine what reforms are needed to ensure
neither VHA headquarters officials nor VAMC
                                                             VA physician timekeeping practices are effective
managers enforced the policy. VHA management
                                                             in an academic medicine environment and VA
at many levels told us they were generally satisfied
                                                             physicians are paid only for time and service
with physician productivity and believed VA
                                                             actually provided. Recommend statutory or
received more value than it paid for from the
                                                             regulatory changes needed to implement the
services provided by part-time physicians, despite
                                                             reforms and publish appropriate policy and
apparent timekeeping violations. Results of the
                                                             guidance.
audit clearly showed that part-time physicians
were not working the hours established in their VA
                                                             • Establish performance monitors to measure
appointments; as a result, part-time physicians
                                                             VISN and VAMC enforcement of physician time
were not meeting their employment obligations to
                                                             and attendance; ensure desk audits are conducted
VA.




                                                       28

                                                                                            Office of Audit

of timekeeping functions; provide continuing           to VHA’s Deputy Under Secretary for Operations
timekeeping education to supervisors,                  and Management.
physicians, and timekeepers; require VAMC
managers to certify compliance with                    • Evaluate alternative methods to acquire
applicable policies and procedures to VHA’s            physician services and publish national guidance to
Deputy Under Secretary for Operations and              assist VISN and VAMC directors in determining
Management annually; and hold VHA                      the best strategies for their regional, academic, and
managers accountable for successful                    patient care circumstances.
implementation of time and attendance
requirements.                                          • Publish guidance describing how VISN and
                                                       VAMC managers should determine, monitor, and
• Apprise all part-time physicians of their            communicate the allocation of physician time
responsibilities regarding VA timekeeping              among patient care, administrative duties,
requirements.                                          academic training, and medical research.

• Evaluate appropriate technological                   The Under Secretary for Health agreed with the
solutions that will facilitate physician               findings and recommendations, except for: (i) the
timekeeping.                                           recommendation requiring the VAMC directors to
                                                       perform an annual staffing assessment and provide
• Develop comprehensive guidance for                   a certification of their staffing decision; and (ii) the
VAMCs to use when conducting desk                      recommendation requiring national guidance on
audits.                                                strategies to determine physician services. The
                                                       Under Secretary provided an acceptable
• Establish appropriate training modules,              alternative implementation plan for the
making the best use of technological                   recommendation concerning the need for staffing
solutions for training VHA managers, VA                assessments and certifications of the VAMC
physicians, and timekeepers in timekeeping             directors’ staffing decisions. For the
requirements, responsibilities, and                    recommendation to require national guidance on
procedures.                                            strategies to determine physician services, the
                                                       Under Secretary indicated guidance was currently
• Publish policy and guidance that                     available for acquiring physician services through a
incorporates the use of workload analysis to           number of different means. However, the
determine the number of physicians needed              referenced current guidance does not assist VISN
to provide timely, cost effective, and quality         and VAMC directors in making the best choices in
service to veterans seeking care from VA.              acquiring physician services. Since the Under
                                                       Secretary indicated that staffing guidelines are
• Require VAMCs to review their staffing               under development, we will hold this
structures (such as part-time, full-time,              recommendation open pending issuance of the
intermittent, or fee basis) and determine if           staffing guidance and VHA’s new policy on
these appointments are appropriate to the              procuring clinical services under Section 8153 of
needs of the VAMC.                                     Title 38, United States Code. We consider the
                                                       Under Secretary’s implementation plans to be
• Require that VISN and VAMC                           acceptable. (Audit of VHA’s Part-Time
directors reassess staffing requirements               Physician Time and Attendance, 02-01339-85,
annually and certify their staffing decisions          4/23/03)




                                                 29

Office of Audit

Issue: Part-time physicians’ time and                        • Conduct a 100 percent review of surgery
   attendance at VAMC Kansas City.                           service timekeeping records to ensure physicians
Conclusion: Two part-time physicians did                     were paid for hours they worked.
   not meet their responsibilities.
Impact: Strengthened controls over time                      • Remind all timekeepers that physicians should
   and attendance.                                           only be paid for the hours worked and that
                                                             appropriate supporting documentation should be
At the request of the Secretary of Veterans                  present before inputting time and attendance data
Affairs, we reviewed an anonymous complaint                  into the official electronic time records.
sent to Congressman Ike Skelton alleging that two
part-time physicians continue to abuse their time            The Director agreed with our findings and took
and attendance responsibilities by treating non-VA           immediate actions. Bills of collection were issued
patients at the affiliated Kansas University                 to both physicians on May 13, 2003 for the
Medical Center during their scheduled VA tours of            amounts shown in the report. A 100 percent
duty. OIG investigators substantiated a previous             review of the surgery service timekeeping records
accusation of time and attendance irregularities on          was conducted for the past 3 months. Directions
the part of both physicians in October 2001.                 were issued immediately to all timekeepers to re-
                                                             emphasize the importance of accurate
We substantiated the allegation that both                    timekeeping. We consider the Director’s
physicians did not meet their time and attendance            implementation plans to be acceptable.
responsibilities. In total, we estimate the                  (Evaluation of Hotline Complaint Concerning
physicians were overpaid $13,102. We found that              Time and Attendance of Two Part-Time
the physicians treated non-VA patients at the                Physicians at Kansas City VAMC, 02-01198-
affiliated Kansas University Medical Center during           103, 5/23/03)
their scheduled VA time, in some cases working at
the university while claiming sick leave or                  Issue: VHA’s medical care waiting lists.
authorized absence from VA. The physicians                   Conclusion: VHA can improve the
were inappropriately paid for 76 hours ($5,393)                 accuracy of waiting lists.
when the physicians were at the university treating          Impact: Improved ability to assess and
non-VA patients. We also found the surgery                      manage demand and credibility of VHA
service timekeeper did not always use the                       responses to internal and external
subsidiary time and attendance report as the basis              stakeholder concerns.
for paying the physicians. We identified a net total
of 109 hours ($7,709) the physicians were paid in            The purpose of this audit was to verify the
excess of the hours they claimed on their                    accuracy of the medical care waiting lists and
subsidiary time and attendance reports.                      determine the causes of any inaccuracies found.
                                                             Results of audit showed that VHA’s medical care
We recommended that the Director, VAMC                       waiting lists for new enrollees and established
Kansas City take the following actions.                      patients were overstated. Also, significant
                                                             numbers of new enrollees were misclassified and
• Issue bills of collection to the two physicians            should have been reported on the established
for the money paid them when they were working               patient waiting list. The inaccuracies occurred
at the university and for the excess hours paid              because appointment schedulers did not update the
them due to timekeeper errors.                               waiting lists as veterans received appointments or
                                                             medical care, and they did not enter follow up
                                                             appointments appropriately into the Veterans




                                                       30

                                                                                                 Office of Audit

Health Information Systems and Technology
Architecture scheduling package. The total
                                                               Veterans Benefits
waiting list of 309,186 veterans should have been              Administration
about 218,000 veterans, or 91,000 veterans (29
percent) fewer than reported.                                  Loan Refunding Practices
It is important that the waiting list data be accurate
                                                               Issue: Refunding decisions made by Loan
because VHA uses the data in planning budget
                                                                  Guaranty Service (LGS) regional loan
priorities, measuring performance, and determining
                                                                  center staff.
whether strategic goals are met. Inaccurate
                                                               Conclusion: LGS needed to improve the
waiting lists compromise the ability to assess and
                                                                  quality of loan refunding practices and
manage demand and credibility of VHA responses
                                                                  control of loan folders.
to internal and external stakeholder concerns.
                                                               Impact: Better decision-making.
VHA managers recognized the need to improve
the accuracy of tracking patients who were on
                                                               The purpose of the review was to identify the
waiting lists. In response, they began taking
                                                               factors that may have contributed to the default
corrective action during our audit and plan to
                                                               and foreclosure of refunded loans. We focused on
develop a nationwide electronic waiting list.
                                                               the refunding decisions made by LGS regional loan
                                                               center staff for samples of loans that were
We recommended that the Under Secretary for
                                                               seriously delinquent or pending foreclosure. We
Health take the following actions.
                                                               identified several issues that required management
                                                               attention. LGS needed to implement clear and
• Provide refresher training for staff using the
                                                               consistent loan refunding policies and procedures
scheduling package, to include the need to
                                                               to improve the quality of loan refunding decisions.
frequently update the waiting list and to enter
                                                               LGS also needed to develop and use performance
follow up appointments correctly in the scheduling
                                                               measures and management reports to improve the
package. Also, provide direction to health care
                                                               monitoring of refunded loans. Additionally, LGS
providers to specify in the electronic progress
                                                               needed to identify and locate missing refunded
notes when they want the veterans to be
                                                               loan folders. During our review, LGS
scheduled for their next appointments.
                                                               management took steps, such as issuing a circular
                                                               addressing quality assurance on refunded loans,
• Update the FileMan routine so that it does not
                                                               which should improve loan refunding practices.
include erroneous appointments, duplicate names,
or cancelled appointments on the waiting lists.
                                                               We recommended that the Under Secretary for
                                                               Benefits ensure that LGS management takes the
• Expedite implementation and monitor the
                                                               following actions.
accuracy of the electronic waiting list software.
                                                               • Monitors the implementation of Circular 26-
The Under Secretary for Health agreed with the
                                                               02-7 to ensure loan servicing representatives
audit findings and provided acceptable
                                                               verify each borrowers’ income and credit history;
implementation plans. (Audit of VHA’s Reported
                                                               document analysis of credit history and ability to
Medical Care Waiting Lists, 02-02129-95,
                                                               make future loan payments; justify decisions to
5/14/03)
                                                               refund loans; and, in cases which appear
                                                               questionable, obtain the concurrence of the loan
                                                               administration officer.




                                                         31

Office of Audit

                                                             (ii) provides 20 additional observations and
• Develops and utilizes performance measures                 recommendations from the audit to further assist
and management reports to effectively oversee                the Department in improving internal control and
and manage the loan refunding program and                    financial reporting; and (iii) reports the results of
provide feedback to management.                              follow-up of prior year CFS audit findings. The
                                                             other seven management letters related to
• Identifies missing refunded loan folders and               management of three VA data centers and four
take steps to locate the folders, or reconstruct the         application systems.
folders.                                                     [(i) Management Letter, Audit of VA’s FYs 2002

                                                             and 2001 CFS General Systems Control Review

The Under Secretary for Benefits agreed with the             at the Austin Automation Center, 02-01638-118,

findings and provided details on corrective actions          7/17/03;

taken to address the recommendations. (Review                (ii) Management Letter, Audit of VA’s FYs 2002

of VBA Loan Guaranty Service Loan                            and 2001 CFS General Systems Control Review

Refunding Practices, 00-02021-86, 4/25/03)                   at the Philadelphia Information Technology

                                                             Center, 02-01638-119, 7/17/03;

Office of Management                                         (iii) Management Letter, Audit of VA’s FYs 2002

                                                             and 2001 CFS General Systems Control Review

                                                             at the Hines Benefit Delivery Center, 01-01638-

VA’s Consolidated Financial                                  120, 7/17/03;

Statements                                                   (iv) Management Letter, Audit of VA’s CFS for

                                                             the FY Ended September 30, 2002, 01-01638-

Issue: Financial management.                                 146, 8/6/03;

Conclusion: Management letters were                          (v) Management Letter, Audit of VA’s FYs 2002

   issued to assist VA in improving                          and 2001 CFS Compensation and Pension

   financial management.                                     Review, 02-01638-151, 8/11/03;

Impact: Improved financial reporting and                     (vi) Management Letter, Audit of VA’s FYs 2002

   controls.                                                 and 2001 CFS Financial Management System

                                                             Review, 02-01638-152, 8/11/03;

The independent public accounting firm, Deloitte             (vii) Management Letter, Audit of VA’s FYs 2002

& Touche LLP, performed the audit of VA’s                    and 2001 CFS Loan Guaranty Systems Follow-

Consolidated Financial Statements (CFS) under                up Review, 02-01638-153, 8/11/03; and

contract to the OIG. As part of the audit, we                (viii) Management Letter, Audit of VA’s FYs

issued eight management letters addressing                   2002 and 2001 CFS Personnel and Accounting

financial reporting and control issues. The                  Integrated Data System Review, 02-01638-154,

management letters provided VA managers                      8/11/03]

additional observations and advice that will enable
the Department to improve accounting operations              Preaward Contract Reviews
and controls.
                                                             Issue: Federal Supply Schedule (FSS)
One management letter (report number 02-01638-                  vendors’ best prices.
152): (i) reiterates two material weaknesses and             Conclusion: Vendors can offer better
five reportable conditions identified in the                    prices to VA.
previously issued CFS audit report number 02-                Impact: Potential better use of
01638-47 (Audit of the Department of Veterans                   $13.8 million.
Affairs CFS for FYs 2002 and 2001, 1/22/03);




                                                       32

                                                                                              Office of Audit

Preaward reviews of 9 FSS and direct delivery                companies relating to overcharges on their
offers made recommendations for potential better             contracts with VA. Postaward contract reviews
use of $13.8 million. Recommendations to                     are a major source of recoveries to VA’s
negotiate lower contract prices were made                    Revolving Supply Fund. These recoveries are a
because the manufacturers were not offering the              result of VA’s work as a team, with the Office of
most favored customer prices to FSS customers                Acquisition and Materiel Management, Office of
when those same prices were extended to                      General Counsel, and VHA, to ensure that VA’s
commercial customers purchasing under similar                contracts are fairly priced.
terms and conditions as the FSS.

Issue: Health care resource contracts.
Conclusion: VA can negotiate reduced
   contract costs.
Impact: Potential better use of
   $3.8 million.

We completed reviews of 12 proposals from VA
affiliated medical schools involving the acquisition
of scarce medical specialists’ services. We
concluded that the contracting officers should
negotiate reductions of $3.8 million to the proposed
contract costs because of differences between the
proposed costs for the services solicited and the
costs the affiliate could justify.

Postaward Contract Reviews

Issue: Contractor overcharges for
   pharmaceuticals and medical supplies.
Conclusion: Overcharges were
   disclosed.
Impact: Recovery of more than
   $8.5 million.

We completed 11 reviews of vendors’ contractual
compliance with the specific pricing provisions of
their FSS contracts. The reviews resulted in
recoveries amounting to $8.4 million. We also
completed 3 drug pricing Public Law 102-585
compliance reviews at pharmaceutical vendors,
with recoveries of $162,000.

OIG efforts to maintain an aggressive postaward
contract review program resulted in numerous
voluntary disclosures and refund offers from




                                                       33

Office of Audit




                  This page intentionally left blank in printed copy.




                                        34

OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                          • Completed one summary evaluation report and
                                                           made six recommendations to improve the
                                                           operations and effectiveness of VHA quality
    Promote the principles of continuous quality           management (QM) programs and patient care and
    improvement and provide effective                      safety in VHA health care facilities.
    inspections, oversight, and consultation to
    enhance and strengthen the quality of VA’s             • Completed 17 Hotline cases, which consisted
    health care programs.                                  of reviews of 55 issues. We issued reports on
                                                           eight of the cases and administratively closed the
Resources                                                  remaining nine cases. We made 21
                                                           recommendations that will improve the health care
                                                           and services provided to patients.
The Office of Healthcare Inspections (OHI) has
46 FTE allocated to staff headquarters and field
                                                           • Completed one interagency report. The
operations. The following chart shows the
                                                           Offices of Inspectors General of the Departments
allocation of resources utilized to conduct
                                                           of Agriculture, Defense, Energy, Health and
evaluations, inspections, CAP reviews, oversight,
                                                           Human Services, and VA formed a committee to
technical reviews, and clinical consultations in
                                                           ensure coordination of efforts to address security
support of criminal investigation cases.
                                                           controls over biological agents.

                                                           • Provided clinical consultative support to
                                                           investigators on 13 criminal cases.
                   Consults
    Technical       13%
     Reviews
                                    Hotline                • We oversaw the work of VHA’s Office of the
                                  Inspections
       2%                             20%
                                                           Medical Inspector on four projects.
     Evaluations
                                     Oversights            Outcome
        10%
                                        4%                 • Overall, OHI made or monitored the
                                                           implementation of 85 recommendations and 49
                                                           suggestions to improve the quality of care and
                         CAPs
                         51%
                                                           services provided to patients and their families.
                                                           VHA managers agreed with all our
                                                           recommendations and provided acceptable
                                                           implementation plans. VHA implementation
Overall Performance                                        actions will improve clinical care delivery,
                                                           management efficiency, and patient safety, and will
                                                           hold employees accountable for their actions.
Output
• Participated in 23 CAP reviews to evaluate
                                                           Customer satisfaction
health care issues and made 58 recommendations
                                                           • Survey results showed an average rating of
and 49 suggestions that will improve operations
                                                           4.3 out of a possible 5.0.
and activities, and the care and services provided
to patients.




                                                     35

Office of Healthcare Inspections

Veterans Health                                               We made several recommendations. The Under
                                                              Secretary for Health concurred and provided
Administration                                                responsive implementation plans. (Healthcare
                                                              Inspection, Evaluation of Quality Management
Summary Evaluations                                           in VHA Facilities, 02-00026-106, 6/4/03)

                                                              Issue: Interagency summary report on
Issue: VHA quality management programs.
                                                                 security controls over biological
Conclusion: Actions were needed to
                                                                 agents.
   strengthen programs in VHA facilities.
                                                              Conclusion: Agencies need to strengthen
Impact: Improved monitoring and follow
                                                                 controls over agents.
   up on quality of care and services.
                                                              Impact: Enhanced safety for veterans,
                                                                 employees, and the general public.
The purposes of this review were to determine
whether: (i) VHA facilities had effective,
                                                              After a series of Bacillus anthracis (anthrax)
comprehensive QM programs designed to monitor
                                                              mailings following the September 11, 2001, terrorist
patient care activities and coordinate improvement
                                                              attacks, the concern that terrorists or extremist
efforts; (ii) VHA facility senior managers
                                                              groups might use nuclear, biological, or chemical
supported QM efforts; and (iii) VISN directors
                                                              agents as weapons of mass destruction against
provided support in data management.
                                                              civilians within the United States made the need to
                                                              protect those agents a high priority. Congress and
Our review showed that facility QM plans were
                                                              various Federal agencies have undertaken
current but did not always include all significant
                                                              numerous initiatives over the past year to improve
patient care areas or all programs that had
                                                              the Nation’s ability to combat terrorism and
mandated QM reporting requirements. We found
                                                              minimize the threat of weapons of mass
some sophisticated data analyses, but facility
                                                              destruction, specifically biological agents.
managers did not consistently analyze data
collected for all monitors or benchmark their
                                                              To address security controls over biological agents
results. Some significant QM actions failed
                                                              subsequent to the anthrax mailings, the Offices of
because existing tracking systems did not
                                                              the Inspectors General of the Departments of
sufficiently assure successful implementation of
                                                              Agriculture, Defense, Energy, Health and Human
recommended QM actions. Facility managers
                                                              Services, and VA formed an interagency
need to ensure that recommended actions are fully
                                                              committee to ensure close coordination of audits,
implemented and evaluated. Clinical managers did
                                                              evaluations, and inspections. This interagency
not always consider QM results in their biennial
                                                              report summarizes issues identified in 26 reports
reprivileging decisions. While senior facility
                                                              published by the five committee-member agencies
managers voiced strong support for QM efforts,
                                                              and one report published by the Army Inspector
they stated that VISN and other national demands
                                                              General from February 2, 2001, through April 16,
reduced their ability to routinely visit patient care
                                                              2003. The VA OIG published one of these 27
areas. Only about half of the employees who
                                                              reports. Of the 27 reports, 26 addressed one or
responded to our survey said that senior managers
                                                              more of the following 9 systemic issues. The
had made rounds in their areas. Senior managers
                                                              issues concerned the need to strengthen physical
need to maintain a visible presence in patient care
                                                              security, personnel access controls, inventory
areas. Many facilities had not established
                                                              accountability, emergency disaster plans,
acceptable methods for analyzing mortality data.
                                                              registration with the Centers for Disease Control
                                                              and Prevention, import and export of agents,




                                                        36

                                                                         Office of Healthcare Inspections

training, management oversight, and policies and
procedures.

Senior officials at each agency have taken actions
to improve security controls over biological agents
in response to the published reports, but more
needs to be done. Agencies need to diligently
continue to address problem areas identified in this
report. (Interagency Summary Report on
Security Controls Over Biological Agents,
D-2003-126, 8/27/03)

Healthcare Inspections                                                 Washington VA Medical Center
                                                                             Washington, D.C
Issue: Substandard care and patient
   abuse.
Conclusion: The facility’s policy for                        preceding 12 months. The complainant informed
   reporting incidents of possible verbal                    us she reported the incident of a nurse’s verbal
   abuse needed strengthening.                               abuse of the patient on September 22, 2002. We
Impact: Improved patient safety.                             could find no record of the incident. The nurse
                                                             named in the allegation could not recall the
We initiated an inspection of allegations that a             incident. She denied the allegation and asserted
patient received substandard care, his personal              she provides good care to patients. We
belongings were stolen or misplaced, and he was              interviewed all the nursing staff on duty the day of
verbally abused. The purpose of the inspection               the alleged incident and none could recall the
was to determine the validity of the allegations.            events as described by the complainant. We found
Our interviews with the patient and the clinical             a social worker who received a call from the
staff, and our review of the patient’s medical               complainant on the day in question. He concluded
records, led us to conclude that the patient                 from the complainant’s description of the events
received good care.                                          that the patient was not subjected to verbal abuse.
                                                             Although we could not completely confirm or
The complainant told us that employees stole or              refute the incident, we found it should have been
misplaced some articles of the patient’s clothes,            reported by the social worker and investigated by
mostly T-shirts. We were unable to determine if              VAMC management. We concluded that incident
any clothing was missing; however, according to              reporting requirements needed strengthening and
the complainant and the nurse manager, no                    clinical managers needed to better communicate
personal belongings have been lost since the initial         with the complainant to address her concerns.
allegation. Family members are now being asked               We made two recommendations. The VISN
to write the name of the patient on all clothing, as         Director and VAMC Director agreed and provided
it was believed the items in question may have               acceptable implementation plans. (Healthcare
been lost in the wash.                                       Inspection, Patient Care Issues, VAMC
                                                             Washington, DC, 03-03412-165, 8/21/03)
We interviewed patients as well as nursing
employees, nurse managers, and physicians
regarding the complainant’s allegations of abuse.
We also reviewed incident reports for the




                                                       37

Office of Healthcare Inspections

Issue: Substandard care and quality
   management issues.
Conclusion: Clinicians did not comport
   with standards of care for three
   patients.
Impact: Improved quality of care and
   patient safety.

We reviewed allegations of substandard care and
other health-related issues. The purpose of the
inspection was to determine whether the
allegations, made primarily by a staff psychiatrist,
had merit. This review was an extension of an                        Hudson Valley Healthcare System
earlier OIG review titled “Patient Care Issues, VA                           Montrose, NY
Hudson Valley Health Care System, Franklin
Delano Roosevelt Campus, Montrose, NY,” report               committee to provide oversight and consultation to
number 02-02374-08, 10/18/02.                                clinicians involved in discharge planning.

In this most recent report, we discussed 13 cases            The psychiatrist, who was first quoted in the June
brought to our attention and found lapses in                 2002 newspaper article regarding falsification of
psychiatric care in 3 cases. Before our inspection,          medical records, told us he had no knowledge that
clinical managers had reviewed the issues and                anyone altered or inappropriately changed records.
circumstances of concern and recommended                     We did not substantiate the allegation that the peer
corrective actions pertaining to each case in which          review process was flawed. Similarly, we did not
care was deficient. Based on actions taken, we               substantiate allegations that there were no
made no further recommendations.                             systematic procedures to review the quality of
                                                             patient care, verify credentials, and privilege
We also reviewed allegations concerning                      physicians. We found that managers had held
statements made to the media and given wide                  numerous discussions with the psychiatrist and had
coverage in a June 9, 2002, newspaper article.               listened to his many concerns. (Healthcare
The article quoted a Franklin Delano Roosevelt               Inspection, Patient Care and Quality
Campus psychiatrist as saying that the                       Management Issues, Hudson Valley Healthcare
“...magnitude of neglect [of VA Hudson Valley                System, Montrose, New York, 02-02374-126,
Health Care System patients] is horrendous.” The             7/21/03)
psychiatrist told us that the newspaper reporter
took his comments out of context and that he did             Issue: Suspicious deaths.
not mean to imply that clinicians provided negligent         Conclusion: Policy for defining room
patient care.                                                   assignments is needed. Clinicians
                                                                need to conduct quality reviews, and
We reviewed allegations that clinicians released                analyze and trend all serious patient
patients without adequate discharge planning. We                incidents.
confirmed one such case in our October 2002                  Impact: Improved patient safety.
inspection. To prevent similar incidents from
occurring, clinicians revised their discharge                We initiated an inspection in response to
planning process. They also formed a permanent               allegations concerning a patient-on-patient assault,
                                                             patient neglect, broken nurse call lights, and




                                                       38

                                                                         Office of Healthcare Inspections

problems with implementing the bar code
medication administration system. We confirmed
that there was a patient-on-patient assault, but
there was no evidence to show that the assault
contributed to the patient’s death. The patient
suffered musculo-skeletal pain in his trunk and
right hip. A few weeks later, the patient
developed a respiratory infection. The patient’s
condition deteriorated rapidly and he died.
Physicians concluded, and the chart review
supported the conclusion, that the cause of death
was pneumonia secondary to the patient’s post-fall
sedentary lifestyle.                                                VA North Texas Health Care System
                                                                               Bonham, TX
We also found that the VA medical facility did not:
(i) have a written policy defining the criteria for          We made six recommendations. The VISN
making patient room assignments; (ii) forward                Director concurred with the recommendations and
incidents for review by the violent behavior                 provided acceptable implementation plans.
prevention program committee; or (iii) transfer              (Healthcare Inspection, Alleged Suspicious
patients to facilities better equipped to manage             Deaths, VA North Texas Health Care System,
aggressive behaviors. Managers had not                       Bonham, Texas, 02-02863-107, 6/4/03)
conducted a root-cause analysis of the assault,
which might have provided further information.               Issue: Sanitation, pest problems, and
Also, managers were not trending assaults and did               security.
not activate the alert function in the electronic            Conclusion: Pest control program and
medical record that identifies patients with                    general maintenance needed
histories of aggressive behaviors.                              strengthening, and patient information
                                                                and physical security needed
We did not confirm that a patient died because he               improvement.
did not receive respiratory treatments. We did not           Impact: Improved patient safety.
substantiate an allegation that a broken nurse call
light contributed to another patient’s death, but we         We conducted this inspection in response to
did find operational problems with broken nurse              allegations of rodent and insect infestations and
call lights and pillow speakers. We also concluded           unsanitary conditions. An anonymous complainant
that while there were problems during                        alleged that the VA Chicago Health Care System,
implementation of the facility’s bar code                    West Side Division, was filthy and was infested
medication administration system, we could find              with rodents, fruit flies, and garbage. He
no evidence of serious injuries or patient deaths            specifically cited the first floor bathrooms as being
associated with these problems. We further                   dirty, malodorous, and in need of repair. The
concluded that problems related to software                  complainant further alleged that managers allowed
incompatibility continue to occur and need to be             a veterans group called Veterans Strike Force One
addressed.                                                   to maintain a display table in the main lobby and
                                                             that members of this group disrupted the patient
                                                             care environment by playing loud music, eating,
                                                             and sleeping in the lobby.




                                                       39

Office of Healthcare Inspections

We concluded that rodent control was an ongoing
endeavor, but the facility was not infested with
rodents or insects. Managers established a pest
control program that appeared generally effective
and addressed concerns as they were identified.
Trash removal was generally adequate, but the
contractor needed to increase the frequency of
emptying building trash receptacles. We found
that first floor bathrooms required more frequent
cleaning and improved maintenance and some
patient care areas required additional cleaning, but
                                                                      San Francisco VA Medical Center
we concluded that unsanitary conditions were not
                                                                            San Francisco, CA
a pervasive problem throughout the facility. We
further found that confidential patient information
                                                             VISN level. The complainant, a patient with
security and medication security needed
                                                             acquired immune deficiency syndrome (AIDS),
improvement on two inpatient wards and that
                                                             alleged that in order for him to be eligible for
managers needed to increase efforts to strengthen
                                                             enrollment in investigational AIDS drug studies, he
security by prohibiting individuals who do not have
                                                             was required to take AIDS drugs that were known
business with VA from entering the facility. We
                                                             to be toxic. The complainant stated he initiated the
found that Veterans Strike Force One members
                                                             drug regimen and that it resulted in a severe side
were present in the lobby and other high traffic
                                                             effect. He alleged that he was not placed in the
areas; however, they did not disrupt patient care.
                                                             research protocol as promised.
We made five recommendations. The VISN
                                                             We did not substantiate the allegations that VAMC
Director agreed with the findings and
                                                             clinicians promised the complainant enrollment into
recommendations and provided acceptable
                                                             an investigational protocol, that they implicitly
implementation plans. (Healthcare Inspection,
                                                             coerced him into taking harmful drugs, or that they
Environment of Care Issues, VA Chicago
                                                             inappropriately denied him access to investigational
Health Care System, Chicago, Illinois, 02-
                                                             studies. We found that VAMC clinicians
03297-99, 5/23/03)
                                                             considered the complainant for two investigational
                                                             protocols but the complainant did not meet the
Issue: Inappropriate care and unethical
                                                             criteria for either study. We did not substantiate
   conduct.
                                                             the allegation of poor clinical care. We concurred
Conclusion: There was no evidence of
                                                             with the VISN reviewers that the drug regimen
   inappropriate care.
                                                             prescribed by the VAMC’s physicians was the
Impact: Substantiated appropriate
                                                             best one for his HIV disease at that point in time.
   treatment.
                                                             We found that, while clinician communications
                                                             could have been more sensitive to the complainant,
We conducted an oversight inspection of review
                                                             VAMC employees did not treat the complainant in
activities, primarily initiated and performed at the
                                                             an unethical manner. We concluded that the
direction of VISN 21. We conducted this
                                                             review, performed at the request of the VISN 21
inspection to determine if allegations concerning
                                                             Director, was thorough and detailed. It was
enrollment into a human immunodeficiency virus
                                                             independent, and was performed by a group
(HIV) investigational drug study, clinical care, and
                                                             external to VISN 21. It was consistent in all
alleged unethical conduct by clinicians at VAMC
                                                             regards with our own review. It defined and
San Francisco were successfully addressed at the




                                                       40

                                                                       Office of Healthcare Inspections

addressed the issues raised by the complainant.             Issue: Inappropriate medical care.
Therefore, we did not make any                              Conclusion: The patient received
recommendations. (Healthcare Inspection,                       appropriate medical care.
Patient Care Issues, VAMC San Francisco,                    Impact: Substantiated quality care and
California, 03-01986-180, 9/30/03)                             patient safety.

Issue: Substandard care and patient                         We received allegations of inappropriate medical
   abuse.                                                   care at the VA Southern Nevada Healthcare
Conclusion: There was no evidence of                        System, Las Vegas, Nevada. The purpose of this
   substandard medical care or patient                      inspection was to determine the validity of
   abuse.                                                   allegations that VA clinicians did not provide
Impact: Substantiated quality of care and                   appropriate medical care to the complainant’s
   patient safety.                                          husband and did not forward his medical
                                                            information when he was transferred to a private
We initiated an inspection of a complainant’s               hospital. We interviewed the complainant and
allegations that the Dental and Oral Surgery Clinic         clinicians involved in the patient’s care. We
provided substandard care and subjected patients            reviewed the medical records, relevant facility
to abuse. We did not substantiate the allegations.          policies, and VA’s previous response to the
The complainant’s description of events was not             complainant. We did not substantiate the
supported by the patients’ medical records and              allegations. Therefore, we made no
associated documents or by patients’ and                    recommendations. (Healthcare Inspection,
employees’ testimony. Clinicians were                       Quality of Care Issues, VA Southern Nevada
appropriately credentialed and privileged and               Healthcare System, Las Vegas, Nevada, 03-
followed established policies and procedures.               02153-166, 8/21/03)
Patients were properly monitored during conscious
sedation procedures, and we found evidence of
adequate staffing and monitoring during
procedures. The QM coordinator denied that
there were any issues regarding the quality of
anesthesia or dental care, and our inspection
confirmed this statement. The patients’ medical
records showed that physicians discussed specific
treatments and potential complications with
patients. Patients agreed to procedures and
provided consent forms. In the cases reviewed,
dental/oral surgery was clinically indicated and
improved the patients’ quality of life. We                       VA Southern Nevada Healthcare System
concluded there was no evidence of substandard                              Las Vegas, NV
patient care or abuse in the Clinic. Therefore, we
did not make any recommendations. (Healthcare
Inspection, Alleged Substandard Care and
Patient Abuse, VA North Texas Health Care
System, Dallas, Texas, 03-00607-147,
8/11/03)




                                                      41

Office of Healthcare Inspections

Issue: Sanitation and pest problems.
Conclusion: Pest control measures were
   generally effective.
Impact: Improved sanitation and
   environment of care.

We initiated an inspection in response to
allegations that the VAMC had recurring pest
problems. We substantiated the allegation that
pest control issues continually challenge VAMC
managers and concluded that certain actions could
strengthen their environmental management
program. We also substantiated that feral cats,
wild skunks, and other wild life on the Jefferson
Barracks Division grounds routinely required
management attention. Employees did not always
cover dumpsters that contained food waste and
garbage. We did not find evidence of bird feces
on the floors, walls, and eaves of the rear loading
docks as alleged; however, we found bird nests
and feces in the rafters of a patio outside one of
the buildings. In addition, we identified conditions
that were not included in the allegations but were
serious enough to require corrective actions.

We made eight recommendations to improve
environmental management program operations
and other concerns. The Acting VISN Director
provided comments and implementation plans that
met the intent of our recommendations.
(Environment of Care Issues, VAMC St. Louis,
Missouri, 02-02868-105, 6/4/03)

Healthcare Inspections Consultations

During the reporting period, OHI inspectors
provided consultation to the Office of
Investigations staff on 13 criminal investigation
cases. Nine of the cases required intensive
medical record reviews and interviews with
witnesses.




                                                       42

OFFICE OF MANAGEMENT AND
ADMINISTRATION

Mission Statement                                            the OIG’s primary information system for case
                                                             management and decision making. The Data
    Promote OIG organizational effectiveness                 Analysis Section, located in Austin, TX, provides
    and efficiency by providing reliable and                 data processing support, such as computer
    timely management and administrative                     matching and data extraction from VA databases.
    support, and providing products and services
    that promote the overall mission and goals of            IV. Financial and Administrative Support – The
    the OIG. Strive to ensure that all allegations           Division is responsible for OIG financial
    communicated to the OIG are effectively                  operations, including budget formulation and
    monitored and resolved in a timely, efficient,           execution, and all other OIG administrative
    and impartial manner.                                    support services.

The Office of Management and Administration is               V. Human Resources Management – The Division
responsible for a wide range of administrative and           provides the full range of personnel management
operational support functions. The Office includes           services, including classification, staffing,
five divisions.                                              employee relations, training, and incentive awards
                                                             program.
I. Hotline – The Division determines action to be
taken on allegations received by the OIG Hotline.            Resources
The Division receives thousands of contacts
annually from veterans, VA employees, and                    The Office of Management and Administration has
Congress. The work includes controlling and                  57 FTE allocated to the following areas.
referring many cases to the OIG Offices of
Investigation, Audit, and Healthcare Inspections, or
to impartial VA components for review.
                                                                                              Operational Support
                                                                                                     17%
II. Operational Support – The Division performs
follow up on implementation of OIG report                                                         Financial &
recommendations; Freedom of Information Act/                      IT &                           Administration
                                                              Data Analysis                          15%
Privacy Act (FOIA/PA) releases; strategic,                        40%
operational, and performance planning; and OIG
reporting requirements and policy development.                                                Human Resources
                                                                                                   13%

III. Information Technology (IT) and Data                                           Hotline
                                                                                     15%
Analysis – The Division manages nationwide IT
support, systems development and integration;
represents the OIG on numerous intra- and inter-
agency IT organizations; and does strategic IT
planning for all OIG requirements. The Division
maintains the Master Case Index (MCI) system,




                                                       43

Office of Management and Administration

I. HOTLINE DIVISION                                          Overall Performance
                                                             During the reporting period, the Hotline received
Mission Statement                                            7,194 contacts, which resulted in opening 570
                                                             cases. The OIG reviewed 190 (33 percent) of these
    Ensure that allegations of criminal activity,            and referred the remaining 380 cases to VA
    waste, abuse, and mismanagement are                      program offices for review.
    responded to in an efficient and effective
    manner.                                                  Output
                                                             • During the reporting period, Hotline staff
The Division operates a toll-free telephone service,         closed 650 cases, of which 219 (33 percent)
Monday through Friday, from 8:30 a.m. to 4 p.m.              contained substantiated allegations. We wrote 127
Eastern time. Employees, veterans, the general               letters responding to inquiries received from
public, Congress, U.S. General Accounting Office,            Members of the Senate and House of
and other Federal agencies report issues of                  Representatives.
criminal activity, waste, and abuse through calls,
letters, faxes, and e-mail messages. The Hotline             Outcome
Division carefully considers all complaints and              • VA managers imposed 75 administrative
allegations; OIG or other Departmental staff                 sanctions against employees and took 128
address mission-related issues.                              corrective actions to improve operations and
                                                             activities as the result of these reviews. The
                                                             monetary impact resulting from these cases totaled
Resources
                                                             almost $1.4 million.

The Hotline Division has eight FTE. The
following chart shows the estimated percentage of            Veterans Health
resources devoted to various program areas.                  Administration
                                                             Quality of Patient Care
          VHA
          53%                Information                     The responses to Hotline inquiries by VA
                             Technology                      management officials indicated that 48
                                 4%
                                                             allegations regarding deficiencies in the quality of
                                       NCA
                                                             patient care provided by individual facilities were
                                       1%                    found to have merit and required corrective
                                                             action. Examples of the issues follow.

                                Management                   • A VHA review revealed poor, abusive, and
          VBA
          24%
                                   18%                       neglectful care of a patient in a nursing care unit.
                                                             This was based on a complaint lodged by the
                                                             patient’s daughter, who reported staff had verbally
                                                             abused the patient, left him unattended while
                                                             incontinent for long periods of time, positioned his
                                                             food tray out of his reach, and failed to help him
                                                             back into bed in a timely manner. During his stay,
                                                             the patient developed a contact ulcer (bedsore) and




                                                       44

                                                               Office of Management and Administration

lost over 30 pounds. The review of the patient’s              download sexual photos from the internet. The
records acknowledged the contact ulcer and                    employee was issued a 30-day suspension and
indicated the facility’s skin care program is being           signed a settlement agreement that could result in
reevaluated to prevent future occurrences.                    removal if the employee does not abide by the
Management established a policy requiring all                 conditions of the agreement over the next year.
patients to be weighed on admission, discharge,
and monthly during their stay. Furthermore,                   • A VHA review substantiated the allegation that
management implemented a range of procedural                  a supervisor used his Government e-mail account
changes to improve patient care, staff courtesy and           to forward pornographic materials to his
communications, and staff supervision.                        subordinates. Management suspended the
                                                              supervisor for 5 days.
• A VHA review determined that a program
assistant should not be responsible for making                • A VHA review determined that an employee
clinical decisions as to which patients to                    engaged in an amorous relationship with a patient,
reschedule. Management regrets that the employee              in violation of VAMC ethics standards. The
was placed in this untenable position. The process            review also determined that the employee engaged
has been completely revamped and clinicians will              in an improper financial transaction with the
make these decisions in the future.                           patient.

• A VHA review found that the VAMC failed to                  Time and Attendance
coordinate a veteran’s care after his primary care
physician retired and he was not informed of any              The responses to Hotline inquiries by
future clinic visits. As a result, several                    management officials indicate that 11 allegations
appointments have been scheduled for the veteran.             of time and attendance abuse at individual VA
                                                              facilities were found to have merit and required
Employee Misconduct                                           corrective action. An example follows.

The responses to Hotline inquiries by                         • A VHA review found that compensatory time
management officials indicated that 15                        was annotated on time sheets, but was not posted
allegations of employee misconduct at individual              on time cards. As a result, two employees will be
VA facilities were found to have merit and                    counseled regarding ensuring that compensatory
required corrective action. Examples of the issues            time previously approved is officially requested,
follow.                                                       posted, and treated in the same manner as annual
                                                              and sick leave.
• A VHA review substantiated the allegation that
a VAMC supervisor had an affair with one of his               Fiscal Controls
employees and engaged in sexual acts during duty
hours at the facility. A letter of removal was issued         The responses to Hotline inquiries by
to the supervisor; however, based on the                      management officials indicate that nine
supervisor’s 16 years of service, management                  allegations of deficient or improper fiscal controls
decided a 10-day suspension would be appropriate.             at individual VA facilities were found to have
The other employee involved received a letter of              merit and required corrective action. Examples of
counseling.                                                   the issues follow.

• A VHA review substantiated the allegation that              • A VHA review determined that a private
an employee misused Government equipment to                   medical facility billed a civilian health and medical




                                                        45

Office of Management and Administration

program of a VA subscriber for services she had              resistant organisms, and various isolation
not received. The facility corrected its records and         precaution procedures. The elimination of paper
refunded $825 to the subscriber.                             charts and changes in isolation equipment took
                                                             away the visual cues that were relied upon in the
• A VHA review confirmed that a patient filed                past to communicate this information. An
for bankruptcy and was approved to have his debts            interdisciplinary analysis team was launched to
discharged. However, the VAMC failed to update               design methodologies for intra-facility
his records, thus causing his account to be offset           communication of patient-specific infection control
for $103. The patient’s records were updated and             information.
all debts cancelled. Additionally, he was refunded
the total offset.                                            • A VHA review confirmed that a veteran
                                                             received overlapping controlled substance
Patient Safety                                               prescriptions from two different VAMCs. The
                                                             veteran’s pharmacy profile has been flagged, and
The responses to Hotline inquiries by                        his clinical providers have addressed this issue in
management officials indicate that nine                      the patient’s medical treatment plan.
allegations of patient safety deficiencies at
individual VA facilities were found to have merit            Government Equipment and Supplies
and required corrective action. Examples of the
issues follow.                                               The responses to Hotline inquiries by
                                                             management officials indicate that seven
• A VHA review substantiated the allegation that             allegations involving misuse of Government
a VAMC failed to follow VA policy and code                   equipment and supplies at individual VA facilities
requirements in biological testing for a 7-month             were found to have merit and required corrective
period and failed to have a certified water                  action. Examples of the issues follow.
distribution operator on site. Management has
taken corrective action to reestablish the contract          • A VHA review confirmed that a supervisor
to provide monthly testing. Appropriate                      sent inappropriate and offensive e-mails on the VA
disciplinary action will be taken against the                computer system to her staff. The employee
managers responsible for the program element. An             received a written counseling and apologized for
application was submitted to the state for                   her poor judgment.
certification as a water distribution operator.
                                                             • A VHA review determined that a supervisor
• A VHA review found that oxygen tanks were                  made various unauthorized and lengthy calls on his
being delivered to a veteran half full. The tanks            telephone extension. Telephone records showed
were being bumped in transit, causing the gas to             113 calls originated from his extension during
slowly leak from the tanks. As a result, the                 various times of the day, with one call lasting 114
company responsible for the delivery of the tanks            minutes. The supervisor was given a verbal
will perform periodic checks to ensure the tanks             counseling.
are properly filled. A log of serial numbers will be
maintained and monitored to detect any pattern of            • A VHA review revealed that a union
problems with individual tanks.                              representative/nurse misused her Government-
                                                             issued credit card to purchase an airline ticket and
• A VHA review determined an ongoing concern                 other personal items. As a result, her credit card
with missed communication, lack of specific                  was cancelled and appropriate personnel actions
infection control information about patients with            will be taken.




                                                       46

                                                                Office of Management and Administration

Contracting Activity                                           medications from the automated medication cabinet
                                                               by not matching the medications prescribed against
The responses to Hotline inquiries by                          the profile of the respective patient. The nurse
management officials indicate that three                       manager reviewed the process for identification for
allegations involving contracting improprieties or             dispensing of medication from the automated
problems with contracted services at individual                medication cabinet with the nurse. Action plans
VA facilities were found to have merit and                     were developed to appropriately address these
required corrective action. An example follows.                issues. Additionally, the processes and policies on
                                                               how to correctly identify a patient and how to
• VHA reviewed a complaint that veterans were                  correctly dispense medication using the automated
removed from a contracted community residential                medication cabinet will be reviewed with the
care facility. It was determined that patients were            physician and nursing staff every 6 months.
appropriately removed because of various safety
violations. Management had temporarily relocated               Privacy Issues/Health Insurance
the veterans to the VAMC domiciliary, pending                  Portability and Accountability Act (HIPAA)
appropriate community placement.
                                                               The responses to Hotline inquiries by
Identity Issues                                                management officials indicate that 10 allegations
                                                               involving violations of privacy and the new HIPAA
The responses to Hotline inquiries by                          by employees at individual VA facilities were
management officials indicate that nine                        found to have merit and required corrective
allegations involving identity issues at individual            action. Examples of the issues follow.
VA facilities were found to have merit and
required corrective action. Examples of the issues             • A VAMC review found lapses in compliance
follow.                                                        with provisions of the Privacy Act and HIPAA by
                                                               VAMC staff. A veteran had reported that while he
• A VHA review determined that a veteran’s                     was being discharged, the staff had simply cut off
brother used the veteran’s identity and VA                     his patient identification bracelet, which contained
information to qualify for health benefits and                 sensitive personal and medical information, and
subsequently received medical care totaling                    discarded it intact into a nearby trash can. The
$2,286. The VAMC’s health benefits section has                 director issued guidance on the proper handling of
been reminded of the importance of verifying the               these bracelets.
identity of new veterans, when possible, or if there
are any underlying suspicions as to his/her                    • A VHA review found that a supervisor
eligibility status. The VAMC health administration             discussed an employee’s personal medical
service has been actively reviewing this issue, and            information with other co-workers. As a result, the
the VACO staff will provide guidance.                          supervisor was counseled regarding the privacy of
                                                               employee information.
• Α VHA review concluded that a physician
failed to correctly identify a patient under his care;         • A VAMC review found that VA employees left
thereby prescribing medication that, in fact, was              detailed messages, including private medical
for another of his patients. The patient recognized            information, with a patient’s coworkers because of
the medication error while still in the ambulatory             extreme difficulties in communicating with a
care area and brought it to the attention of the               veteran being monitored weekly for anticoagulant
administrative officer on duty. Also, a nurse failed           levels in his blood. Clinic management counseled
to follow the established process for dispensing of            the employees about releasing private patient




                                                         47

Office of Management and Administration

information and worked with the veteran to devise             benefits were found to have merit and required
alternate means of reliable communications.                   corrective action. Examples of the issues follow.

• A VHA review found instances where sensitive                • A VBA review substantiated the allegation that
information was not safeguarded. As a result, it              a veteran was fraudulently receiving 100 percent
was recommended that the information security                 service-connected benefits. The rating was reduced
officer provide training to the dental service staff.         to zero percent. The VARO will also investigate
It was also recommended that the facility conduct             whether the veteran was receiving a union pension
random computer checks in selected areas to                   and SSA benefits during this same timeframe,
ensure that the practice of safeguarding sensitive            which may affect the effective dates of the
information is reinforced.                                    discontinuation of his VA benefits. The savings to
                                                              VA is $550,000.
Facilities and Services
                                                              • A VBA review resulted in the proposed
The responses to Hotline inquiries by VA                      reduction of a veteran’s benefits from 100 percent
management officials indicated that 25                        to 60 percent service-connected, to include the loss
allegations regarding deficiencies with facilities            of individual unemployability, as a result of the
or the services provided by individual VA facilities          veteran’s employment. Projected savings to the
were found to have merit and required corrective              Government is $372,456.
action. Examples of the issues follow.
                                                              • A VBA review determined that a veteran
• A VHA review substantiated inconsistencies in               receiving an income-based pension failed to report
the nursing documentation of a veteran’s death.               earnings from a home-based business. The VARO
The employee responsible was counseled. The                   reduced the veteran’s benefits to the amount
need for adequate documentation of all changes in             awarded him for service-connected disabilities,
patient status was reinforced by management at                resulting in a savings to VA of $91,224 based on
nursing staff meetings.                                       the veteran’s life expectancy.

• A VHA review substantiated the allegation that              • A VBA income verification match determined
a veteran’s wheelchair ramp was not installed in              that a veteran in receipt of non-service connected
accordance with VA specifications. The facility               pension benefits failed to report additional income,
engineering service will oversee the removal of the           resulting in an overpayment of benefits of $42,459.
deficient ramp and construction of a new ramp that            The veteran’s pension benefit was terminated as of
conforms to specifications. The total cost will be            February 1999 and recoupment action has been
$3,250.                                                       initiated against his account.

                                                              • A VBA review determined that a veteran in
Veterans Benefits                                             receipt of disability compensation benefits failed to
Administration                                                notify the VARO of his numerous incarcerations.
                                                              As a result, his disability C&P benefits were
Receipt of VA Benefits                                        adjusted to reflect an overpayment of $22,362.

The responses to Hotline inquiries by                         • A VBA review confirmed that a veteran, while
management officials indicate that 21 allegations             incarcerated, continued to receive VA benefits
involving improprieties in the receipt of VA                  checks that were mailed to his mother’s address.
                                                              This created an overpayment of $11,000.




                                                        48

                                                              Office of Management and Administration

Facilities and Services                                          Freedom of Information Act / Privacy Act
                                                                 requests; conducting policy review and
The responses to Hotline inquiries by VA                         development; producing strategic,
management officials indicated that 15                           operational, and performance plans; and
allegations regarding deficiencies with facilities               overseeing Inspector General reporting
or the services provided by individual VA facilities             requirements.
were found to have merit and required corrective
action. Examples of the issues follow.
                                                             Resources
• A VBA review confirmed that an unidentified
caller to the VARO changed a veteran’s mailing               This Division has eight FTE assigned with the
address. Her compensation checks were forwarded              following allocation.
to an incorrect address given by the caller. A
further review found that none of the missing
checks were negotiated, and one was returned to
the Department of Treasury. The veteran has since                                 Leg. Reviews
set up a direct deposit account and received a lump                                    8%
sum payment to compensate for the missing                               Policy
                                                                        11%                       Planning &
checks. Furthermore, the VARO will make sure                                                       Reports
employees carefully verify the claimant’s VA file                                                    13%
number, Social Security number, service number,
and dates of service before making an address
change based on a telephone call.
                                                                                                 Follow Up
                                                                  FOIA/PA                          22%
• A VBA review found that delays in receiving                      46%
all required information resulted in a significant
delay in processing a veteran’s educational benefits
claim. Furthermore, as the veteran attempted to
resolve the issue, a VARO employee hung up on
him without providing the needed assistance.                 Overall Performance
Management discussed customer service
expectations with every case manager and
apologized to the veteran for the problems he had            Follow Up on OIG Reports
encountered.
                                                             Operational Support is responsible for obtaining
                                                             implementation actions on previously issued audits,
II. OPERATIONAL                                              inspections, and reviews with over $903 million of
SUPPORT DIVISION                                             actual or potential monetary benefits as of
                                                             September 30, 2003.

                                                             The Division maintains the centralized follow up
Mission Statement
                                                             system that provides oversight, monitoring, and
                                                             tracking of all OIG recommendations through both
    Promote OIG organizational effectiveness
                                                             resolution and implementation. Resolution and
    and efficiency by providing reliable and
                                                             implementation actions are monitored to ensure
    timely follow up reporting and tracking on
                                                             that disagreements between OIG and VA
    OIG recommendations; responding to
                                                             management are resolved promptly and that VA



                                                       49

Office of Management and Administration

management officials implement corrective actions.           Electronic Report Distribution
VA’s Deputy Secretary, as the Department’s audit
resolution official, resolves any disagreements              The President’s electronic Government initiatives,
about recommendations.                                       as described at http://www.whitehouse.gov/omb/
                                                             egov/, aim to put Government at citizens’ and
After obtaining information that showed                      employees’ fingertips, making it more responsive
management officials had fully implemented                   and cost-effective. In keeping with this effort,
corrective actions, Operational Support closed 78            electronic report distribution is an initiative to
reports and 502 recommendations with a monetary              distribute OIG reports through a link to the OIG
benefit of $241 million during this period. As of            Web page. Individuals on the distribution list will
September 30, 2003, VA had 71 open OIG reports               receive a short e-mail describing the report, with a
with 255 unimplemented recommendations.                      link directly to the report.

Freedom of Information Act, Privacy Act,                     We believe this distribution method provides many
and Other Disclosure Activities                              advantages. It is fast and efficient, avoiding the
                                                             cost and delays involved in producing large
Operational Support processes all OIG FOIA and               numbers of paper copies and the time problems of
PA requests from Congress, veterans, veterans                security screening of mail deliveries. It will greatly
service organizations, VA employees, news media,             reduce the need to print paper copies. This
law firms, contractors, complainants, the general            approach also places OIG reports on our Web page
public, and subjects of investigations. In addition,         as soon as they are issued.
we process official requests for information and
documents from other Federal Departments and                 During the reporting period, we established a staff
agencies, such as the Office of Special Counsel              and operating procedures, refined our distribution
and the Department of Justice. These requests                lists, and sent a message announcing and testing
require the review and possible redacting of OIG             the system. We will begin using this method to
hotline, healthcare inspection, criminal and                 distribute our CAP review reports in October
administrative investigation, contract audit, and            2003. We will expand it to include other OIG
internal audit reports and files. Operational                reports and information in the following months.
Support also processes OIG reports and documents
to assist VA management in establishing evidence             Review and Impact of Legislation and
files used to support administrative or disciplinary         Regulations
actions against VA employees.
                                                             Operational Support coordinated concurrences on
During this reporting period, we processed 178               53 legislative, 50 regulatory, and 107
requests under the FOIA and PA and released 210              administrative proposals from the Congress, Office
audit, investigative, and other OIG reports.                 of Management and Budget, and VA. The OIG
Information was totally denied in 22 requests and            commented and made recommendations concerning
partially withheld in 96 requests, because release           the impact of the legislation and regulations on
would constitute an unwarranted invasion of                  economy and efficiency in the administration of
personal privacy, interfere with enforcement                 programs and operations or the prevention and
proceedings, disclose the identity of confidential           detection of fraud and abuse.
sources, disclose internal Departmental matters, or
was specifically exempt from disclosure by statute.
During this period, all FOIA cases received a
written response within 20 workdays, as required.
There are no requests pending over 6 months.



                                                       50

                                                               Office of Management and Administration

III. INFORMATION                                              Resources
TECHNOLOGY AND DATA                                           The Division has 22 FTE allocated in Washington,
ANALYSIS DIVISION                                             Austin, and Chicago. These FTE are devoted to
                                                              the following areas.

Mission Statement
                                                                       Webmaster/
    Promote OIG organizational effectiveness                            Security         CIO       Statistician
    and efficiency by ensuring the accessibility,                         5%             5%            5%
    usability, and security of OIG information
    assets; developing, maintaining, and
                                                                                                 Sup. Comp.
    enhancing the enterprise database                           Mainfram e
                                                                                                   Spec.
    application; facilitating reliable, secure,                 Computer
                                                                                                    10%
    responsive, and cost-effective access to this                 Spec.
    database, VA databases, and electronic mail                   56%
                                                                                                Programmers
    by all authorized OIG employees; providing                                                      14%
    Internet document management and control;                                       PC Comp.
                                                                                      Spec.
    and providing statistical consultation and
                                                                                       5%
    support to all OIG components. Provide
    automated data processing technical support
    to all elements of the OIG and other Federal
    Government agencies needing information                   Overall Performance
    from VA files.
                                                              Master Case Index (MCI)
The Information Technology and Data Analysis
Division provides IT and statistical support                  During this reporting period, we made major
services to all components of the OIG. It has                 enhancements to the fugitive felon system, giving
responsibility for the continued development and              VBA and VHA the ability to respond back to the
operation of the management information system                OIG electronically on action taken regarding the
known as the Master Case Index (MCI), as well as              veterans. Since the fugitive felon system has been
the OIG’s Internet resources. The Division                    implemented, we have loaded data collected from
interfaces with VA IT units nationwide to establish           the U.S. Marshals Service, FBI, California, and
and support local and wide area networks,                     New York resulting in 7,668 warrants, 6,999 exact
guarantee uninterrupted access to electronic mail,            matches, and 669 partial matches.
service personal computers, detect and defeat
computer threats, and provide support in protecting           We successfully upgraded the MCI application to a
all electronic communications. The OIG’s Chief                new version. Work continues on the migrated
Information Officer and staff represent the OIG on            portion of MCI from the current client-server
numerous intra- and inter-agency IT organizations             environment to a “web-enabled” Oracle 9i
and are responsible for strategic IT planning for all         production database.
OIG requirements. The Data Analysis Section in
Austin, TX provides data gathering and analysis               Internet and Electronic FOIA
support to employees of the OIG, as well as VA
and other Federal agencies, requesting information            The Division is responsible for processing and
contained in VA automated systems. Finally, a                 controlling electronic publication of OIG reports,
member of the staff serves as the OIG statistician.


                                                        51

Office of Management and Administration

including maintaining the OIG websites and                   incident response capability support and customer
posting OIG reports on the Internet. Data files on           response.
the OIG website were accessed over 944,000 times
by more than 137,000 visitors. The most popular              Statistical Support
reports were downloaded over 95,000 times,
providing both timely access to OIG customers and            The OIG statistician is part of the technical
cost avoidance in the reduced number of reports              support team under the direction of the OIG’s
printed and mailed. OIG vacancy announcements                Chief Information Officer and provides assistance
accounted for an additional 5,400 downloads.                 in planning, designing, and sampling for relevant
                                                             OIG projects. In addition, the statistician provides
We posted the frequently requested audit report              support in the implementation of appropriate
“Audit of VHA’s Part-Time Physicians Time and                methods to ensure that data collection, preparation,
Attendance,” the May 8th and July 9th                        analysis, and reporting are accurate and valid.
Congressional testimonies by the Inspector
General, and the unclassified executive summary              For the reporting period, the OIG statistician
of the “Interagency Summary Report on Security               provided statistical consultation and support on six
Controls Over Biological Agents” in our electronic           research design and/or sampling plans for proposed
reading room in compliance with the Electronic               audit projects and OHI proactive program
FOIA. We posted 27 other CAP and audit reports,              evaluations, statistical support for all CAP
Office of Investigations press releases, and other           reviews, and data concerning purchase card use at
OIG publications on the OIG website.                         each facility.

Information Management, Security, and                        IT Training Initiative
Coordination
                                                             We contracted with four vendors to provide
We provided hands-on training on the OIG’s data              instructor-led training in a variety of Microsoft
encryption software to numerous OIG staff,                   applications in the classroom in our Washington,
including OIG investigators, auditors, and hotline           DC, headquarters office and one vendor with
analysts. We remediated virus and other                      training facilities in each city in which the OIG is
information security incidents that affected OIG IT          located to provide local training for our field
resources.                                                   employees.

We participated in the development of                        DATA ANALYSIS SECTION
Departmental policy and programs to improve VA
information security, access, and resource                   The Data Analysis Section (DAS) develops
utilization. We reviewed and provided comments               proactive computer profiles that search VA
on VA draft policy and proposals. Our comments               computer data for patterns of inconsistent or
addressed such issues as the possible duplication of         irregular records with a high potential for fraud
staff in the proposed reorganization of the VA               and refers these leads to OIG auditors and
Office of Cyber Security, VA’s cyber security                investigators for further review. The DAS
professional certification program, VA’s                     provides technical assessments and support to all
information security awareness course, the Office            elements of the OIG and other governmental
of Cyber Security’s Review and Inspections                   agencies needing information from VA computer
Division reorganization, VBA’s security policies on          files. Significant efforts include the following.
OIG access, VA’s authentication and authorization
infrastructure smart card project, and VA’s central




                                                       52

                                                              Office of Management and Administration

Education Fraud Referral                                     The DAS staff played an active role in four OIG
                                                             data mining committee meetings and provided data
VA educational benefits involve a number of                  from 12 statistical matches to assess the potential
programs designed to provide veterans,                       for a formal matching plan. After consolidating
servicepersons, and in some instances, dependents,           related ideas, examining feasibility, and
with educational, training, and employment                   determining potential monetary impact, we
opportunities. DAS staff extracted data and                  identified 27 ideas to pursue from an original list
conducted an analysis of payments. The staff                 of 75.
analysis identified a series of suspect payments to
several individuals, but which were all mailed to            VBA Establishment and Authorization
addresses belonging to a U.S. Navy recruiting                Permission
office. The subsequent criminal investigation led
to fraud charges against seven U.S. Navy                     Two DAS employees identified a potential
personnel that totaled almost $400,000.                      weakness in the C&P benefits system after
                                                             attending the Benefits Delivery Network security
Fugitive Felon Matches                                       administrator training in San Diego. Upon their
                                                             return, they conducted an extensive analysis of the
We continued to conduct matching of VA records to            permissions granted to VBA employees. Working
state and Federal files. The DAS staff matched               with VBA network and system access data, they
records containing an additional 30,249 felony               verified that 203 individuals were granted
warrants from the New York State Police database             permission to establish a claim under one system
against more than 10.5 million records contained in          and permission to authorize that same claim in the
VA benefit system files. We identified over 500              other system. After referring the situation to the
additional fugitive felons receiving some type of            Office of Audit, a response from the Under
benefit from VA. We improved the quality of the              Secretary for Benefits confirmed the problem and
address information furnished from these matches             stated that VBA took action to correct the
by using specific payment codes and only                     vulnerability.
payments made during the most recent 6 months.
This selection criterion also reduced the number of          Health Care Program Analysis and Review
VA benefit system records used in the match by
almost 5.5 million.                                          During this reporting period, DAS staff adapted a
                                                             hospital staffing model used by the U.S. Army to
Data Mining to Detect Potential Fraud in                     VA workload and staffing data, initially for one VA
VA Computer Systems                                          health care facility and later to the universal VA
                                                             health care network. DAS also assisted Healthcare
The DAS took a proactive approach to finding and             Inspections staff by extracting data in support of a
referring fraud by developing computer profiles              surgical mortality study to examine the correlation
that highlight anomalies from the typical VA work            between surgical outcomes and surgical workload.
processes. An updated run of the VA C&P benefit              We also provided information to support a study on
death match program resulted in an additional                treatment and outcomes of patients presenting for
3,865 referrals to the Office of Investigations. The         treatment with dysphagia (swallowing and feeding
match also produced two additional referrals                 problems) and dementia diagnoses. In addition, we
involving VA DIC payments. These cases included              identified by station the bills incorrectly sent to
conflicting or missing data with respect to payee            pensioner veterans for pharmacy co-payments and
Social Security numbers.                                     other treatment charges. In support of that review,
                                                             we also identified actions taken by the VA Debt




                                                       53

Office of Management and Administration

Management Center to trigger refund offsets so
that they could reverse them and suspend any
                                                            IV. FINANCIAL AND
collection.                                                 ADMINISTRATIVE
Combined Assessment Program Reviews                         SUPPORT DIVISION
The DAS provided technical support and data to
all CAP reviews. We performed over 240 data                 Mission Statement
extracts and associated reports in support of these
reviews.                                                        Promote OIG organizational effectiveness
                                                                and efficiency by providing reliable and
Preaward and Postaward Contract                                 timely financial and administrative support
Reviews                                                         services.

The DAS provided technical support and data for             The Division provides support services for the
three preaward and postaward contract reviews to            entire OIG. Services include budget formulation,
identify better prices to VA and disclose                   presentation, and execution; travel processing;
overcharges by private sector contractors.                  procurement; space and facilities management; and
                                                            general administrative support.
Assistance to Other Agencies
                                                            Resources
The DAS provided assistance to three Federal
agencies seeking information contained in VA                Eight staff currently spend time across three
computer files. We received requests for assistance         functional areas in the following proportions.
from the Department of Health and Human
Services, the Department of Education, and the
Department of Justice. One of the requests
pertained to payments made to a hospital network                                                   Budget
indicted by a U.S. Attorney for inflated billing.                                                   13%

                                                                  Adm in.
Other Workload                                                   Operations
                                                                   75%                              Travel
                                                                                                     12%
During the reporting period, the DAS completed
133 ad hoc requests for data that came from all
OIG operational elements. We spent considerable
effort working in support of an investigation of VA
property management. The data request required
locating, copying, and forwarding over 1,300                Overall Performance
documents that showed the amounts of VA
payments. In addition, we provided all                      Budget
Government purchase card activity for 102
individual employee cardholders.                            The staff assisted in the preparation of the FY
                                                            2005 budget submission and materials for
                                                            associated hearings with VA and the Office of
                                                            Management and Budget. The staff also assisted




                                                      54

                                                            Office of Management and Administration

in the conversion of the FY 2003 annual                     Resources
appropriation to a multi-year appropriation.
                                                            Seven FTE and one Student Career Experience
Travel                                                      Program trainee, committed to human resources
                                                            management and support, currently expend time
By the nature of our work, OIG personnel travel             across the following functional areas.
almost continuously. As a result, we processed
1,799 travel and 40 permanent change of station
vouchers.
                                                                                          Special Projects &
Administrative Operations                                                                 Advisory Service
                                                                                                15%

The administrative staff works closely with VA                 Staff ing &                  Employee Relations
Central Office administrative offices and building           Classif ication                    & Benef its
management to coordinate various administrative                  65%                               10%
functions, office renovation plans, telephone
                                                                                          Perf ormance
installations, and furniture and equipment                                                 & Aw ards
procurement. In addition, we processed 134                                                     10%
procurement actions and reviewed and approved
monthly the 35 statements received from the OIG’s
cardholders under the Government’s purchase card
program.                                                    Overall Performance
V. HUMAN RESOURCES                                          Human Resources Management
MANAGEMENT DIVISION                                         During this period, 48 new employees joined the
                                                            OIG workforce and 18 employees departed. The
                                                            staff processed over 160 recruitment, placement,
Mission Statement                                           and pay actions, 375 performance ratings, and 205
                                                            awards. We also provided support to accomplish
    Promote OIG organizational effectiveness                the Federal Activities Inventory Reform Act
    and efficiency by providing reliable and                reporting requirements.
    timely human resources management and
    related support services.                               The Eleventh Annual OIG awards ceremony took
                                                            place in June 2003. The Inspector General
The Division provides human resources                       presented awards for distinguished achievement,
management services for the entire OIG. These               exceptional teamwork, outstanding initiative, and
services include internal and external staffing,            sustained superior achievement. Each Assistant
classification, pay administration, employee                Inspector General presented awards for the
relations, benefits, performance and awards, and            employee of the year and team accomplishment of
management advisory assistance. It also serves as           the year. A total of 73 employees were recognized
liaison to the VA Central Offices of Human                  and an additional 22 employees were granted
Resources and Payroll, as those offices process our         quality step increases.
actions into the VA integrated payroll and
personnel system.




                                                      55

Office of Management and Administration

We held an OIG New Employee Orientation                      motivated college students into the workforce on a
Program in September 2003. Over 90 employees                 part-time, trial basis prior to permanent placement
attended the 2-day program and learned about OIG             upon graduation. These positions are located in
organizational values, history, strategic goals, and         our field offices and at the Headquarters in a
organizational structure from the senior executive           variety of occupational disciplines. We recruited at
staff. The Secretary of the Department of Veterans           62 colleges and universities throughout the country,
Affairs spoke of VA’s accomplishments the last               including many Historically Black Colleges and
three years and the special role an independent              Universities and Hispanic Association of Colleges
OIG fulfills for the Department. Also, a former              and Universities. The first group of co-op students
prisoner of war in Viet Nam delivered an                     is expected to be on-board in early November. We
inspirational speech on the value of public service          also had several interns participating in the Cyber
to the preservation of freedom in America.                   Security Scholarship Program.

                                                              Another component of our succession plan, the
                                                             OIG Federal Career Intern Program, was
                                                             established in September 2003. This program will
                                                             aid us in recruiting on college campuses for full-
                                                             time, entry-level positions in our major career
                                                             fields. We also developed and implemented a new
                                                             OIG Executive Development Program designed to
                                                             create a pool of qualified candidates for Senior
                                                             Executive Service positions.




VA Secretary Anthony J. Principi (L) is introduced
as the keynote speaker for the OIG New
Employee Orientation Program by VA Inspector
General Richard J. Griffin.

The Inspector General established 25 co-operative
education positions under the new OIG Student
Career Experience Program. This program is one
of several components of our OIG succession plan
and is designed to bring well-educated and highly




                                                       56

OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity and                         American Institute of Certified Public
Efficiency                                                   Accountants

• The OIG Financial Audits Division staff                    • The Assistant Inspector General for Auditing
participated in the audit executive committee                made a presentation to the American Institute of
workgroup on financial statements. The                       Certified Public Accountants National
workgroup facilitates communication of financial             Governmental Accounting and Auditing Update
statement audit issues throughout the Federal                Conference in Washington, DC. The topic was
community.                                                   “What is the Role of the Office of Inspector
                                                             General in Facilitating Audit Outsourcing?” The
                                                             Director, Financial Audits Division made the
OIG Management Presentations                                 similar presentation at their update conference in
                                                             Phoenix, AZ.
U.S. House of Representatives Lecture
Series for House Page Interns                                Association of Government Accountants

• The Inspector General made a presentation on               • The Director, Financial Audits Division made
the floor of the U.S. House of Representatives to            a presentation to the Association of Government
75 House page interns as part of their lecture               Accountants Northern Virginia chapter on “What
series.                                                      to Expect from a CFO Act Audit.” The
                                                             presentation was on “Hire an Independent Public
Inspector General Auditor Training                           Accountant or Perform the Audit In-House.”
Institute
                                                             VA INFOSEC 2003 Security Conference
• The Inspector General spoke at the banquet                 and VA Information Technology
and graduation for the introductory auditor training         Conference
class. The students appreciated the remarks on the
benefits of having auditors, investigators, and              • The Directors from the Central Office and IT
inspectors working together within the VA OIG.               Audit Divisions made presentations on the OIG
                                                             security audit findings at the national VA
VBA Directors Conference                                     information security conference in San Francisco,
                                                             and national VA IT conference in Austin. The
• The Inspector General made a presentation on               presentations included a demonstration on how
internal controls and employee integrity.                    scanning tools are used to complete network
                                                             vulnerability assessments. Over 700 VA staff
11th Annual Leadership VA Alumni                             attended the security conference and over 2,000
Association Forum                                            attended the IT conference.

• The Inspector General participated in a panel
discussion with other senior VA officials at this
forum, responding to questions from the VA
executives and managers attending.




                                                       57

Other Significant OIG Activities

8th Annual Medicaid Drug Rebate Program                        interagency committee comprised of the Offices of
Workshop                                                       the Inspectors General of the Departments of
                                                               Agriculture, Defense, Energy, and Health and
• Representatives from the OIG’s Contract                      Human Services to summarize audits, evaluations,
Review and Evaluation Division, VA’s Office of                 and inspections on security controls over biological
General Counsel, and the National Acquisition                  agents in the Federal Government. The task force
Center’s FSS Service conducted a half-day                      issued a report that provided a summary of work
workshop for pharmaceutical industry                           on the status of security controls over biological
representatives. The workshop covered the FSS                  agents and efforts to protect the general public
program, Public Law 102-585 section 603 issues,                from potential weapons of mass destruction.
and preaward reviews.
                                                               Awards and Special Thanks
Office of Acquisition and Materiel
Management’s Acquisition Forums                                Military Order of the Purple Heart -
                                                               Extraordinary Honors
• The IG Counselor and OIG representatives
from the Contract Review and Evaluation Division               • Resident Agent in Charge Danilo Whittaker,
made two presentations to VA contracting                       West Palm Beach, and Resident Agent in Charge
personnel. The presentations covered various                   Mike Keen, Nashville, were awarded the
aspects of contracting with affiliates for health care         Commander’s Law Enforcement Bronze Medal by
resources.                                                     the Military Order of the Purple Heart. The two

VHA Quality Management
                                                                           The St. Petersburg Times
                                                                              St. Petersburg, FL
• The Director, Los Angeles Healthcare                                       Monday, May 5, 2003
Inspections Division made a presentation on
inspection results pertaining to patient quality and
services and on the CAP process to the quality
management integration council and all quality
managers in the field during their August 2003
national VHA broadcast.

VISN 20 Annual Readiness Consultant
Training

• The Directors from the Los Angeles Healthcare
Inspections Division and the Audit Operations
Division made a joint presentation on CAP findings
and quality management during the VISN training
session.

Interagency Task Force

• The Deputy Assistant Inspector General for
Healthcare Inspections and the Director, Bedford
Healthcare Inspections Division, participated on an




                                                         58

                                                                           Other Significant OIG Activities

VA OIG special agents earned extraordinary                    • In July 2003, the Inspector General,
honors by virtue of their work on three significant           accompanied by the Assistant Inspector General
criminal investigations highlighted in previous               for Auditing, testified before the Subcommittee on
semiannual reports. The Tampa chapter of the                  Benefits, House Committee on Veterans’Affairs.
Military Order of the Purple Heart, an organization           The testimony highlighted some of the OIG efforts
chartered by the U.S. Congress exclusively for                to protect our Nation’s veterans and to identify and
combat-wounded veterans, presented the agents                 eliminate criminal activity, waste, abuse, and
with the National Commander Citation awards.                  mismanagement in the VA fiduciary and field
                                                              examination program.
Association of Government Accountants

• Senior auditor Lynn Scheffner served as
President of the Kansas City chapter for the 2002-
2003 program year. Under her leadership, the
chapter received the platinum award, the
association’s highest level of recognition, and also
an award for highest overall membership growth.

• Senior auditor Ken Myers served as the
Midwest Region Vice President during the 2002-
2003 program year. He received the platinum level
award for his superior accomplishments. He also
received a national special achievement award that
recognizes younger association members for
leadership ability and notable contributions toward
improving financial management.

Letter of Appreciation

• Special Agent Jenny Pate received a letter of
appreciation from a grateful veteran. The veteran
sent the letter to the Special Agent in Charge of the
VA OIG Northeast Field Office to let him know
that he had kind and courteous people working for
him. The veteran praised Special Agent Pate for
helping resolve a problem with a VAMC.

OIG Congressional Testimony

• In May 2003, the Inspector General,
accompanied by the Assistant Inspector General
for Auditing, testified before the House Committee
on Veterans’Affairs. The testimony discussed
OIG’s efforts to identify and eliminate criminal
activity, waste, abuse, and mismanagement in
programs administered by VA.




                                                        59

Other Significant OIG Activities




                        This page intentionally left blank in printed copy.




                                              60

                                          APPENDIX A

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                                  REVIEWS BY OIG STAFF


  Report                                                      Funds Recommended
 Number/                                                         for Better Use   Questioned
Issue Date                    Report Title                     OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS
02-02939-82    Combined Assessment Program Review of the VA
4/15/03        Medical Center Huntington, WV

03-00699-83    Combined Assessment Program Review of the
4/22/03        VA Roseburg Healthcare System, Roseburg, OR      $65,000     $65,000

03-00871-84    Combined Assessment Program Review of the       $210,920    $210,920
4/24/03        VA Regional Office Atlanta, GA

02-02171-89    Combined Assessment Program Review of North     $803,386    $803,386
4/30/03        Chicago VA Medical Center, North Chicago, IL

02-00987-96    Combined Assessment Program Review of the                              $1,575
5/20/03        San Francisco VA Medical Center

02-03094-101   Combined Assessment Program Review of the
5/22/03        James A. Haley VA Medical Center Tampa, FL

03-00760-102   Combined Assessment Program Review of the        $24,862     $24,862
5/27/03        VA Medical Center Marion, IL

03-01049-109   Combined Assessment Program Review of the        $35,003     $35,003
6/5/03         VA Regional Office Muskogee, OK

02-03376-112   Combined Assessment Program Review of the
6/12/03        VA Regional Office St. Petersburg, FL

03-01379-115   Combined Assessment Program Review of the       $576,402    $576,402
6/19/03        Houston VA Medical Center, Houston, TX

03-00758-117   Combined Assessment Program Review of the
6/27/03        VA Regional Office Chicago, IL

03-00759-125   Combined Assessment Program Review of the,       $39,749     $39,749
7/10/03        VA Regional Office St. Paul, MN

03-01387-126   Combined Assessment Program Review of the
7/14/03        VA Medical Center Iron Mountain, MI




                                                    61

  Report                                                          Funds Recommended
 Number/                                                             for Better Use   Questioned
Issue Date                     Report Title                        OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)
02-02172-129   Combined Assessment Program Review of the           $235,656    $235,656
7/14/03        Washington, DC VA Medical Center

03-00287-130   Combined Assessment Program Review of the           $500,000    $500,000
7/16/03        VA Regional Office Los Angeles, CA

03-01396-131   Combined Assessment Program Review of the
7/17/03        Overton Brooks VA Medical Center Shreveport, LA

03-00988-135   Combined Assessment Program Review of the
7/18/03        VA Sierra Nevada Health Care System Reno, NV

03-00700-140   Combined Assessment Program Review of the
7/29/03        VA Medical Center Bay Pines, FL

03-00821-141   Combined Assessment Program Review of the           $279,622    $279,622
7/31/03        Edith Nourse Rogers Memorial Veterans Hospital,
               Bedford, MA

03-00752-143   Combined Assessment Program Review of the
7/31/03        VA Medical Center Augusta, GA

02-03264-148   Combined Assessment Program Review of the           $631,295    $631,295
8/7/03         VA Medical Center New Orleans, LA

03-01674-155   Combined Assessment Program Review of the           $103,415    $103,415
8/14/03        VA Regional Office St. Louis, MO

03-01404-161   Combined Assessment Program Review of the
8/14/03        VA Medical Center Asheville, NC

02-03214-163   Combined Assessment Program Review of the
8/21/03        VA Medical Center Butler, PA

03-01289-167   Combined Assessment Program Report of the            $14,580     $14,580
8/21/03        Jonathan M. Wainwright Memorial VA Medical
               Center, Walla Walla, WA

03-01144-170   Combined Assessment Program Review of the
8/26/03        VA Hudson Valley Health Care System Montrose, NY

03-00987-172   Combined Assessment Program Review of the           $138,158    $138,158
8/26/03        VA Illiana Health Care System, Danville, IL

03-00445-173   Combined Assessment Program Review of the           $125,000    $125,000
8/29/03        Clement J. Zablocki VA Medical Center,
               Milwaukee, WI




                                                     62

  Report                                                                  Funds Recommended
 Number/                                                                     for Better Use   Questioned
Issue Date                      Report Title                               OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)
03-01550-181   Combined Assessment Program Review of the                  $612,875    $612,875
9/25/03        VA Iowa City Health Care System, Iowa City, IA

03-01855-179   Combined Assessment Program Review of the
9/30/03        VA Medical Center Fayetteville, AR

COMBINED ASSESSMENT PROGRAM SUMMARY REVIEWS

03-01091-87    Summary Report of Combined Assessment Program
4/28/03	       Reviews at the Veterans Health Administration Medical
               Facilities October 2002 through March 2003

03-02726-145   Summary Report of Combined Assessment Program
8/6/03	        Reviews at the Veterans Health Administration Facilities
               October 2002 through June 2003

INTERNAL AUDITS

02-01339-85    Audit of Veterans Health Administration’s Part-Time
4/23/03        Physician Time and Attendance

02-02129-95    Audit of Veterans Health Administration’s Reported
5/14/03        Medical Care Waiting Lists

02-01638-118   Management Letter, Audit of VA’s Fiscal Years 2002 and
7/17/03	       2001 Consolidated Financial StatementsGeneral Computer
               Controls Review at the Austin Automation Center

02-01638-119   Management Letter, Audit of VA’s Fiscal Years 2002 and
7/17/03	       General Computer Controls Review at the Philadelphia
               Information Technology Center

02-01638-120   Management Letter, Audit of VA’s Fiscal Years 2002 and
7/17/03	       2001 Consolidated Financial Statements General Computer
               Controls Review at the Hines Information Technology Center

02-01638-146   Management Letter, Audit of the Department of Veterans
8/6/03	        Affairs Consolidated Financial Statementsfor the Year
               Ended September 30, 2002

02-01638-151   Management Letter, Audit of VA’s Fiscal Years 2002
8/11/03	       and 2001 Consolidated Financial StatementsCompensation
               and Pension System Review

02-01638-152   Management Letter, Audit of VA’s Fiscal Years 2002
8/11/03	       and 2001 Consolidated Financial Statements Financial
               Management System Review



                                                        63

  Report                                                                   Funds Recommended
 Number/                                                                      for Better Use   Questioned
Issue Date                        Report Title                              OIG     Management   Costs

INTERNAL AUDITS (Cont’d)

02-01638-153     Management Letter, Audit of VA’s Fiscal Years 2002
8/11/03          and 2001 Consolidated Financial Statements Loan
                 Guaranty Systems Follow-Up Review

02-01638-154     Management Letter, Audit of VA’s Fiscal Years 2002
8/11/03          and 2001 Consolidated Financial Statements Personnel
                 and Accounting Integrated Data System Review

OTHER OFFICE OF AUDIT REVIEWS

03-00440-80      Attestation of the Department of Veterans Affairs Detailed
4/2/03           Accounting Submission for Fiscal Year 2003

00-02021-86      Review of Veterans Benefits Administration Loan Guaranty
4/25/03          Service Loan Refunding Practices

01-01544-88      Accuracy of Data Used to Compute VA’s Chronic Disease
5/1/03           Care and Prevention Indices for FY 2001

02-01198-103     Evaluation of Hotline Complaint Concerning Time and
5/23/03          Attendance of Two Part-Time Physicians at Kansas City                                    $13,102
                 VA Medical Center

03-02152-157     Evaluation of Allegations of Inappropriate Compensation
8/13/03          and Pension Claims Processing at VA Regional Office
                 Montgomery, AL

03-02718-160     Report on the Department of Veterans Affairs Policies and
8/15/03          Procedures to Give First Priority to the Location of New
                 Offices and Other Facilities in Rural Areas

CONTRACT REVIEWS *

03-00531-90      Review of Proposal for Nuclear Imaging Systems               $578,753
4/29/03          Submittedby Philips Medical Systems Company Under
                 Solicitation Number M6-Q7-02

02-00692-91      Verification of Novartis Opthalmics, Inc.’s Self-Audit                                   $69,113
5/5/03           Under Federal Supply Schedule Contract Number
                 V797P-5281x

00-02780-92      Settlement Agreement, Post Award Review of Medical                                       $32,188
5/7/03           Supply Manufacturer


* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews are
determined when the OIG receives the contracting officer’s decision on the recommendations.


                                                          64

  Report                                                                 Funds Recommended
 Number/                                                                    for Better Use   Questioned
Issue Date                      Report Title                              OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

02-01956-93    Settlement Agreement, Gambro Renal Products, Inc.,                             $554,110
5/7/03         Federal Supply Schedule Contract No. V797P-3379j

00-02842-97    Settlement Agreement, Ortho Biotech Products, L.P.                             $184,039
5/7/03         Postaward Review of Federal Supply Schedule Contract
               Number V79P-5611M

03-01267-94    Review of Federal Supply Schedule Proposal Submitted
5/13/03        by Merck/Schering-Plough Distribution Services LLC,
               Under Solicitation Number M5-Q50A-03

03-01686-98    Review of Inkine Pharmaceutical Company, Inc.’s                                    $517
5/13/03        Billings Under Federal Supply Schedule Contract
               Number V797P-5487x

03-01506-100   Review of Proposal for Primary/Preventive Care Services
5/21/03	       at Two Community Based Outpatient Clinics in New
               Mexico Submitted by Health Centers of Northern
               New Mexico Under Request for Proposal
               Number 501-06-03

03-01539-108   Review of Federal Supply Schedule Proposal Submitted $2,364,736
6/3/03         by Karl Storz Endoscppy-America, Inc., Under
               Solicitation Number RFP-797-FSS-99-0025-R3

03-01685-111   Review of Proposal Submitted by Nebraska Health
6/9/03	        Systems Under Solicitation Number 636-0009-03 for
               Magnetic Resonance Imaging Services for the
               Department of Veterans Affairs Nebraska Western
               Iowa Health Care System

00-02850-114   Settlement Agreement with a Pharmaceutical                                    $4,423,218
6/13/03        Manufacturer

03-02009-113   Review of Proposal Submitted by New York University         $23,626
6/17/03        Under Solicitation

03-01866-116   Review of Proposal Submitted by the University of          $343,396
6/19/03	       Pittsburgh Physicians Under Solicitation Number
               646-54-02 for Kidney Transplant Services at
               Department of Veterans Affairs Pittsburgh Healthcare
               System

03-01361-121   Review of Proposal Submitted by University of             $2,445,156
7/1/03	        Wisconsin Hospital & Clinics Under Solicitation
               Number RFQ 69D-066-03 for Organ Transplant
               Services for the Wm. S. Middleton Memorial
               Veterans Hospital, Madison, WI



                                                       65

  Report                                                                   Funds Recommended
 Number/                                                                      for Better Use   Questioned
Issue Date                      Report Title                                OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
03-00571-124   Review of Proposal Submitted by Duke University              $394,187
7/2/03	        Medical Center, Under Solcitation Number
               RFP 558-50-02, for Radiation Oncology Services at
               the Department of Veterans Affairs Medical Center
               Durham, NC

03-01355-132   Review of Proposal Submitted by Varian Medical              $1,779,198
7/16/03        Systems, Inc., Under Solicitation Number M6-Q-16-02

00-02844-128   Review of Voluntary Disclosure and Refund Offer                                 $1,984,278
7/17/03        Janssen Pharmaceutica Products, L.P. Contract Number
               V797P-5770m

03-02433-136   Review of Proposed Settlement by Novo Nordisk                                     $114,281
7/17/03        Pharmaceuticals, Inc. Under Federal Supply Schedule
               Contract Number V797P-5224x

00-02848-127   Review of Voluntary Disclosure and Refund Offer                                   $42,902
7/18/03        Ortho-McNeil Pharmaceutical, Inc., Contract Number
               V797P-5387x

03-01659-137   Review of Proposal Submitted by the University of Utah
7/21/03	       Hospital and Department of Radiation Oncology,
               Under Solicitation Number RFP 660-001-03, for
               Radiation Oncology Services to the Department of
               Veterans Affairs Salt Lake City Health Care System

03-02359-138   Preaward Review of Private Diagnostic Clinic, PLLC’s
7/22/03        Proposal in Response to Request for Proposal Number
               246-03-00204

03-01896-139   Review of Federal Supply Schedule Proposal Submitted          $39,563
7/23/03        by Genentech, Inc.

02-02409-142   Verification of Ferring Pharmaceuticals Inc.’s Self-Audit                         $48,045
7/31/03        Under Federal Supply Schedule Contract Number
               V797P-5228x

03-01865-144   Review of Federal Supply Schedule Proposal Submitted $2,605,595
8/4/03         by IVAX Pharmaceutical, Inc., Under Solicitation
               Number M5-Q50A-03

03-01941-156   Review of Proposal Submitted by the University of             $82,988
8/12/03	       Nebraska Medical Center Under Solicitation Number
               636-0003-03 for Nurse Practitioner and Pacer
               Technician Services at Department of Veterans Affairs
               Medical Center Omaha, NE




                                                        66

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                      Report Title                            OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
03-02360-158   Review of Proposal Submitted by the University of       $472,715
8/14/03	       Pittsburgh Physicians Under Solicitation Number
               646-37-03 for Cardiac Surgeon Services at the
               Department of Veterans Affairs Pittsburgh Health Care
               System

03-02426-162   Postaward Review of Contract Number V618P-3864a
8/19/03	       Awarded to University of Minnesota Physicians for
               Urology Surgeon Services for the Department of
               Veterans Affairs Medical Center Minneapolis, MN

03-02401-168   Review of Proposal Submitted by Indiana University
8/20/03	       Under Solicitation Number 583-01-03 for Urology
               Surgeon Services at Richard L. Roudebush VA Medical
               Center

03-02132-169   Review of Proposal Submitted by the University of
8/21/03	       Kentucky Medical Center Under Solicitation Number
               596-9-03 for Emergency Cardio Thoracic Services for
               the Department of Veterans Affairs Medical Center
               Lexington, KY

02-00816-164   Settlement Agreement                                                        $1,023,835
8/22/03

03-02671-171   Review of Voluntary Disclosure and Refund Offer by                            $36,614
8/25/03        Wyeth Pharmaceuticals Under Federal Supply Contract
               Number V797P-5460x

03-02241-174   Review of Federal Supply Schedule Proposal Submitted $2,488,538
8/28/03        by Zoll Medical Corporation Under Solicitation
               Number RFP-797-FSS-99-0025-R3

03-02242-175   Review of Bio-Technology General Corporation’s                                $44,743
9/3/03         Proposed Refund Offer Under Federal Supply Schedule
               Contract Number V797P-5178x

03-01731-176   Review of Federal Supply Schedule Proposal Submitted $1,280,510
9/11/03	       by Johnson and Johnson Healthcare Systems, Inc., on
               Behalf of Janssen Parmaceutica Products, LP Under
               Solicitation Number M5-Q50A-03

03-02104-177   Review of Federal Supply Schedule Proposal Submitted $2,683,849
9/15/03        by Dey, L.P. Under Solicitation Number M5-Q50A-03




                                                       67

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                      Report Title                            OIG     Management   Costs

HEALTHCARE INSPECTIONS
02-03297-99    Healthcare Inspection, Environment of Care Issues,
5/23/03        VA Chicago Health Care System Chicago, IL

02-02868-105   Healthcare Inspection, Environment of Care Issues,
6/4/03         VA Medical Center St. Louis, MO

02-00026-106   Healthcare Inspection, Evaluation of Quality
6/4/03         Management in Veterans Health Administration
               Facilities

02-02863-107   Healthcare Inspection, Alleged Suspicious Deaths,
6/4/03         VA North Texas Health Care System Bonham, TX

02-02374-126   Healthcare Inspection, Patient Care and Quality
7/21/03        Management Issues, Hudson Valley Health Care
               System Montrose, NY

03-00607-147   Healthcare Inspection, Alleged Substandard Care
8/11/03        and Patient Abuse, VA North Texas Health Care
               System Dallas, TX

02-03412-165   Healthcare Inspection, Patient Care Issues, VA
8/21/03        Medical Center Washington, DC

03-02153-166   Healthcare Inspection, Quality of Care Issues, VA
8/21/03        Southern Nevada Healthcare System Las Vegas, NV

03-01986-180   Healthcare Inspection, Patient Care Issue, VA
9/30/03        Medical Center San Francisco, CA

ADMINISTRATIVE INVESTIGATIONS

03-00182-79    Administrative Investigation, Physician Time and
4/4/03         Attendance Issue, VA Medical Center North Chicago, IL

03-00350-81    Administrative Investigation, Nepotism Issue, VA
4/9/03         Medical and Regional Office Center Fargo, ND

03-00346-104   Administrative Investigation, Acceptance of
5/30/03        Compensation and Travel Payments Issues, Office of
               Regional Counsel, Indianapolis, IN

03-01008-110   Administrative Investigation, Physician Time and                              $10,168
6/16/03        Attendance Issue, VA New York Harbor Healthcare
               System, New York, NY




                                                       68

  Report                                                                    Funds Recommended
 Number/                                                                       for Better Use   Questioned
Issue Date                      Report Title                                 OIG     Management   Costs

ADMINISTRATIVE INVESTIGATIONS (Cont’d)
01-02549-122   Administrative Investigation, Contract Issues, Office of
7/3/03         Resolution Management, VA Central Office
               Washington, DC

03-00399-134   Administrative Investigation, Impartiality Issue, VA
7/24/03        Medical Center Salt Lake City, UT

01-02549-123   Administrative Investigation, Contract Issues, Acquisition
7/25/03        Operations Service, VA Central Office Washington, DC

03-00047-133   Administrative Investigation, Inappropriate Conduct and
7/25/03        Use of Franked Envelopes Issues, VA Medical Center
               Lexington, KY

03-00281-149   Administrative Investigation, Acceptance of Speaking Fees
8/15/03        and Gifts Issues, VA Medical Center Kansas City, MO

02-01429-150   Administrative Investigation, Temporary Duty Travel
8/15/03        Issues, Ralph H. Johnson VA Medical Center
               Charleston, SC

03-00460-159   Administrative Investigation, Government Vehicle Use
8/18/03        Issue, VA Regional Office Chicago, IL

03-01345-178   Administrative Investigation, Contract and Telephone
9/17/03        Use Issues, Edith Nourse Rogers Memorial Veterans
               Hospital Bedford, MA

TOTAL:                 104 Reports                                        $21,978,733   $4,395,923 $8,582,728




                                                        69

This page intentionally left blank in printed copy.




                     70

                                                 APPENDIX B


             STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR

The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management decisions and
implementation of OIG recommendations. It states a Federal agency shall complete final action on each
recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to complete
final action within this period, the OIG will identify the matter in their semiannual report to Congress until the
final action is completed. This appendix summarizes the status of OIG unimplemented reports and
recommendations.

The OIG requires that management officials provide documentation showing the completion of corrective
actions on OIG recommendations. In turn, OIG reviews status reports submitted by management officials to
assess both the adequacy and timeliness of agreed-upon implementation actions. When a status report
adequately documents corrective actions, OIG closes the recommendation. If the actions do not implement the
recommendation, we continue to monitor progress.

The number of reports in this category declined significantly, dropping from 80 in FY 1996 to only 8 as of
September 30, 2003. The following chart lists the total number of unimplemented OIG reports and
recommendations by organization. It also provides the total number of unimplemented reports and
recommendations issued over 1 year ago (September 30, 2002, and earlier).




                            Unimple me nte d OIG Re ports and Re comme ndations

                                                                    Is ue d 9/30/02,
                          VA                     Total
                                                                      and Earlie r
                         Office
                                        Re pts         Re coms   Re pts       Re coms

                         VHA              36             149        4             10

                        MGMT              24             44         0              0

                          VBA             8              26         3              9

                          I&T             2              21         0              0

                      VHA/S&LE            1              15         1             15

                         Total            71             255        8             34



Office of Acquisition and Materiel Management (A&MM)
Office of Information and Technology (I&T)
Office of Security and Law Enforcement (S&LE)

The OIG is particularly concerned with two reports on VHA operations (issued in 1997 and 1999) and two
reports on VBA operations (both issued in 2000) with recommendations that still remain open. The following
information provides a summary of reports over a year old with open recommendations.




                                                          71

Veterans Health Administration
Unimplemented Recommendations and Status

Report: Internal Controls Over the Fee-Basis Program, 7R3-A05-099, 6/20/97

Recommendations: The Under Secretary for Health should improve the cost effectiveness of home health
services by:
    1. Establishing guidelines for contracting for such services.
    2. Providing contracting officers with benchmark rates for determining the reasonableness of charges.

Status: The Chief Consultant for Geriatrics and Extended Care has proposed benchmark rates for home and
hospice care programs. The policy has been set forth in a draft home health and hospice care reimbursement
handbook. No planned completion date is available.

                                                  **********

Report: Evaluation of VHA’s Income Verification Match Program, 9R1-G01-054, 3/15/99

Recommendations: The Under Secretary for Health should:
   1. Require the Chief Network Officer to ensure that VISN Directors establish performance standards and
      quality monitors, and strengthen procedures and controls for means testing activities and billing and
      collection of Health Eligibility Center (HEC) referrals to include reviewing a sample of cases to verify
      appropriate billing and compliance with the 60-day billing standard and to determine why unbilled
      referrals were not billed and taking appropriate corrective action.
   2. Requiring the Chief Information Officer to develop performance measures and monitor periodic
      performance reports to ensure the HEC performs multiple year income verification.
   3. Expedite action to centralize means testing activities at the HEC.

Status: The VHA Chief Business Officer has initiated the following:
1. Software to automatically generate a bill on the 61st day of referral is in development. It is scheduled for
national release in the first quarter, FY 2004.
2. The HEC is still on target for the first quarter, FY 2004 to do multiyear cases. The initial requests for
2002 income data has been submitted and received from both the Internal Revenue Service and Social Security
Administration with plans to start the income verification process for income year 2002 in October 2003.
When those cases are opened, the software will concurrently identify the need to do a second year review and
notify staff if a second year income review is due. The HEC staff will then be able to concurrently process
both income years. The HEC anticipates beginning this process in the first quarter, FY 2004.
3. VHA will be implementing an alternative financial assessment renewal process that involves leveraging
their required income verification responsibility. Full implementation of the revised financial assessment
process based upon the IVM program is dependent upon substantial modification to VHA’s information
system; it is expected to be implemented by the first quarter, FY 2005.

                                                  **********




                                                       72

Report: Administrative Investigation, Irregularities in Employee Relocation Reimbursements and the
Workers’ Compensation Program, VAMC West Palm Beach, FL, 00-01632-117, 7/20/01

Recommendations: The VISN 8 Director should:
   1. Take appropriate administrative action against the VAMC Director for allowing the Chief, Human
      Resources Management Service, and the Chief, Business Office to avoid Federal requirements to
      report job-related injuries, and bill associated costs, to the Department of Labor.
   2. Take appropriate administrative action against the VAMC Director for not ensuring that VAMC
      employees are adequately informed of their workers’ compensation program rights, and for improperly
      denying three employees continuation of pay benefits.
   3. Ensure that employees who were injured at the VAMC since the VAMC Director became Director
      have received all the benefits to which they are entitled.

Status:
1 and 2. The VISN must consider the findings and recommendations of the most recent board of investigation.
This board completed its site visit September 18, 2003. The VISN will finalize appropriate action upon
receipt of the board’s report, which is anticipated in the first quarter, FY 2004.
3. The appointed board of investigation completed their site visit. The VISN awaits their findings and
recommendations in order to respond to the current status of the workers’ compensation program and whether
staff has been provided all of the benefits to which they are entitled.

                                                  **********

Report: Audit of the Medical Care Collection Fund Program, 01-00046-65, 2/26/02

Recommendations: The Under Secretary for Health should improve Medical Care Collection Fund program
operations by:
    1. Improving medical record documentation so that treatment is coded accurately and properly billed.
    2. Ensuring that VA medical facilities use the preregistration software as required.

Status: This requires action by two VHA offices.
1. The VHA Information Office is revising the health record and heath information handbook that reflects the
enhancements. No planned completion date is available.
2. The VHA Chief Business Office has submitted a project request for an enhancement to the VHA diagnostic
measures to include a new national report on the use of the preregistration software. The addition of this
report to the diagnostic measures Website will allow VHA to ensure that facilities are using the software. This
enhancement is scheduled for implementation by the third quarter, FY 2004.

                                                  **********




                                                      73

Joint (Veterans Health Administration and Office of
Security and Law Enforcement)
Unimplemented Recommendations and Status

Report: Review of Security and Inventory Controls Over Selected Biological, Chemical, and Radioactive
Agents Owned by or Controlled at VA Facilities, 02-00266-76, 3/14/02

Recommendations: The Under Secretary for Health, in conjunction with senior policy, research, and
operations manages, need to:
    1. Redefine and strengthen security and access requirements and procedures for safeguarding high-risk
        agents and materials used in VA facilities, such as the agents on the Centers for Disease Control and
        Prevention Select Agents List, other biological agents, toxic chemicals, and certain pharmaceuticals
        that might be targeted for use by terrorists.
    2. Improve personnel access controls and reduce vulnerabilities to theft of selected agents by
        implementing measures such as the consistent use of photo identification badges with expiration dates,
        installation of electronically controlled entry points to and from sensitive areas, and use of key-card
        systems, video surveillance, and/or biometric systems.
    3. Review documents related to VA leased-space to others for research use (e.g., to an affiliated
        university) to ensure that VA’s agreements define security responsibilities and limitations.
    4. Clarify VA’s accountability and responsibilities for actions of non-VA persons supervising VA or non-
        VA research in VA facilities or in VA space leased to other institutions.
    5. Strengthen controls for authorizing and procuring high-risk materials and agents including biological
        agents, and ensure that inventory, transfer, and validated destruction policies and procedures account
        for biological agents and chemicals at all times. Additionally, procedures should outline appropriate
        requirements for the use of witnesses to verify transfer and destruction processes.
    6. Require managers to transfer, dispose of, or establish delimiting dates on select agents no longer in use
        and stored in research and clinical laboratories.
    7. Reevaluate the extent of compliance with radiation safety and handling/delivery procedures,
        particularly vendor deliveries after regular working hours and on weekends. In addition, facility
        managers should require contractors and vendors to provide evidence that background and legal
        histories on their employees are checked before they are allowed to access sensitive VA areas.
    8. Strengthen human resource management controls and procedures to consistently verify or update non-
        citizens’ legal residence or employment status while working in VA facilities or on VA matters,
        including students and contractors.
    9. Reevaluate the adequacy of security clearance level requirements for employees who could have access
        to or work with highly sensitive agents and materials.
    10. Take action on non-citizen employees without valid legal status and notify appropriate legal
        authorities.
    11. Take action on any noncitizens with access to VHA research and clinical laboratories if they are
        considered “restricted persons” according to the USA PATRIOT Act.
    12. Ensure clearance and checkout procedures extend to employees without compensation and contract
        employees.
    13. Issue guidance to revise local disaster plans to include provisions for responding to terrorist activities.
    14. Direct managers at all facilities to perform vulnerability assessments of their physical research and
        clinical laboratories and consistently implement security measures.
    15. Provide researchers and other appropriate personnel necessary training on security issues, including
        security of high-risk and sensitive agents, and procedures to forward requests for research articles
        through their managers and the facility Freedom of Information Act officer.


                                                        74

Status: This report requires action by VHA and the Office of Security and Law Enforcement (S&LE), part of
the Office of Policy, Planning, and Preparedness. On March 21, 2002, the VA Deputy Secretary requested the
Under Secretary for Health and the then-Assistant Secretary for Policy and Planning to provide him a joint
report that certifies that all the recommendations have been completed by September 30, 2002. As of
September 30, 2003, 15 of 16 recommendations remain unimplemented pending additional actions by the
Department. To comply with Federal regulations, VHA needs to ensure that field managers have fully
addressed the security and inventory controls over sensitive or dangerous biological agents, chemicals, and
radioactive materials owned by or controlled at VA facilities, that might be used as weapons of mass
destruction - not just the Center for Disease Control and Prevention-select agents that are used in some of
VHA’s research laboratories.

The OIG recommendations made to VHA are consistent with requirements outlined in the Public Health
Security and Bioterrorism Preparedness and Response Act of 2002 (42 Code of Federal Regulations 73).
Also, the Department of Health and Human Services (HHS) issued new regulations in December 2002 that
include guidance for laboratories working with particularly sensitive bioagents and toxins, often generally
described as “select agents.” While not including select agents or toxins in a naturally occurring environment
if they have not been intentionally introduced, cultivated, collected, or otherwise extracted from natural
sources, the HHS regulations apply to facilities using various select agents and toxins. The HHS requirements
are designed to implement provisions of the Public Health Security and Bioterrorism Preparedness and
Response Act to provide protection against the effects of misuse of select agents and toxins, whether
inadvertent or the result of terrorist acts against the United States homeland or other criminal acts. The HHS
guidance includes registration requirements and instructions regarding personnel, risk assessments, and
inventory controls. The OIG recommendations are also consistent with the United and Strengthening America
by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism (USA PATRIOT) Act of 2001,
which prohibits certain restricted persons from accessing select agents.

VHA’s Office of Research and Development plans on systematically reviewing all field research sites over the
next 3 years, as part of its infrastructure program, to identify and fund equipment needs that include security
devices. In addition, on November 20, 2002, VHA issued requirements applicable to research laboratories in
VHA Directive 2002-075, “Control of Hazardous Materials in VA Research Laboratories.” This Directive
included instructions on accountability for select agents, personnel/access measures, and physical security
requirements, but it does not apply to VHA’s clinical laboratories that are designated at biosafety level 3. It is
unclear to us at this time whether any biosafety level 3 clinical laboratories are configured to safely handle the
more sensitive select agents or toxins. Since our findings did not attest to accuracy of the October 2001
national inventory, we are also unclear whether these particular clinical laboratories may still have these
sensitive items in their possession for some clinical or educational purpose. During the October 2001 national
inventory effort, VHA “provided recommendations” to clinical laboratory managers on retention, storage, and
security of those agents. No formal policy was issued. VHA officials stated that clinical laboratories “have
not generally been secured due to accessibility requirements” (i.e., that they be open and accessible to medical
staff) and also “the low risk for these laboratories.” In addition, VHA’s clinical laboratory managers “are
expected to operate in accordance with the recommendations” of VHA’s Biohazardous Materials Task Force as
well as an issued joint memorandum. The memorandum, issued on July 29, 2002, was an interim measure to
immediately address laboratory safety and security, and it contained instructions for conducting assessments
and making immediate changes to the physical security of VHA clinical and research laboratories. The
memorandum instructed field facilities to apply already existing Department physical security standards.
Based on that memorandum, OS&LE inspectors began reviewing VHA clinical and research laboratory
security as part of routine, on-site program inspections. However, VHA also published an Emergency
Management Guidebook with requirements for plans that are to include security of sensitive and critical
locations in VA facilities, as part of facilities’ hazard vulnerability assessments. There may be other sensitive




                                                       75

and critical locations in VHA facilities besides laboratories, such as those storing or using particularly
dangerous chemicals or gases, or those with irradiators.

We are reviewing VHA’s ongoing actions and working with officials on resolving the implementation of the
recommendations. In addition, VA’s S&LE office has drafted a revised VA Directive and Handbook 0710,
“Personnel and Classified Information Security” and it is in Department-wide concurrence. After receiving
concurrences, they will both be published. Also in January 2003, the office began revising VA Directive and
Handbook 0730, “Security and Law Enforcement.” No planned date for publication is available. We are
continuing our follow up of these actions as well.

Because of the national significance of these important issues, public health safety, and the VA Departmental
guidance forthcoming or still needed, it is important that VA senior managers responsible for facilities that
possess or handle biological agents, chemicals, or radioactive substances or materials, that could be used as
weapons of mass destruction or for significant public harm, provide a certification that they have implemented
all OIG recommendations and are in compliance with applicable VA and other guidelines.

                                                    **********


Veterans Benefits Administration
Unimplemented Recommendations and Status

Report: Audit of the C&P Program’s Internal Controls at VARO St. Petersburg, FL, 99-00169-97, 7/18/00

Recommendations: The Under Secretary for Benefits should:
   1. Establish a positive control Benefits Delivery Network (BDN) system edit keyed to employee
      identification number that ensures employee claims are adjudicated only at the assigned regional office
      of jurisdiction and prevents employees from adjudicating matters involving fellow employees and
      veterans service officers at their home office.
   2. Establish a BDN system field for third-person authorization and a control to prevent release of
      payments greater than $15,000 without the third-person authorization.
   3. Determine the feasibility of direct input and storage of rating decisions in BDN.
   4. Issue guidelines for the proper and effective handling of drop-mail to ensure continued entitlement.
   5. Take steps necessary to make use of Social Security numbers as employee identification numbers, and
      tie BDN access to Social Security numbers.

Status:
1 and 2. As the Modern Award Processing system is designed, this control will be incorporated. This step will
be implemented in the final stages of deployment, scheduled for the end of the fourth Quarter, FY 2004.
3. National deployment of the Rating Board Automation 2000 program addresses this recommendation. As of
July 2003, the program was at 97 percent usage nationally. There are some defects in the program that
requires usage of an old program for some less common types of cases. An updated version of the program
that fixes the defects cannot take place until Windows 2000 is released nationally in November 2003.
4. The procurement package for a nationwide address locator service was awarded in September 2003.
After securing the software, preparing new manual procedures, and training field users, we expect that field
offices will be using this new change of address locator by the end of the first quarter of FY 2004.
5. VBA awarded the BDN database software conversion contract and the estimated completion date is
September 2004. After the conversion, VAROs will have a single logon capability across geographical




                                                        76

regions. VBA is also modifying the BDN to track employee activity. When the BDN change is made,
employee access and the transactions they generate will be identified and filed by their Social Security number.
The estimated completion date is November 2003.

                                                   **********

Report: Audit of VBA’s Income Verification Match Results, 99-00054-1, 11/8/00

Recommendation:
   1. The Under Secretary for Benefits should complete necessary data validation of beneficiary identifier
      information contained in C&P master records to reduce the number of unmatched records with SSA.
      (This is a repeat recommendation from the 1990 OIG report.)

Status: The C&P Service determined that an additional modification to the processing of data was required
before releasing the monthly Social Security number verification lists to VAROs. The modification is currently
in the concurrence process. Change 181 to M21-1, part IV, chapter 31 providing updated procedures for
working the verification lists was approved in August 2003 and will be published soon.

                                                   **********

Report: Follow Up Evaluation of the Causes of C&P Overpayments, 01-00263-53, 2/20/02

Recommendation:
   1. The Under Secretary for Benefits should reduce C&P benefit overpayments by revising processing
      procedures and clarifying VA policy to proactively suspend benefits when bad addresses cannot be
      resolved.

Status: The procurement package for a nationwide address locator service was awarded in September 2003.
After securing the software, preparing new manual procedures, and providing training to field users, VBA
expects that field offices will be using this new change of address locator by the end of the first quarter, FY
2004.

                                                   **********




                                                       77

This page intentionally left blank in printed copy.




                     78

                                                 APPENDIX C


                      INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

The table below cross-references the specific pages in this semiannual report to the reporting
requirements where they are prescribed by the Inspector General Act of 1978 (Public Law 95-
452), as amended by the Inspector General Act Amendments of 1988 (Public Law 100-504), and
the Omnibus Consolidated Appropriations Act of 1997 (Public Law 104-208).

 IG Act
References                                 Reporting Requirement                                        Page

Section 4 (a) (2)      Review of legislation and regulations                                              50

Section 5 (a) (1)      Significant problems, abuses, and deficiencies                                   1-55

Section 5 (a) (2)      Recommendations with respect to significant problems, abuses, and                1-55
                       deficiencies

Section 5 (a) (3)      Prior significant recommendations on which corrective action has not been          71
                       completed                                                                       (App. B)

Section 5 (a) (4)      Matters referred to prosecutive authorities and resulting prosecutions and         i
                       convictions

Section 5 (a) (5)      Summary of instances where information was refused                                 80
                                                                                                       (App. C)

Section 5 (a) (6)      List of audit reports by subject matter, showing dollar value of questioned     61 to 70
                       costs and recommendations that funds be put to better use                       (App. A)

Section 5 (a) (7)      Summary of each particularly significant report                                   i to vi

Section 5 (a) (8)      Statistical tables showing number of reports and dollar value of questioned        81
                       costs for unresolved, issued, and resolved reports                              (Table 1)

Section 5 (a) (9)      Statistical tables showing number of reports and dollar value of                   82
                       recommendations that funds be put to better use for unresolved, issued, and     (Table 2)
                       resolved reports

Section 5 (a) (10)	    Summary of each audit report issued before this reporting period for which no      80
                       management decision was made by end of reporting period                         (App. C)

Section 5 (a) (11)     Significant revised management decisions                                           80
                                                                                                       (App. C)

Section 5 (a) (12)	    Significant management decisions with which the Inspector General is in            80
                       disagreement                                                                    (App. C)

Section 5 (a) (13)	    Information described under section 05(b) of the Federal Financial                 80
                       Management Improvement Act of 1996 (Public Law 104-208)                         (App. C)



                                                            79

           INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)

Prior Significant Recommendations Without Corrective Action and Significant Management
Decisions

The IG Act requires identification of: (i) significant revised management decisions, and (ii) significant
management decisions with which the OIG is in disagreement. During this 6-month period, there were no
reportable instances under the Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested was
unreasonably refused, thus hindering the ability to conduct audits or investigations. During this 6-month
period, there were no reportable instances under the Act.

Federal Financial Management Improvement Act of 1996 (Public Law 104-208)

The IG Act requires the OIG to report instances and reasons when VA has not met the intermediate target dates
established in the VA remediation plan to bring VA’s financial management system into substantial compliance
with the requirements of Public Law 104-208. The OIG has reported in our Report of the Audit of the
Department of Veterans Affairs Consolidated Financial Statements for Fiscal Years 2002 and 2001 (Report
Number 02-01638-47, Issued 1/22/03), that corrective action dates in the VA remediation plan are all in the
future.

Reports Issued Before this Reporting Period Without a Management Decision Made by the
End of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which no management
decision was made by the end of the reporting period. There were no internal OIG reports unresolved for over 6
months. However, there were four contract review reports unresolved because a contracting officer decision has
not been made for over 6 months. These contract review reports issued in 2002 will be closed after the OIG
receives the contracting officer price negotiation memorandum following contract awards.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and resolved reports for
this reporting period. Specifically, they provide summaries of the number of OIG reports with potential monetary
benefits that were unresolved at the beginning of the period, the number of reports issued and resolved during the
period with potential monetary benefits, and the number of reports with potential monetary benefits that remained
unresolved at the end of the period.




                                                        80

TABLE 1 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS


This table provides the resolution status information required by the IG Act. It summarizes the reports with
questioned costs.


                                                                      N U MB ER         QU ESTION ED
                    R ESOLU TION STATU S                                  OF                C OSTS
                                                                      R EPOR TS          (In Millions)
   No management deci si on by 9/30/02                                       0              $0
   Issued duri ng reporti ng peri od                                       18               $15.8
       Total Inventory This Period                                         18               $15.8

   Management deci si on duri ng reporti ng peri od
     D i sallowed costs (agreed to by management)                          18               $15.8
     Allowed costs (not agreed to by management)                             0              $0
       Total Management D ecisions This Period                             18               $15.8
       Total C arried Over to N ext Period                                   0              $0


Definitions:

• Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recommends
VA pursue collection, including Government property, services or benefits provided to ineligible recipients;
recommended collections of money inadvertently or erroneously paid out; and recommended collections or
offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor costs OIG recommends be disallowed by the contracting
officer or other management official. Costs normally result from a finding that expenditures were not made in
accordance with applicable laws, regulations, contracts, or other agreements; or a finding that the expenditure
of funds for the intended purpose was unnecessary or unreasonable.

• Disallowed Costs are costs that contracting officers or management officials have determined should not be
charged to the Government and which will be pursued for recovery; or on which management has agreed that
VA should bill for property, services, benefits provided, monies erroneously paid out, overcharges, etc.
Disallowed costs do not necessarily represent the actual amount of money that will be recovered by the
Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

• Allowed Costs are amounts on which contracting officers or management officials have determined that VA
will not pursue recovery of funds.




                                                       81

TABLE 2 –	 RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
           FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

This table provides the resolution status information required by the IG Act. It summarizes the reports with
recommended funds to be put to better use by management.


                                                                                  R EC OMMEN D ED
                                                                 N U MB ER
                                                                                 FU N D S TO B E P U T
                    R ESOLU TION STATU S                             OF
                                                                                  TO B E TTE R U S E
                                                                 R EPOR TS
                                                                                     (In Millions)

     No Management deci si on by 9/30/03                               8                 $20.3

     Issued duri ng reporti ng peri od                                14                 $44.0

         Total Inventory This Period                                  22                 $64.3

     Management deci si ons duri ng reporti ng peri od

       Agreed to by management                                        11                 $7.1

       Not agreed to by management                                     0                 $0.0

         Total Management D ecisions This Period                      11                 $7.1

         Total C arried Over to N ext Period                          11                 $57.2



Definitions:

• Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not incurred
by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional evidence
supporting the costs is provided. Questioned costs normally result from findings such as a failure to comply
with regulations or contract requirements, mathematical errors, duplication of costs, proposal of excessive
rates, or differences in accounting methodology. Unsupported costs result from a finding that inadequate
documentation exists to enable the auditor to make a determination concerning allowability of costs proposed.

• Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds that
will be used more efficiently based on management’s agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were not
awarded as a result of audits.

• Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                       82

                                                 APPENDIX D


                                       OIG OPERATIONS PHONE LIST


Investigations


Headquarters Investigations Washington, DC ..................................................... (202) 565-7702

Northeast Field Office (51NY) New York, NY ...................................................... (212) 951-6307

      Boston Resident Agency (51BN) Bedford, MA .................................................. (781) 687-3138

      Newark Resident Agency (51NJ) Newark, NJ .................................................... (973) 297-3339

      Pittsburgh Resident Agency (51PB) Pittsburgh, PA ............................................ (412) 784-3818

      Washington Resident Agency (51WA) Washington, DC ...................................... (202) 530-9191

Southeast Field Office (51SP) Bay Pines, FL ........................................................... (727) 398-9559

      Atlanta Resident Agency (51AT) Atlanta, GA .................................................... (404) 929-5950

      Columbia Resident Agency (51CS) Columbia, SC .............................................. (803) 695-6707

      Nashville Resident Agency (51NV) Nashville, TN .............................................. (615) 695-6373

      West Palm Beach Resident Agency (51WP) West Palm Beach, FL ...................... (561) 882-7720

Central Field Office (51CH) Chicago, IL ................................................................ (708) 202-2676

      Denver Resident Agency (51DV) Denver, CO ................................................... (303) 331-7673

      Cleveland Resident Agency (51CL) Cleveland, OH ............................................ (440) 717-2832

      Kansas City Resident Agency (51KC) Kansas City, KS....................................... (913) 551-1439

South Central Field Office (51DA) Dallas, TX ........................................................ (214) 253-3360

      Houston Resident Agency (51HU) Houston, TX................................................ (713) 794-3652

      New Orleans Resident Agency (51NO) New Orleans, LA .................................. (504) 619-4340

Western Field Office (51LA) Los Angeles, CA ........................................................ (310) 268-4269

      Phoenix Resident Agency (51PX) Phoenix, AZ .................................................. (602) 627-3252

      San Diego Resident Agency (51SD) San Diego, CA .......................................... (619) 400-5326

      San Francisco Resident Agency (51SF) Oakland, CA ......................................... (510) 637-6360

      Seattle Resident Agency (51SE) Seattle, WA......................................... (206) 220-6654, ext 31





                                                            83

                               OIG OPERATIONS PHONE LIST (CONT’D)


Healthcare Inspections


Central Office Operations Washington, DC ......................................................... (202) 565-8305

Healthcare Regional Office Washington (54DC) Washington, DC .................... (202) 565-8452

Healthcare Regional Office Atlanta (54AT) Atlanta, GA .................................... (404) 929-5961

Healthcare Regional Office Bedford (54BN) Bedford, MA .................................. (781) 687-2134

Healthcare Regional Office Chicago (54CH) Chicago, IL .................................. (708) 202-2672

Healthcare Regional Office Dallas (54DA) Dallas, TX .......................................... (214) 253-3330

Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005




Audit


Central Office Operations Washington, DC ......................................................... (202) 565-4625

Central Office Operations Division (52CO) Washington, DC ................................ (202) 565-4434

Contract Review and Evaluation Division (52C) Washington, DC ........................ (202) 565-4818

Financial Audit Division (52CF) Washington, DC .................................................. (202) 565-7913

Information Technology Division (52IT) Washington, DC ..................................... (202) 565-5826

Veterans Health and Benefits Division (52VH) ....................................................... (202) 565-8447

Operations Division Atlanta (52AT) Atlanta, GA ................................................... (404) 929-5921

Operations Division Bedford (52BN) Bedford, MA ................................................ (781) 687-3120

Operations Division Chicago (52CH) Chicago, IL .................................................. (708) 202-2667

Operations Division Dallas (52DA) Dallas, TX ........................................................ (214) 253-3300

      Austin Residence (52AU) Austin, TX ................................................................ (512) 326-6216

Operations Division Kansas City (52KC) Kansas City, MO .................................. (816) 426-7100

Operations Division Los Angeles (52LA) Los Angeles, CA ..................................... (310) 268-4335

Operations Division Seattle (52SE) Seattle, WA ...................................................... (206) 220-6654





                                                            84

                               APPENDIX E


                                 GLOSSARY


AIDS      Acquired Immune Deficiency Syndrome

BDN       Benefits Delivery Network

C&P       Compensation and Pension

CAP       Combined Assessment Program

DAS       Data Analysis Section

DEA       U.S. Drug Enforcement Administration

DIC       Dependency and Indemnity Compensation

FBI       Federal Bureau of Investigation

FDA       Food and Drug Administration

FOIA/PA   Freedom of Information Act/Privacy Act

FSS       Federal Supply Schedule

FTE       Full Time Equivalent

FY        Fiscal Year

GSA       General Services Administration

HEC       Health Eligibility Center

HHS       Department of Health and Human Services

HIV       Human Immunodeficiency Virus

HUD       Department of Housing and Urban Development

I&T       Office of Information and Technology

IG        Inspector General

IT        Information Technology

LGS       Loan Guaranty Service

MCI       Master Case Index

NCA       National Cemetery Administration

OHI       Office of Healthcare Inspections

OIG       Office of Inspector General

QM        Quality Management

S&LE      Office of Security and Law Enforcement

SSA       Social Security Administration

U.S.      United States

VA        Department of Veterans Affairs

VAMC      Veterans Affairs Medical Center

VARO      VA Regional Office

VBA       Veterans Benefits Administration

VHA       Veterans Health Administration

VISN      Veterans Integrated Service Network





                                       85

    Copies of this report are available to the public. Written requests should be sent to:

              Office of the Inspector General (53B)
              Department of Veterans Affairs
              810 Vermont Avenue, NW
              Washington, DC 20420


    The report is also available on our website:

              http://www.va.gov/oig/53/semiann/reports.htm

    For further information regarding VA’s OIG, you may call 202 565-8620.




Cover photo of

Vietnam Veterans Memorial

Courthouse Square, Prescott, Arizona by

Joseph M. Vallowe, Esq.

VA OIG, Washington, DC





                                                   86

This page intentionally left blank in printed copy.
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:         vaoighotline@mail.va.gov




                    Department of Veterans Affairs
                     Office of Inspector General
                   Semiannual Report to Congress

                   April 1, 2003 - September 30, 2003
